        Semiannual Report on the Audit,
        Investigative, and Security Activities
        of the United States Postal Service
        April 1 — September 30, 2008




AUDIT             INVESTIGATIONS                 SECURITY
SUMMARY OF PERFORMANCE




                         SUMMARY OF PERFORMANCE
                         For the period of April 1 — September 30, 2008

                             AUDIT
                             Reports issued                                                                                                    222
                             Signiﬁcant recommendations issued                                                                                 112
                             Total reports with ﬁnancial impact                                                                                 83
                               Funds put to better use                                                                              $387,560,085
                               Questioned costs1                                                                                    $163,436,940
                               Revenue Impact                                                                                          $4,217,803
                             TOTAL FINANCIAL IMPACT2                                                                              $555,214,828


                             INVESTIGATIONS (OIG & POSTAL INSPECTION SERVICE COMBINED)3
                             Investigations completed                                                                                        7,955
                             Arrests                                                                                                         4,392
                             Indictments/informations                                                                                         2,119
                                                               4
                             Convictions/pretrial diversions                                                                                 4,191
                             Administrative actions                                                                                          2,592
                             Cost avoidance                                                                                         $109,663,743
                             Fines, restitutions, and recoveries                                                                  $10,985,189,460
                               Amount to Postal Service5                                                                              $18,913,765


                             OIG HOTLINE CONTACTS
                             Telephone calls                                                                                               55,844
                             e-Mail                                                                                                         13,158
                             Virtual Front Ofﬁce calls                                                                                       5,266
                             Standard Mail                                                                                                     946
                             Voice mail messages                                                                                               666
                             Facsimile — FAX                                                                                                   394
                             TOTAL CONTACTS                                                                                                76,274


                         1
                             Includes unsupported costs of $52,847,385.
                         2
                             The Postal Service agreed to recommendations or proposed alternative corrective actions that, if implemented, could result in more than
                               $555 million in savings.
                         3
                             Statistics include joint investigations with other law enforcement agencies.
                         4
                             Convictions reported in this time frame may be related to arrests made in prior reporting periods.
                         5
                             Amount included in ﬁnes, restitution, and recoveries.
                                                            MESSAGE FROM THE INSPECTOR GENERAL AND THE CHIEF POSTAL INSPECTOR




MESSAGE FROM THE INSPECTOR GENERAL
AND THE CHIEF POSTAL INSPECTOR
At the beginning of the ﬁscal year, the Postmaster General challenged all U.S. Postal Service
executives and managers to look for ways to cut costs and increase revenue.

Based on this directive, the U.S. Postal Service Ofﬁce of Inspector General (OIG) and the
U.S. Postal Inspection Service combined their support and legal services. The Joint Mission
Support Center and Joint Legal Services Center now provide these critical functions for
both agencies. The heads of the two centers report directly to the Inspector General and the
Chief Postal Inspector.

The creation of these centers represents a positive step for both agencies and is expected to
result in cost savings by combining and more efﬁciently using resources. The Inspector General
and Chief Postal Inspector further agreed to issue a combined comprehensive statement of audit
and law enforcement work in this Semiannual Report on the Audit, Investigative, and Security
Activities of the United States Postal Service.

In this inaugural issue, the OIG reports statistics and activity for April 1 through September 30,
2008, as required by statute. For this issue only, the Postal Inspection Service reports statistics
and activities for the entire ﬁscal year, October 1, 2007, through September 30, 2008. Future
statistics will be semiannual.

The OIG and Postal Inspection Service thank Postal Service ofﬁcials, the Governors, and
members of Congress for their continuing support and important feedback, and look forward to
addressing the challenges and risks that lie ahead for the Postal Service in FY 2009.




        David C. Williams                                William R. Gilligan
        Inspector General                                Acting Chief Postal Inspector
TABLE OF CONTENTS




                    TABLE OF CONTENTS

                    AUDIT WORK BY RISK CATEGORY ........................................................ 1
                    Strategic Risk .............................................................................................................................................................. 1
                    Financial Risk .............................................................................................................................................................. 5
                    Operational Risk........................................................................................................................................................... 8
                    INVESTIGATIONS ................................................................................. 15
                    Revenue and Asset Protection..................................................................................................................................... 15
                    Workers’ Compensation Fraud .................................................................................................................................... 18
                    Mail Theft .................................................................................................................................................................. 19
                    Identity Theft.............................................................................................................................................................. 21
                    Mail Fraud ................................................................................................................................................................. 23
                    Contract Fraud ........................................................................................................................................................... 24
                    Homicides, Assaults, and Threats ................................................................................................................................ 25
                    Ofﬁcial Misconduct .................................................................................................................................................... 26
                    Executive Investigations and Internal Affairs ................................................................................................................. 27
                    Illegal Drugs and Narcotics Trafﬁcking ......................................................................................................................... 27
                    Robberies .................................................................................................................................................................. 28
                    Burglaries .................................................................................................................................................................. 29
                    Dangerous Mail Investigations..................................................................................................................................... 29
                    Child Exploitation via the Mail...................................................................................................................................... 31
                    SECURITY AND CRIME PREVENTION ..............................................33
                    Security ..................................................................................................................................................................... 33
                    Homeland Security ..................................................................................................................................................... 34
                    Global Security and Investigations ............................................................................................................................... 36
                    Cyber Intelligence ...................................................................................................................................................... 37
                    Consumer Education and Fraud Prevention .................................................................................................................. 39
                    APPENDICES ....................................................................................... 41
                    Appendix A – Reports with Quantiﬁable Potential Monetary Beneﬁts Report Listing ........................................................ 41
                    Appendix B – Findings of Questioned Costs ................................................................................................................. 50
                    Appendix C – Recommendations That Funds Be Put to Better Use ................................................................................ 51
                    Appendix D – Reported Non-monetary Beneﬁts ........................................................................................................... 52
                    Appendix E – Reports with Signiﬁcant Recommendations Pending Corrective Actions..................................................... 53
                    Appendix F – Signiﬁcant Management Decisions in Audit Resolution ............................................................................. 65
                    Appendix G – Investigative Statistics ........................................................................................................................... 66
                    Appendix H – Summary of Postal Service Investigative Activities Under Title 39 USC § 3013 .......................................... 68
                    Appendix I – Closed Congressional and Board of Governors’ Inquiries .......................................................................... 70
                    SUPPLEMENTAL INFORMATION........................................................... 74
                    Freedom of Information Act......................................................................................................................................... 74
                    Workplace Environment .............................................................................................................................................. 75
                    Jurisdiction and Laws................................................................................................................................................. 76
                                                                                                                                                 STRATEGIC RISK




AUDIT WORK BY RISK CATEGORY
The Ofﬁce of Audit (OA) uses a risk-based planning approach to identify audit work. In this way, it can identify the most
important work that needs to be done, and then position itself to do it via risk deployment. This approach enhances its value to
the Postal Service. For this reporting period, OA highlights audits and reviews that address risks in the strategic, ﬁnancial, and
operational areas.


STRATEGIC RISK                                                    Based on its success, OA created a complementary
                                                                  Financial Risk Model that evaluates 12 distinct risk factors.
The Strategic Risk category includes big picture, long-           These models enhance OA’s ability to plan audit work, and
range issues that impact the Postal Service’s overarching         to examine and monitor risk. Further they:
strategic direction. Strategic risk factors are those which
may impede the Postal Service’s ability to be effective           ■   Use predetermined business process risk indicators to
and efﬁcient, or ensure that its products and services                provide a nationwide snapshot of critical business areas.
are self-sustaining and balance legal considerations and          ■   Provide the ability to drill down to speciﬁc operational
stakeholder views.                                                    and ﬁnancial risks and contain graphical trending
                                                                      representations to identify anomalies and causal            Management
Continuous Auditing — Performance                                     relationships.                                              Response to OIG Work
Analyses and Risk Indicator Scans
                                                                  ■   Contribute to OA’s short- and long-term audit planning      OA adheres to professional
Continuous Auditing is a method of analysis using advances            and help validate OA resource usage.                        audit standards and
in technology that go beyond the traditional audit model
                                                                  ■   Are updated quarterly and offer trend information on        presents its audit work to
of assessing events at speciﬁc points in time and location.
                                                                      emerging issues.                                            management for comments
Using CA, Auditors gather data in a regular, predictable way,
                                                                                                                                  prior to issuing a ﬁnal report.
then analyze anomalies, problem indicators, and trends            ■   Serve as the basis for a high-level dashboard for           Unless otherwise noted in
over time.                                                            use by the Board of Governors’ Audit and Finance            the selected audit work
                                                                      Committee.                                                  discussed in this report,
OA began a Continuous Auditing/risk modeling initiative —
called Performance Analyses and Risk Indicator Scans              ■   Are predictive in nature, affording a proactive, rather     management has agreed or
(PARIS) — to address a wide variety of operational,                   than reactive, approach when tackling emerging              partially agreed with OA’s
ﬁnancial, and support issues within the Postal Service. The           issues.                                                     recommendations and is
objective of PARIS is to evaluate numerous data elements                                                                          taking or has already taken
from Postal Service systems by district or by program to          ■   Provide near real-time data to use in conducting            corrective action to address
identify indicators of, and situations that present, increased        individual audits as well as summary data used in           the issues OA raised.
risks. OA’s goal is to provide insight into and analysis of the       planning and developing nationwide audits.
data and then turn the data into information, knowledge,          ■   Assist the Postal Service in identifying emerging risks.
and ultimately, action.
                                                                  OA has initiated a number of audits based on the results of
PARIS project development follows a basic chain of steps:         these models including new site activation reviews as well
(1) identifying key risk factors; (2) identifying corresponding   as a delayed mail review. Further these models identiﬁed
data sources; (3) developing, testing and implementing            high risk and potentially fraudulent ﬁnancial transactions
automated risk models; and (4) providing feedback                 OA would not have necessarily identiﬁed in the past. In
and analysis to the OIG, Governors, and Postal Service            two recent instances, this led to the criminal prosecution
management (management). Audit techniques include                 of employees for embezzling funds via the use of no-fee
a variety of data gathering, analyses, and presentation           money orders.
procedures and tools; such as data mining techniques to
detect hidden patterns and anomalies, spreadsheet models          OA recently ﬁnalized a third model — the Engineering Risk
and other specialized tools for analyses, scorecards to track     Model, which focuses on automation risk (machine under-
performance against deﬁned indicators, and dashboards to          utilization), preventive maintenance risk, and equipment
present a concise view of the CA results.                         performance risk. Additional models are under development
                                                                  in all audit directorates. Management supports this effort.
OA is developing PARIS models across Postal Service               OA plans to issue reports summarizing PARIS results
business activities. The ﬁrst model to come from PARIS was        on a quarterly basis. Further, OA plans to meet with
the Operations Risk Model. It was designed based on OA’s          management periodically to share the PARIS results in
audit work in the Chicago District in ﬁscal year (FY) 2007.       greater detail.




                                                                                                                                       April 1 – September 30, 2008 | 1
STRATEGIC RISK




                                              Network Streamlining                                               legislative restrictions, and potential risk factors. OA
                                                                                                                 recommended management update the Detroit P&DC
                                              The need to analyze opportunities for network streamlining
                                                                                                                 consolidation proposal to correct the identiﬁed issues,
                                              remains a priority for the Postal Service and it has had
                                                                                                                 adjust savings and costs as appropriate, and then resubmit
                                              some success with local facility consolidations. OA reviews
                                                                                                                 the updated proposal to headquarters for review and
                                              focused on whether consolidation opportunities were
                                                                                                                 approval. Management disagreed with the methodology
                                              supported, how consolidations were implemented, and
                                                                                                                 used to calculate the savings overstatement, but agreed
                                              whether these initiatives realized projected cost savings.
                                                                                                                 with the recommendation. March 2008 updates to the
                                              Management requested that OA assess the Remote                     Postal Service’s consolidation policy are expected to
                                              Encoding Center (REC) network consolidation process and            address methodology issues in future consolidations.
                                              validate reported savings for 2006 and 2007. RECs assist
                                                                                                                 Management further requested OA review the Mojave,
                                              plants by processing mail with unreadable addresses.
                                                                                                                 CA, Post Office consolidation. OA concluded that the
                                              Management closed 47 RECs in response to workload
                                                                                                                 Mojave Post Office’s outgoing mail volume was not
                                              reductions, which resulted in a 41 percent reduction in REC
                                                                                                                 routed to the Bakersﬁeld P&DC in accordance with the
                                              network operating costs from 1999 to 2007. OA concluded
                                                                                                                 approved consolidation since collection box pick-up
                                              that management had valid reasons for selecting speciﬁc
                                                                                                                 times were not changed, resulting in a late mail arrival
                                              RECs for closure; however, they need to improve the
                                                                                                                 profile. In addition, transportation changes to highway
                                              business cases justifying their decisions. OA also found that
                                                                                                                 contract routes (HCR) were not accurately reported
                                              projected cost savings for 2006 and 2007 were generally
                                                                                                                 and not consistent with the consolidation proposal.
                                              supported, but overstated by about $300,000 for 2007. OA
                                                                                                                 Further, the Mojave Post Office’s service standards for
                                              recommended that management clarify the methodology
                                                                                                                 mail destined for Bakersfield, Fresno, and Mojave, CA,
                                              used to select RECs for closure in future business cases
                                                                                                                 were not met when outgoing mail was routed to the
                                              and revise 2007 REC closure savings from $7.1 million to
                                                                                                                 Santa Clarita P&DC for processing. OA recommended
                                              $6.8 million.
                                                                                                                 management strengthen accounting controls over HCRs
                                              Management also asked OA to review the proposed                    and ensure that transportation changes directed by the
                                              consolidation of the Detroit Processing and Distribution           approved consolidation proposal are accurately recorded
                                              Center (P&DC). Plant consolidations are one of three core          in the post-implementation review (PIR).
                                              elements of the network rationalization plan. OA concluded
                                                                                                                 In addition, OA completed its second in a series of Airport
                                              the proposal was generally accurate and supported,
                                                                                                                 Mail Center (AMC) outsourcing reviews. In its review of
                                              reduced costs, and increased operational effectiveness.
                                                                                                                 the Miami AMC outsourcing initiative, OA determined the
                                              However, OA identiﬁed a signiﬁcant overstatement in
                                                                                                                 decision to outsource some operations at the Miami AMC
                                              proposed annual savings, decreasing the total annual
                                                                                                                 was supported and complied with existing policies and
                                              savings from $4.2 million to $1.2 million. In addition, OA
                                                                                                                 procedures. Operational impacts of the outsourcing were
                                              identiﬁed issues in the proposal with a potential service
                                                                                                                 minimal, and outsourcing is expected to reduce costs. To
                                              downgrade, the stakeholder communication process,
                                                                                                                 further enhance the process, OA recommended that the
                                                                                                                 Postal Service conduct a PIR to measure the results of
                                                                                                                 this initiative.

                                                                                                                 Mail Processing Operations
                                                                                                                 OA determined that there was a favorable business case
                                                                                                                 for consolidating mail processing operations at the Waco
                                                                                                                 Processing and Distribution Facility (P&DF) and Waco
                                                                                                                 Annex into one location to improve processing efﬁciency.
                                                                                                                 Mail processing at the Waco P&DF and Annex (located
                                                                                                                 about 2 miles from the P&DF) was inefﬁcient because
                                                                                                                 unnecessary transportation costs were being incurred
                                                                                                                 to transport mail between facilities, staff were frequently
                                                                                                                 required to work at both facilities during the course of a
                                                                                                                 single tour, and some mail processing and mail handling
                                                                                                                 positions were duplicated between the two facilities. OA
                                                                                                                 recommended that management develop and execute a
Management requested that the OIG’s Ofﬁce of Audit assess the Remote Encoding Center network                     plan for consolidating Waco P&DF and Annex operations
consolidation process and validate reported savings for 2006 and 2007.                                           into one location.




2 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                            STRATEGIC RISK




Network Optimization
In June 2008, the Postal Service submitted its
                                                                                                                                                   Canton AMP
Network Plan to Congress, as mandated by the Postal
Accountability and Enhancement Act of 2006 (Postal
                                                                   Mojave
Act of 2006). This Act requires the Postal Service to              Consolidation                                                                                             Bridgeport AMP
                                                                                                                                         Detroit AMP
develop a strategy to rationalize its facility network and                                                        Sioux City AMP
                                                                                                                                                                             Bronx AMP
to remove excess capacity. To that end, the Network Plan           Marysville
recommends:                                                        Consolidation                                 Kansas City AMP                                             AMP Guidelines

■    Closing redundant AMCs.                                         Marina PIR                                                                                               Service
                                                                                                                                                                              Implications
■    Consolidating mail processing operations.                       Pasadena AMP                                                                                             of AMPs

■    Transforming the BMC network.                                                                                                                                          AMP Initiation
                                                                        Area Mail Processing Review (8)                                                                     Process

As part of this effort, management is pursuing an                       Consolidation Reviews (2)
                                                                                                                                    Mansﬁeld AMP                           Automated
outsourcing solution known as the Time-Deﬁnite Surface                  HQ Level AMP related Reviews (4)                                                                   AMP
Network to transform the BMC network and move some                      Post Implementation Review (2)
                                                                                                                                                   Steubenville            worksheets
                                                                                                                                                   AMP
of the existing workload into a supplier network, allowing
the Postal Service to use the BMCs for alternative postal
                                                                 The OIG has completed 16 Area Mail Processing related reviews between FY 2005 – 2008. These reviews include four
work. Risks that must be addressed in this approach
                                                                 completed consolidations, eight proposed consolidations and four reviews of the process. The chart below identiﬁes the
include vulnerability due to dependence on a single
                                                                 consolidation locations and summarizes major issues.
contractor, the potential for work stoppages, and possible
contractor conﬂicts of interest or misconduct.

At the same time, the Postal Service is facing                 obtained authority from the Office of Personnel                     Overall, the Network Plan looks at the issues strategically
declining mail volumes and changes in the mail mix.            Management to offer voluntary early retirement                      and does not include speciﬁc implementation plans.
Collective bargaining and employee impact policies             to eligible career employees. Risks that must be                    Management, the Postal Regulatory Commission (PRC),
are in place to inform potentially affected employees.         addressed with this approach include vulnerability due              Congress and stakeholders must work together to
To assist with the significant organizational                  to dependence on a single contractor and potential for              ensure that network realignment has the support to be
restructuring and repositioning of staff, management           work stoppages.                                                     successful despite the challenges.

 Area Mail Processing Issues
 Report Number         Project Description              Savings Accuracy      Data Accuracy and            Service Impacts    Oversight and/or           Stakeholder             AMP Guidance
                                                                                        Support                                      Approval          Communication               and Process
 NO-AR-05-004          Mansﬁeld, OH, AMP                               P                                                P
 NO-AR-05-013          Canton, OH, AMP                                 P                                                P
 NO-AR-06-001          AMP Guidelines                                                                                                         P                                               P
 EN-AR-06-001          Pasadena, CA, AMP                               P                            P                   P                     P                        P                      P
 NO-AR-06-010          Bridgeport, CT, AMP                             P                            P
 EN-AR-07-001          Sioux City, IA, AMP                             P                            P                   P                                              P                      P
 EN-AR-07-002          Service Implications of AMP                                                  P                   P                     P                        P                      P
 NO-AR-07-003          Steubenville, OH, PIR                                                        P                                         P
 EN-MA-07-001          AMP Initiation Process                                                                                                                                                 P
 EN-AR-07-003          Bronx-Morgan, NY, AMP                            P                                               P
 EN-AR-07-004          Marina, CA, PIR                                  P                           P                                                                                         P
 EN-MA-08-001          Automated AMP Worksheets                                                                                                                                               P
 EN-AR-08-001          Kansas City, KS, AMP                             P                           P                   P                                                                     P
 EN-AR-08-003          Marysville, CA, Consolidation                                                P                   P                     P
 EN-AR-08-005          Detroit, MI, AMP                                 P                                               P                                              P
 EN-AR-08-006          Mojave, CA, Consolidation                                                                        P                     P

This chart depicts systemic issues/problems that were identiﬁed during consolidation reviews. (The individual checks represent an area needing improvement.)




                                                                                                                                                                  April 1 – September 30, 2008 | 3
STRATEGIC RISK




                                                                                                                 refers to the visibility of mail by tracking associated mail
                                                                                                                 and containers, and MPI is the upgrade of plant wiring. The
                                                                                                                 IDS collects and distributes tracking data on mailpieces,
                                                                                                                 trays, and containers, and the NDSS maintains sort
                                                                                                                 programs and address directory ﬁles.

                                                                                                                 OA found that management upgraded key letter and ﬂat
                                                                                                                 MPE, and that the MPE is capable of scanning the new
                                                                                                                 Intelligent Mail barcode (IMB). In addition, more than 300
                                                                                                                 facilities have increased network capacity due to the early
                                                                                                                 completion of Phase III of the MPI program. These facilities
                                                                                                                 are ready to support IM implementation. The Postal Service’s
                                                                                                                 material handling group is preparing for the transition to the
                                                                                                                 24-digit IM tray barcode, which will enhance nesting abilities.

                                                                                                                 OA recommended management clarify the barcode
                                                                                                                 requirements and funding for material handling systems, and
                                                                                                                 ensure that contingency plans for consolidating the IDS/NDSS
                                                                                                                 server include extended maintenance for microcomputers
                                                                                                                 or provide other contingency plans if deployment is delayed
                                                                                                                 beyond 2009.

                                                                                                                 Investment Portfolio Measurement. Investment portfolio
                                                                                                                 measurement provides feedback on automation projects
                                                                                                                 through each phase of development and informs the
                                                                                                                 organization of its success in meeting the performance
                                                                                                                 goals. OA’s objective was to assess Engineering’s capability
                                                                                                                 to report on program performance as required for tollgate
                                                                                                                 brieﬁngs and investment highlights. OA evaluated metric
                                                                                                                 development and ownership, measurement systems,
                                                                                                                 information quality, and project performance metrics for
                                                                                                                 Engineering programs approved in FYs 2006 and 2007.
                                                                                                                 OA found that Engineering routinely uses system data to
The Ofﬁce of Audit audited the enabling infrastructure for Intelligent Mail.                                     test, measure, and report on program performance as
                                                                                                                 required for tollgate brieﬁngs and investment highlights.
                                                                                                                 However, Engineering can improve its reporting by including
                                              Strategic Vision for Automation                                    additional input from operational users, better attribute
                                              Effective automation efforts can have a big impact on the          operational impact to Engineering programs, and assign
                                              Postal Service. For example, processing mail via automation        operational performance metrics to operational units.
                                              costs signiﬁcantly less than processing mail manually.
                                              Speciﬁcally, in FY 2008 the national cost for automated            OA recommended that Engineering seek greater
                                              letter mail processing was $8.70 per 1,000 pieces versus           participation from Operations when developing and
                                              $119.70 for the same amount processed manually. During             reporting on operational performance metrics and a
                                              this reporting period, OA issued several signiﬁcant reports        greater separation of responsibilities for reporting on
                                              assessing key aspects of the Postal Service’s strategic            program metrics.
                                              vision for automation.
                                                                                                                 Upgraded Flats Sorting Machine 1000 Utilization. OA’s
                                              Status of Intelligent Mail Enabling Structure. OA                  audit determined that the New York Metro Area was not
                                              audited the enabling infrastructure for Intelligent Mail (IM)      fully utilizing the Upgraded Flats Sorting Machine (UFSM)
                                              to evaluate the readiness of key mail processing equipment         1000’s automated feeder enhancements to maximize its
                                              (MPE), the status of nesting abilities, progress of the Mail       productivity and reduce support costs. The Postal Service
                                              Processing Infrastructure (MPI) Phase III, and consolidation       expected at least a 70 percent volume shift from legacy
                                              of servers for the Integrated Data System (IDS)/National           mechanical keying methods to the automated feeders
                                              Directory Support System (NDSS). IM infrastructure is the          on the UFSM 1000. However, for FY 2006 through May
                                              hardware, software, telecommunications systems, power,             2008, the New York Metro Area continued to process
                                              and other support necessary for barcoded mail. Nesting             almost 70 percent of applicable mail volume using




4 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                           FINANCIAL RISK




mechanical keying stations. This condition can be attributed
to employees comingling machineable mail with non-
automation compatible ﬂat mail and to not having standard
operating procedures for UFSM 1000 ﬂat mail operations.
Using the machine’s automated feeder in the optical
character reader (OCR) mode rather than keying addresses
would increase efﬁciency and reduce the cost of processing
ﬂats mail by more than $7 million annually.

OA recommended that management direct plant managers
to move UFSM 1000 mail volume to the OCR or automatic
mode to meet investment goals, and evaluate whether
there is a need to lock out or remove mechanical keying
stations to achieve this goal. OA also recommended the
New York Metro Area develop and implement a formal plan
detailing how to most effectively utilize the UFSM 1000.
As a result of management’s agreement with the ﬁndings,
recommendations and monetary impact, they began
implementing a written improvement plan on a plant-by-
plant basis to continually increase utilization and optimize
the use of the machine’s automated feeder.

FINANCIAL RISK                                                      To increase efﬁciency and reduce the cost of processing ﬂats mail by more than $7 million annually, the
                                                                    Ofﬁce of Audit recommended using the Upgraded Flats Sorting Machine 1000’s automated feeder in the
The Postal Service faces a critical ﬁnancial risk as it, like       optical character reader mode rather than keying addresses.
other companies, deals with the economic slowdown
affecting the nation. With the crisis in the ﬁnancial industry,
increases in energy costs, signiﬁcant declines in mail
volumes, and mandated annual payments of more than
$5 billion to pre-fund retiree health beneﬁts, the Postal
Service announced they will end the ﬁscal year with nearly a
$3 billion loss (compared to a $5.3 billion loss in FY 2007).
While the Postal Service made signiﬁcant progress in
reducing costs this year, the anticipation of further declines in
volume mean that it is still confronted by a major challenge to
ﬁnd ways to cut costs and increase revenues.

In FY 2007, OA reported that internal controls associated
with the ﬁnancial reporting process were generally in place
and effective; however, signiﬁcant deﬁciencies existed
with mail acceptance at Business Mail Entry Units (BMEU),
international mail accounting, and unusual real estate
transactions. The Postal Service made progress to improve
the control environment in the mail acceptance area during
FY 2008. The following areas identify overarching issues
still facing the Postal Service’s business mail acceptance
operations, as well as other areas impacting ﬁnancial risk.

Business Mail and Business Reply Mail
Procedures                                                          The Ofﬁce of Audit conducts ﬁnancial audits of stamp and cash credits at Post Ofﬁces around the nation to
                                                                    ensure accountable items, including money orders, are inventoried and secured. Pictured above are obsolete
During this reporting period, OA performed two audits               money orders and unrecorded Postal Service money orders that one audit found the Thousand Oaks, CA,
assessing selected aspects of business mailings. In one             Main Post Ofﬁce should have destroyed.
audit, OA found that controls over inactive accounts,
master trust accounts, and mail veriﬁcation and clearance
procedures for the timely recording of revenue needed




                                                                                                                                                 April 1 – September 30, 2008 | 5
FINANCIAL RISK




                                              improvement; and controls over value added refund                  and the Postal Service may not have collected all postage
                                              procedures were not followed. OA identiﬁed about                   for those mailings. For the postage statements and
                                              $1.8 million and $17.6 million in monetary and non-                mailings OA reviewed, the revenue at risk (the difference
                                              monetary impacts, respectively.                                    between the full rate if no discounts were applied and
                                                                                                                 the rate at which the mail was entered) totaled more than
                                              With about 3,700 BMEUs and almost 600 Detached Mail                $2.5 million, comprised of more than:
                                              Units (DMU), the Business Mail Entry channel is the largest
                                              means of mail entry into the Postal Service, accounting for        ■   $1.9 million from the 360 postage statements and
                                              about 55 percent of the revenue and over 73 percent of                 mailings OA reviewed for which BMEU personnel did
                                              mailpiece volume. In another audit, OA assessed whether                not perform required veriﬁcations.
                                              the Postal Service followed mail sampling and veriﬁcation          ■   $600,000 because one unit did not have backup
                                              policies and procedures to ensure applicable postage was               veriﬁcation coverage, so the Postal Service may not
                                              collected at BMEUs and DMUs. For the six sites visited,                have collected all applicable postage.
                                              there were nearly 357,000 FY 2007 “mailings” (the number
                                              of separate postage statements, and the mail associated            OA recommended that management:
                                              with them, presented by customers). The revenues (value of
                                              those 357,000 mailings) totaled about $4 billion.                  ■   Assess the placement and usage of Mailing Evaluation
                                                                                                                     Readability and Lookup INstrument (MERLIN) machines
                                              OA found that employees did not always perform in-depth                at all BMEUs to determine efﬁciency and relocate the
                                              veriﬁcations for mailings of 10,000 or more mailpieces,                machines as needed to maximize usage.
                                                                                                                 ■   Request PostalOne! software modiﬁcations to ensure
                                                                                                                     clerks input veriﬁcation results and document why
                                                                                                                     veriﬁcations were not performed, either manually or
                                                                                                                     using MERLIN.
                                                                                                                 ■   Determine whether the reasons for not verifying any
                                                                                                                     mailing of more than 10,000 mailpieces were valid.
                                                                                                                 ■   Analyze stafﬁng and efﬁciency to determine stafﬁng
                                                                                                                     requirements at DMUs and ensure that backup
                                                                                                                     veriﬁcations are performed.

                                                                                                                 Bound Printed Matter Workshare Discounts
                                                                                                                 The Postal Service properly established Bound Printed
                                                                                                                 Matter (BPM) workshare discounts in accordance with
                                                                                                                 postal legislation and internal policies and procedures,
                                                                                                                 and then properly implemented them. At six large BPM
                                                                                                                 acceptance facilities, controls were in place to ensure
                                                                                                                 mailers prepared BPM according to workshare standards.
                                                                                                                 However, some of the supporting documentation used
                                                                                                                 to develop the BPM discounts was dated, which could
                                                                                                                 affect the reliability of the BPM workshare discount rates.
                                                                                                                 Updating this data would help establish more accurate
                                                                                                                 management information the Postal Service can use to
                                                                                                                 develop and implement rate changes and prepare annual
                                                                                                                 reports for the PRC on the impact of workshare discounts.

                                                                                                                 OA recommended that management determine whether
                                                                                                                 the supporting data is accurate in the current operational
                                                                                                                 environment and develop updated cost avoidance models.
                                                                                                                 Management agreed to incorporate technological and
                                                                                                                 policy-driven changes into the cost models, where possible,
                                                                                                                 and conduct ﬁeld observations to determine the necessity of
                                                                                                                 further ﬁeld study and data collection. However, management
The 3,700 Bulk Mail Entry Units and 600 Detached Mail Units are the largest means of mail entry into the
                                                                                                                 also stated that updating the BPM inputs would depend on
Postal Service, accounting for about 55 percent of revenue and more than 73 percent of mailpiece volume.




6 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                         FINANCIAL RISK




the overall data priorities that must be addressed when the
PRC issues its guidance on costing issues.

In-Ofﬁce Cost System Telephone Readings
Following OA’s FY 2008 audit of the In-Ofﬁce Cost
System that found inaccurate telephone readings, OA
assessed whether these inaccuracies could have resulted
in inaccurate product costing. OA’s initial analysis, and a
subsequent Postal Service analysis, indicated potential
bias in processing cost estimates based on telephone
readings. OA recommended that management perform an
additional, more comprehensive analysis to determine if
product costing is inaccurate based on telephone readings,
take corrective actions as necessary, and continuously
monitor for costing errors. Management agreed with OA’s
ﬁnding that there are differences in product costs based
on telephone and on-site readings, but disagreed with
OA’s assumption that these differences are caused by the
sampling method. Management did not believe that the
recommended analysis would yield further useful results
and stated that continuously monitoring for costing errors
is problematic. OA disagreed with management’s response
and continues to believe that additional analysis would be    Regular highway transportation contracts for HCRs provide service between Postal Service facilities, mailers’
informative and useful and that continuous improvement of     plants and similar facilities, and are generally for 4-year terms with an unlimited optional renewal provision.
these data systems would be a worthwhile effort.
                                                              Maximizing the Cost-Effectiveness of
Highway Transportation: Contract Renewal                      Contracts
and Oversight Processes                                       OA issued nine contract-related audit reports during the
HCRs provide for the transportation of mail between           reporting period, involving two proposals, one invoice,
Post Offices or other designated points where mail is         one incurred cost submission, one accrual, one legal
received or dispatched. (HCRs also include box delivery,      determination, two ﬁnancial risk assessments and one
collection service, and other mail services that were not     assessment of contract cost reasonableness. These audits
included in OA’s review.) Regular highway transportation      identiﬁed unsupported and questioned costs of more than
contracts for HCRs provide service between Postal             $56 million. This information was provided to contracting
Service facilities; mailers’ plants and similar facilities;   ofﬁcers for their consideration in negotiating the best
and are generally for 4-year terms with an unlimited          terms for the Postal Service. For example, an audit of
optional renewal provision.                                   a $262 million ﬁrm ﬁxed price proposal for the design,
                                                              fabrication, testing, installation, ﬁeld support and spares
OA reviewed management’s oversight of highway                 of the Advanced Facer Canceller System 200 disclosed
transportation contracts and issued two reports that          more than $10 million in questioned costs. The contractor
addressed the renewal process for these contracts and         did not consider quantity discounts for proposed material
oversight of highway transportation trips in the Southeast    costs, and the contractor proposed excessive wide area
Area. In renewing contracts, OA found that ofﬁcials had       network charges and cell phone costs.
conducted market comparisons to ensure that competition
and favorable rates were achieved; however, they could        No-Fee Money Orders
improve the assessment of contract requirements and
consideration of contractor performance. In addition,         OA concluded that a signiﬁcant risk exists related to the
management did not always properly monitor and                misuse of no-fee money orders for local purchases by
document contractor performance and could improve             individual Post Ofﬁces. While there may be a limited need
monitoring and controlling costs of canceled segments         for the Postal Service to use no-fee money orders, the
of highway transportation trips and extra highway             OIG’s audits and investigations showed that local Post
transportation trips. OA calculated that more than            Ofﬁces continued to inappropriately use no-fee money
$9.5 million of unsupported questioned costs were due to      orders as a convenient payment method for purchases
postal ofﬁcials not properly authorizing extra trip costs.    when other payment methods were required. OA estimates




                                                                                                                                               April 1 – September 30, 2008 | 7
OPERATIONAL RISK




                                              that in FY 2007, the Postal Service issued more than               did not properly process records with manually entered
    What is a no-fee                          13,170 no-fee money orders in amounts greater than                 dispatch dates. As a result, the Postal Service underbilled
    money order?                              $500, with a total value of more than $8 million. These            foreign countries for processing and delivery of inbound
                                              money orders were used for things other than the proper            International Express Mail items at the Miami ISC by more
     A no-fee money order is                  designated purposes of salary and travel advances,                 than $2 million for the period October 9 to December 31,
    a money order the Postal                  replacements, or emergency situations.                             2007, and has since taken corrective actions.
    Service issues for its own
    use at no cost to itself.                 To mitigate the risk of ﬁnancial loss, OA recommended              International Reconciliation System. In addition
    Postal Service policy limits              that the Postal Service reinforce the payment hierarchy            to reviewing Express Mail billings at the Miami ISC for
    the use of no-fee money                   and proper use of no-fee money orders to pay for local             Quarter 1 of FY 2008, OA also reviewed controls over
    orders for purchases to a                 purchases and increase monitoring of no-fee money order            the International Reconciliation System (IRS), deployed
    one-time local expense, not               use. OA also recommended it evaluate the feasibility               in February 2008. OA found that the Postal Service
    to exceed $500.                           of restricting the use of no-fee money orders for local            streamlined the international mail reconciliation process
                                              purchases.                                                         and made progress in improving system controls. The
                                                                                                                 system automates manual input of letter bill data and
                                              OPERATIONAL RISK                                                   eliminates the use of multiple systems to conduct research
                                                                                                                 for reconciliation. However, the system is still evolving and
                                              The Operational Risk category focuses on issues related            management did not identify all requirements prior to its
                                              to the day-to-day operations of the Postal Service. These          deployment, allowing improper records to be placed into
                                              risk factors potentially affect the Postal Service’s abilities     the production database. OA also noted that International
                                              to provide timely, reliable delivery and customer service          Reconciliation Units used inconsistent procedures
                                              across all access points. Operational risk factors pertain to      to verify volume data and process certain dispatch
                                              the quality of postal services and the end-to-end service          records. Manually correcting and processing the existing
                                              performance of all mail; as well as the assurance that             incomplete records and improperly ﬂagged duplicate
                                              postal products and services meet customer expectations            dispatches could cost the Postal Service almost $667,000
                                              by being responsive, consistent, and easy to use.                  and $193,000, respectively, in additional personnel
                                                                                                                 resources. These inconsistent procedures represent about
                                              International Mail                                                 $11.7 million in assets at risk. Timely and consistent
                                                                                                                 reconciliation procedures assist in protecting the integrity
                                              During this reporting period, OA issued several reports
                                                                                                                 of management data used in making pricing decisions.
                                              addressing issues in the area of international mail.
                                                                                                                 Management concurred and complied with OA’s
                                              Mail Condition Reporting. The Postal Service handled
                                                                                                                 recommendations for strengthening system requirements
                                              more than 832 million pieces of international mail in 2007,
                                                                                                                 and operating procedures, but did not concur with a
                                              while international revenue grew by $242 million. The
                                                                                                                 recommendation to develop additional user reports.
                                              Web Mail Condition Reporting System is vital to managing
                                                                                                                 Management stated that the system is not intended, by
                                              day-to-day domestic and international mail operations.
                                                                                                                 design, to be a data warehouse rather this is a function
                                              OA worked with management to identify opportunities to
                                                                                                                 of Enterprise Data Warehouse (EDW). However to ensure
                                              improve web mail condition reporting at the International
                                                                                                                 consistency in the veriﬁcation of volume data and
                                              Service Centers (ISC) nationwide. OA found that the mail
                                                                                                                 processing of dispatch records, management subsequently
                                              condition reports were timely, but often incomplete and
                                                                                                                 developed high-level Standard Operating Procedures (SOP)
                                              inaccurate, for the four ISCs reviewed. OA recommended
                                                                                                                 for Records Units’ operation and plans to complete detailed
                                              that management provide training and ensure that the mail
                                                                                                                 SOPs by the end of the calendar year. Management feels
                                              is processed according to the service commitments in the
                                                                                                                 the creation of additional reports in IRS would greatly
                                              facility operating plan.
                                                                                                                 affect end user response time. Therefore, management
                                              Inbound International Mail. OA analyzed data for                   is working on a separate initiative to include the OIG’s
                                              the Miami ISC and found that data used to bill foreign             suggested reports in EDW.
                                              postal administrations for inbound international Express
                                              Mail service was incomplete. This occurred because the             Mail Processing Efﬁciency
                                              requirements for the new Receipt Application (a web-               The Postal Service has achieved signiﬁcant results in
                                              based application that replaced the Receipt Veriﬁcation            improving mail processing efﬁciency through workhour
                                              System for initial scanning of inbound foreign mail) did not       reductions that OA recommended in recent years. As of
                                              include the need to capture the dispatch date for Express          2007, the Postal Service reduced more than 1.6 million
                                              Mail dispatches. Further, the computer program used to             workhours (about 61 percent) of the 2.7 million
                                              prepare billing data for inbound international Express Mail        recommended workhour reductions at 11 plants across




8 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                         OPERATIONAL RISK




the country. Additionally, service scores have remained           Air and Surface Transportation Networks
consistently high and productivity has improved at many
                                                                  During the reporting period, OA performed several
of these locations. Many of the workhour reductions were
                                                                  signiﬁcant reviews assessing the efﬁciency of the Postal
achieved through the attrition of 771 employees. However,
                                                                  Service’s air and surface networks.
the P&DC in Canton, OH, and the Bulk Mail Center (BMC) in
Dallas, TX, may be using more workhours than necessary            Air Networks. OA assessed whether the Postal Service’s
to process their workload since they have not yet made the        use of FedEx transportation was effective and economical.
anticipated workhour reductions at these two facilities.          OA found that from October 2004 through December
                                                                  2006, the Western Area incurred about $23.7 million
New P&DC Site Activations                                         in unnecessary costs due to using FedEx to move mail
OA assessed two P&DC site activations. Overall, the               that could have been moved on less costly surface
Oklahoma City P&DC activation team did a commendable              transportation or passenger airlines; and to paying FedEx
job of overseeing the opening of the new facility.                to sort mail unnecessarily. The Western Area has an
However, the team did not develop an operating plan and           opportunity to save about $117.5 million over the next
corresponding mail arrival proﬁle prior to the site activation.   10 years by not using FedEx to transport mail that could be
As a result, the Postal Service may not have effectively          transported on surface networks, by transporting First-
matched personnel to mail volume, requiring subsequent            Class Mail on passenger airlines when capacity is available,
adjustments to stafﬁng levels and increasing the risk of          and by sorting the mail before giving it to FedEx to avoid
mail delays and service degradation. During the audit, the        their sorting charges. Management generally agreed to the
Postal Service completed its operating plan and mail arrival      ﬁndings, but did not agree to all monetary impacts. Further,
proﬁle for the Oklahoma City P&DC.                                management’s stated actions will not resolve all of the
                                                                  issues identiﬁed. We are pursuing resolution through our
In May 2006, the Philadelphia P&DC moved operations               formal audit resolution process.
from a former facility to a newly constructed facility.
However, during the move some service scores at                   Airport Mail Center Operations. OA assessed the
the Philadelphia P&DC dropped. The Postal Service                 effectiveness of the Dallas Airport Mail Center (AMC)
acknowledged these conditions and in cooperation with             operations and concluded that the Postal Service incurred
management, OA assessed the compliance with activation            costs of more than $8.4 million for unnecessary workhours.
requirements related to mail processing at the Philadelphia       Additionally, management could improve effectiveness
P&DC and found that some key activation steps were                and save at least $26.3 million over a 10-year period.
not fully implemented. As a result, the Postal Service            These savings could be achieved by improving operations’
experienced signiﬁcant delayed mail.                              efﬁciency, aligning workhours with peak mail ﬂows, and
                                                                  ceasing performance of unnecessary work.
For both of these site activations, OA recommended
that management improve site activations by providing             Surface Networks. The Postal Service’s surface
oversight during transitions to ensure completion of the          transportation network includes Postal Vehicle Service
operating plan and mail arrival proﬁle, and to emphasize the      (PVS) operations, made up of Postal Service vehicles and
importance of local management continuity.                        employees. During this period, OA audited the effectiveness
                                                                  of PVS operations at the Northern Virginia P&DC and found
                                                                  that management could improve PVS processes, allowing
Delayed Mail
                                                                  them to remove more than 20,000 excess workhours from
In response to an inquiry, OA reviewed allegations of             existing PVS schedules and save more than $8 million
delayed mail at the North Texas P&DC. OA determined               over 10 years. Management could eliminate the workhours
there had been a 206 percent increase in delayed mail             without negatively affecting service because schedules
in 1 year — from 35.7 million mailpieces in FY 2006               contain unassigned time when drivers were not needed for
to 109.5 million mailpieces by the end of FY 2007. This           a speciﬁc trip or related activity, duplicate trips, and trips
occurred, in part, because supervision and stafﬁng were           that were not as full as possible.
inconsistent and some mail was poorly staged. However, by
March, the North Texas P&DC made signiﬁcant progress in           National Trailer Lease Renewal
reducing the amount of delayed mail. At that time, the North
Texas P&DC reported 3.2 million pieces of delayed mail.           OA evaluated the National Trailer Lease renewal in the
The cumulative total for delayed mail through the ﬁrst half       Eastern and Southeast Areas and identiﬁed opportunities
of FY 2008 was 34.2 million mailpieces.                           to reduce costs. Due to ﬂeet management control
                                                                  weaknesses, the National Trailer Lease renewal could have
                                                                  been more effective by more accurately identifying its




                                                                                                                                   April 1 – September 30, 2008 | 9
OPERATIONAL RISK




                                                                                                                  trailer requirements. Instead, the Postal Service may have
                                                                                                                  missed an opportunity to save $400,000 when it allocated
                                                                                                                  more trailers to the Eastern and Southeast Areas than were
                                                                                                                  needed. However, the Postal Service still has an opportunity
                                                                                                                  to save $5.9 million by returning unneeded trailers.

                                                                                                                  Powered Industrial Vehicle Management
                                                                                                                  System
                                                                                                                  The Powered Industrial Vehicle Management System
                                                                                                                  (PIVMS) is a wireless system that provides automated
                                                                                                                  measurement, control, and compliance reporting of
                                                                                                                  operations within a plant, resulting in optimal powered
                                                                                                                  industrial vehicle safety conditions, operations, supervision,
                                                                                                                  and associated savings. The Raleigh, NC, and Providence
                                                                                                                  P&DCs did not always use the PIVMS as intended and
                                                                                                                  consequently did not fully realize efﬁciency improvements.
                                                                                                                  If both of these facilities used the PIVMS as intended,
                                                                                                                  OA estimated that management could save more than
                                                                                                                  13,000 workhours by the end of FY 2010, with an
                                                                                                                  economic impact of $4.9 million in savings over 10 years.
During our audit of the National Trailer Lease program, we found the Eastern Area used national lease             OA recommended that both facilities consider reducing
trailers for storage. Depicted here is stored equipment at the Lancaster Processing and Distribution Center       their inventory of powered equipment.
on October 9, 2007.
                                                                                                                  Vehicle Maintenance Facilities
                                                                                                                  The Postal Service has invested more than $3 billion in
                                                                                                                  vehicle assets for the purpose of transporting and delivering
                                                                                                                  the mail. The vehicle inventory consists of 219,522 delivery,
                                                                                                                  transport, and administrative vehicles, of which delivery
                                                                                                                  and collection vehicles account for 195,211, or about
                                                                                                                  89 percent of the total ﬂeet.

                                                                                                                  OA assessed whether the Postal Service accomplished
                                                                                                                  all required scheduled maintenance and whether they
                                                                                                                  integrated both Vehicle Maintenance Facilities (VMF) and
                                                                                                                  local commercial resources for optimum efﬁciency. During
                                                                                                                  this reporting period, OA reviewed VMFs in six of the nine
                                                                                                                  postal areas. OA identiﬁed opportunities for management
                                                                                                                  to improve the completion of scheduled preventive
                                                                                                                  maintenance on its vehicles and integrate both VMF and
                                                                                                                  local commercial vendor resources for optimum use of
                                                                                                                  available resources. OA made up to eight recommendations
                                                                                                                  in area reports to complete scheduled maintenance and
                                                                                                                  repair and to manage VMF and commercial resources.

                                                                                                                  City Letter Carrier Ofﬁce Processes
                                                                                                                  Some City Letter Carriers were clocking in before their tour
                                                                                                                  of duty which resulted in unauthorized overtime projected
                                                                                                                  at 177,540 workhours nationwide for FYs 2007-2009.
                                                                                                                  As a result, for city delivery operations, OA estimated the
An OIG audit found the Raleigh, NC, and Providence, RI, P&DCs did not always use the Powered Industrial           Postal Service incurred unrecoverable questioned costs in
Vehicle Management System as intended and consequently did not fully realize efﬁciency improvements. For          FY 2007 of about $6.1 million. Likewise, OA estimated that
example, on June 30, 2008, at 5:49 a.m., two Providence Processing and Distribution Center forklifts and          city delivery operations will incur unauthorized overtime
four tows sat idle during an usually busy time of the night.                                                      workhours totaling about $12.8 million for clocking in early.




10 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                   OPERATIONAL RISK




Delivery Point Sequencing
The Postal Service implemented Delivery Point Sequencing
(DPS) about 15 years ago to enhance the automation
environment for processing and delivering letter mail. DPS
is intended to reduce operating costs, improve accuracy
and speed of delivery, and contribute to improved customer
satisfaction. In assessing the Atlanta District, OA concluded
that opportunities exist to further improve DPS percentages
because delivery unit ofﬁcials had not always implemented
established processes for:
■   Updating address databases in a timely manner.
■   Reporting missent, missorted, and missequenced
    (known as 3M) data.
■   Reporting mail arriving late.
■   Handling non-DPS mail.
                                                                The Ofﬁce of Audit identiﬁed opportunities for management to improve the completion of scheduled preventive
■   Measuring mail volume.                                      maintenance on its vehicles and integrate both Vehicle Maintenance Facilities and local commercial vendor
                                                                resources for optimum use of available resources.
OA reported unrecoverable questioned costs of more than
$9.5 million and funds of more than $3.7 million that can       PostalOne to require employees to identify political
be put to better use.                                           campaign mailings in the system. They indicated that
                                                                PostalOne! was never designed to be a data collection and
Political Campaign Mailings                                     management system for political mail logs, and the manual
The Postal Service plays a vital role in the democratic         log process, with certain revisions, is effective in ensuring
process by ensuring political campaign material is delivered    enough information is obtained to deal with any customer
to voters as quickly as possible. However, ofﬁcials in          issues that appear. We view the disagreements on these
the districts OA reviewed did not always record political       recommendations as unresolved and plan to pursue them
campaign mailings in the political mail log before inducting    through the formal audit resolution process.
them into the mailstream. In addition, ofﬁcials maintained
duplicate political campaign mail recordkeeping systems.        Identity Theft Potential in the Change of
Further, ofﬁcials did not always notify mailers who             Address Process
deposited political campaign mailings that may be too late
                                                                The Federal Trade Commission deﬁnes identity theft as
for delivery by the election date, of the potential for late
                                                                a fraud that is committed when a person’s identifying
delivery, and document the advice provided to them in the
                                                                information is used without authority. One of the ways
political mail log. Finally, ofﬁcials did not always document
                                                                identity theft can occur is when mail is diverted to another
political campaign mail inquiries and their resolutions.
                                                                location by completing unauthorized change of address
These issues could result in refunds of postage and
                                                                (COA) orders. Over 40 million Americans change their
negative publicity.
                                                                address annually, which creates a tremendous challenge
OA recommended several solutions to management,                 for the Postal Service.
including consolidating the manual political mail log
                                                                OA assessed whether existing COA controls ensure that
into the automated recordkeeping system in PostalOne!
                                                                address change requests were properly authorized and
for all sites that have access to the PostalOne! System;
                                                                validated to minimize potential identity theft and found
programming PostalOne! to require employees to identify
                                                                that the Postal Service needs to improve these controls.
political campaign mailings in the system; reinforcing to
                                                                As a result, management initiated actions to address
employees the importance of recording political campaign
                                                                these concerns, which will signiﬁcantly contribute to the
mail information; and including a ﬁeld in PostalOne for
                                                                protection of the Postal Service’s brand and its commitment
employees to document the advice provided to mailers
                                                                to protect customer information.
regarding late arriving mail.

Management disagreed with our recommendations to                Systems Controls Reviews
consolidate the manual political mail log into the automated    OA performs information systems general controls reviews
recordkeeping system in PostalOne! and to program               to support the annual ﬁnancial statements audit and to




                                                                                                                                            April 1 – September 30, 2008 | 11
OPERATIONAL RISK




                                              assess the adequacy of controls over information systems            Authority (FBCA). OA performed this audit to assess
                                              security and software.                                              whether the cross-certiﬁcation arrangement continues
                                                                                                                  to guarantee the agreed upon level of trust between the
                                              System Software Controls. As part of the FY 2008                    Postal Service and FBCA. In general, OA found that the
                                              information systems audit of general controls at the Postal         Postal Service was effectively managing its PKI services
                                              Service’s Information Technology / Accounting Service               in compliance with their established guidance as stated in
                                              Centers (IT/ASC), OA found that management established              their Certiﬁcate Policy and Certiﬁcate Practice Statements.
                                              a framework and continuing cycle of activity for limiting           However, OA identiﬁed 12 instances of non-compliance
                                              access to system software, monitoring access and use,               between the Postal Service’s PKI policies and its external
                                              and controlling system software changes. Data systems               PKI environment. Of these, management corrected two and
                                              and platforms were conﬁgured adequately to optimize                 developed resolution plans for the remaining 10.
                                              security and appropriately manage risks for the selected
                                              applications that OA reviewed. However, there are potential         Security Vulnerability Assessments
                                              improvements to UNIX scripts, logs, and hardening
                                              standards that would further enhance the effectiveness of           Below are two signiﬁcant audits assessing the vulnerability
                                              the controls.                                                       of systems’ security.

                                              Access Controls. OA assessed whether the Postal Service             Electronic Travel Voucher System. OA conducted a
                                              has adequate controls that limit or detect access to its            security assessment of servers and databases that support
                                              information resources (data, programs, equipment, and               the Electronic Travel Voucher System (ETVS) to determine
                                              facilities) and protect these resources against unauthorized        whether the servers and databases comply with selected
                                              (accidental or intentional) modiﬁcation, loss, damage, or           elements of the Payment Card Industry Data Security
                                              disclosure. Overall, physical access controls for IT facilities     Standards and current Postal Service security requirements.
                                              and logical access controls for mainframe, UNIX, Windows,           Overall, the system and database administrators have
                                              and database platforms were in place and functioning                implemented a variety of safeguards that protect the
                                              adequately. However, OA’s testing identiﬁed opportunities to        devices OA tested. However, OA’s scans identiﬁed
                                              improve compliance with these controls.                             security vulnerabilities and inconsistencies with Postal
                                                                                                                  Service security requirements that require management’s
                                              Protection of Sensitive Equipment. OA’s objective was               immediate attention.
                                              to determine whether controls were in place to ensure the
                                              Postal Service adequately protects information technology           PhoneSweep Security. OA assessed the effectiveness
                                              equipment from accidental or intentional loss or damage.            of security controls for modems and other equipment
                                              Speciﬁcally, OA reviewed the inventories for laptop and             connected to telephone lines at the San Mateo and Eagan
                                              BlackBerry devices assigned to employees and contractors            IT/ASCs. Overall, the Postal Service is doing an effective job
                                              at six information technology facilities to determine if            managing security controls for modems connected to the
                                              accountability controls adequately protected this equipment         range of telephone lines at both of these locations. However,
                                              and any data stored on these devices.                               OA could not determine if any of the modems it identiﬁed
                                                                                                                  were considered rogue modems — installed without
                                              In most locations tested, the Postal Service had effective          ofﬁcial knowledge or approval — because management
                                              controls in place to ensure their sensitive information             did not maintain a current listing of modems in service. OA
                                              technology physical resources were adequately                       suggested management maintain a current list of modems
                                              protected from accidental or intentional loss or damage.            in service and their associated telephone numbers.
                                              Management is strengthening accountability controls by
                                              ensuring that inventory staff are aware of and follow all           Private Branch Exchange Systems
                                              steps related to safeguarding the inventory of information
                                                                                                                  A Private Branch Exchange (PBX) is a private telephone
                                              technology assets and any data stored on those devices
                                                                                                                  network that is capable of supporting thousands of
                                              from accidental or intentional loss or damage. In addition,
                                                                                                                  extensions. The Postal Service uses 492 PBX systems at
                                              management is improving the data integrity in the Asset
                                                                                                                  many of their larger facilities; Sprint’s Managed Network
                                              Inventory Management System by ensuring periodic
                                                                                                                  Operations manages security of these devices and provides
                                              reconciliation of the data. OA quantiﬁed the potential risk
                                                                                                                  InfoPlus trafﬁc studies for each system at least once a year.
                                              associated with the missing laptops at $1,901,900 and
                                              $693,880 for the potential cost of data disclosure.                 OA assessed whether there was an opportunity to reduce
                                                                                                                  telecommunications expenses by reducing trunk space to
                                              External Public Key Infrastructure. The Postal Service’s
                                                                                                                  the most cost-effective level. OA identiﬁed an over capacity
                                              external Public Key Infrastructure (PKI) is cross-certiﬁed
                                                                                                                  of 91 T-1 lines supporting PBX telephone systems that
                                              with the U.S. government’s Federal Bridge Certiﬁcation




12 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                      OPERATIONAL RISK




could be eliminated without adversely impacting operations.
This condition occurred because PBX management is
decentralized and telecommunications technologies and
user needs change frequently. In addition, linking inventory
information to detailed invoices and contract data was
not always possible. Best practices suggest an accurate
up-to-date inventory, detailed invoices, and applicable
contract information are the primary sources of information
that managers need to effectively manage the goods and
services they purchase. OA found this information was not
always available, which contributed to the Postal Service
paying for PBX resources they no longer needed.

Management agreed with OA’s recommendation to
disconnect the 91 lines. However, while they did not
speciﬁcally state they agreed with the monetary impact,
their planned corrective actions implied agreement.
When implemented, the Postal Service will reduce
telecommunication expenses by more than $1.3 million
during the next 2 years.

Facilities Energy Management Strategy
The Postal Service has more than 34,000 facilities               In assessing the Postal Service’s energy management strategy, the Ofﬁce of Audit recommended expanding
nationwide. During FYs 2006 and 2007, the Postal Service         short-range planning, including more facilities, and updating energy policies to increase its effectiveness.
expended more than $600 million to pay for utilities to
support operations in these facilities. When compared to
all federal entities, the Postal Service is the second largest   Leased Facility Maintenance
consumer of energy after the Department of Defense.              OA audited leased facility maintenance in the Great
Current law requires the Postal Service to reduce intensity      Lakes Area and determined that the Postal Service is
by 30 percent between 2006 and 2015 based on a 2003              incurring costs to maintain facilities for which the owners
baseline. OA assessed whether the Postal Service had an          are contractually responsible. This occurred because the
energy management strategy for facilities to meet the intent     Facilities Single Source Provider (FSSP) system did not
of federal energy requirements.                                  identify all lessor-responsible repairs; the Postal Service
                                                                 has implemented a new Lessor Maintenance Module in
OA found that the Postal Service has a strategy;                 FSSP to mitigate this issue. OA also found that Facilities
however, expanding short-range planning, including               management has not developed written policies to aid
more facilities, and updating energy policies would              in recouping these costs and representatives who input
increase its effectiveness. In addition, the Postal Service      maintenance requests into FSSP were inconsistent in
conducts energy reduction activities at its facilities and       identifying who is responsible for repairs.
annually reports energy reductions based on cost data,
but does not systemically collect and use data on actual         OA recommended that management strengthen policies
energy consumption. Without systemically using actual            and procedures to ensure tracking of lessor-responsible
consumption data, the Postal Service cannot effectively          maintenance and obtain reimbursement for those repairs
establish baselines and priorities, measure progress, or         performed by the Postal Service.
support the reported energy reductions.
                                                                 Continuity of Operations
OA recommended that the Postal Service ﬁnalize and
publish a National Energy Management Plan that establishes       OA determined management in the Great Lakes and
a long-term vision and goals and update the Facility Energy      Paciﬁc areas could enhance their continuity of operations
Management Policy and Guide. OA also recommended that            (COOP) capabilities to be able to continue essential
it develop systems for reporting actual energy consumption       functions during emergencies that may disrupt normal
baselines and progress toward energy reduction goals, to         operations. Based on OA’s audit and the Postal Service’s
include the consideration of expanding electronic energy         response to prior emergencies, OA believes that the Postal
billing interfaces to collect actual energy consumption.         Service has the capability to continue mail operations
                                                                 in an emergency. However, the Postal Service has not




                                                                                                                                              April 1 – September 30, 2008 | 13
OPERATIONAL RISK




                                              implemented sufﬁcient internal controls, and as a result,           clearance, and to then update the Administrative Support
                                              responsible ofﬁcials are not fully prepared to effectively          Manual accordingly.
                                              and efﬁciently continue essential functions during
                                              emergencies that require COOP activation.                           Violence Prevention and Response Programs
                                              Management generally agreed with OA’s recommendations,              OA issued a capping report to management on audits
                                              including identifying and prioritizing essential functions;         of the violence prevention and response programs in
                                              establishing area emergency management coordinating                 ﬁve areas of operation and 15 performance clusters. OA
                                              committees; and conducting tests and exercises at primary           concluded that all 15 performance clusters established
                                              and alternate facilities. Management stated that at the             threat assessment teams and took many positive steps
                                              time of the audit, they were drafting policy updates and            to reduce the potential for violence. However, the violence
                                              directives to address recent changes to federal homeland            prevention and response programs may not be fully
                                              security guidance; which should also address the ﬁndings            effective in reducing the potential for violence because
                                              and recommendations.                                                performance cluster managers and threat assessment
                                                                                                                  teams did not implement many of the required policies
                                                                                                                  and procedures. In addition, the areas and performance
                                              Suitability Screening Process
                                                                                                                  clusters did not provide adequate oversight of the violence
                                              OA audited the Postal Service’s hiring suitability                  prevention and response programs to ensure compliance
                                              screening process in the Capital Metro Area and found               with policies and procedures.
                                              that prospective employees were properly evaluated for
                                              suitability in accordance with policies and procedures.             During the previous reporting period, OA made 12 similar
                                              However, human resources personnel in the Baltimore,                recommendations in each of the ﬁve individual area reports —
                                              Capital, and Northern Virginia District ofﬁces did not timely       along with recommendations unique to some — to improve
                                              receive background security reports of National and Special         the effectiveness of the Postal Service’s violence prevention
                                              Agency Check with Inquiries (N/SACI) to make appropriate            and response programs. Additionally in this reporting period,
                                              ﬁnal employee suitability determinations. Speciﬁcally, in           OA made four recommendations in the capping report
                                              February 2008, the U.S. Postal Inspection Service provided          to further improve the violence prevention and response
                                              a backlog of more than 800 NACI and SACI results to                 programs nationwide.
                                              these district ofﬁces. Some of the results were for newly
                                              hired employees who had completed their probationary                Grievance Settlement and Arbitration Award
                                              periods. As a result, the Postal Service was exposed to an          Payments
                                              increased risk of hiring and retaining unsuitable employees,
                                              and signiﬁcant time and resource expenses related to                OA reviewed the 10 highest paid grievance settlements and
                                              potential appeals and grievances by employees who should            arbitration awards for FY 2007 to determine whether the
                                              have been terminated, but have worked beyond their                  grievances should have been resolved prior to monetary
                                              probationary periods.                                               settlements or arbitration awards. Of these, four of the
                                                                                                                  settlement documents did not contain sufﬁcient information
                                                                                                                  to make this determination.
                                              Security Clearances for Postal Service
                                              Employees                                                           Arbitrator awards for ﬁve of these grievances indicated they
                                              OA’s audit of the process for identifying positions that            could not be resolved sooner due to contract interpretation
                                              require a security clearance determined that the Postal             differences and disagreements over speciﬁc remedies. The
                                              Service could improve its processes to more effectively             remaining grievance award indicated resolution could have
                                              mitigate personnel security risks. Postal Service ofﬁcials          been completed sooner, based on the arbitrator’s opinion
                                              had not conducted a comprehensive risk assessment to                that the Postal Service intentionally violated the contract.
                                              determine which positions require a security clearance              Furthermore, management could not easily determine the
                                              since July 1999. Nearly 6,100 employees have security               top 10 grievance payments in FY 2007 because there
                                              clearances; however, a majority of employees in positions           was no central source for recording grievance payment
                                              such as Postmaster and Letter Carrier do not. Some                  information. OA recommended that management formalize
                                              employees in these positions have access to Postal Service          and obtain funding for the enhancement of the Grievance
                                              assets, and some have been convicted of crimes against              Arbitration Tracking System to centralize all grievance
                                              the Postal Service. OA recommended that management                  payment information by early FY 2009.
                                              establish and implement a policy to periodically assess
                                              the risks associated with the duties of all Postal Service
                                              positions to determine which positions require a security




14 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                        REVENUE AND ASSET PROTECTION




INVESTIGATIONS
U.S. Postal Inspectors and OIG Special Agents are federal law enforcement ofﬁcers charged with maintaining America’s
trust in the postal system. Their investigations support the Postal Service by protecting postal employees, securing the mail,
safeguarding revenue and assets, and maintaining the integrity of postal personnel.


                                                                   multiple instances of mailing-related infractions that caused
   Reporting Period                                                millions of dollars in losses.
   In the Investigations section of this report, the U.S. Postal   While revenue fraud may cover a wide range of dishonest
   Inspection Service provides case examples and statistics        activities, all have the same result: The Postal Service loses
   for October 1, 2007, through September 30, 2008. The            money to these schemes.
   OIG’s Ofﬁce of Investigations cases and statistics cover
   the period April 1 through September 30, 2008.                  ■   Fraudulent bypass mailings, where a mailing bypasses
                                                                       postal employee veriﬁcation and payment.
                                                                   ■   Improper presorted (discount) mail, where the mailer
REVENUE AND ASSET                                                      submits more mail than claimed or claims refunds
PROTECTION                                                             for higher mail volumes than were entered in the
                                                                       mailstream.
Postal Inspectors investigate revenue fraud committed by
business mailers and mail preparation ﬁrms. On the other           ■   Altered plant-veriﬁed drop shipments, in which the
hand, Special Agents investigate employee misconduct                   mailer adds pieces after a mailing is veriﬁed or
and crimes committed by postal employees involving theft               otherwise misrepresents the mailing.
and misuse of postal funds or money orders, and theft and
misuse of postal-issued credit cards.                              ■   The mailing fails to meet requirements for the rate
                                                                       claimed or does not have a valid authorization for
                                                                       preferential rates, such as for Periodicals or nonproﬁt
Revenue Protection                                                     mail.
The Chief Postal Inspector designated revenue protection
of the Postal Service as a key area of focus for the Postal        ■   Bribery, collusion, or employee misconduct. For
Inspection Service in FY 2008, and for good reason: The                example, the mailer, alone or with the help of a postal
ﬁnancial health and business success of the Postal Service             employee, avoids postage payments.
rely in large part on strong, aggressive revenue protection
measures to help it survive the current downturn in the
economic market.

Protecting Postal Service revenue means protecting its
core business. In a press release issued September 24,
2008, Postmaster General John Potter declared “While
we deal with economic challenges, customers and service
to our customers will always be number one on our
agenda, it is why we exist, it is our franchise.” In fact,
the mailing industry accounts for roughly 8 percent of
the U.S. gross national product and employs more than
11 million people nationwide.

To protect the overwhelming majority of mailers who
engage in sound business practices, Postal Inspectors must
identify dishonest mailers who can rob the Postal Service
and the business community of their hard-earned revenue.
In FY 2008, Postal Inspection Service expertise in revenue
protection and investigation resulted in the identiﬁcation of      A Day of Firsts. At the end of May, the ﬁrst joint basic training class of 15 Postal Inspectors and six Special
10 revenue streams posing the greatest risk to the Postal          Agents graduated from the Career Development Division at the William F. Bolger Center in Potomac, MD. The
Service. By focusing on these areas, Inspectors uncovered          culmination of the 12 weeks of training was a ﬁrst-ever occasion on two planes: It was the ﬁrst time the Postal
                                                                   Inspection Service’s Basic Training Program graduated OIG Special Agents. This is the ﬁrst time Special Agents
                                                                   received basic training at Potomac rather than at the Federal Law Enforcement Training Center in Glynco, GA.




                                                                                                                                                     April 1 – September 30, 2008 | 15
REVENUE AND ASSET PROTECTION




Digital Evidence Services                                                                                         ■   The mailer counterfeits meter indicia or manipulates
                                                                                                                      meters to avoid paying postage.
Digital Evidence Services (DES) is a newly formed Directorate of the Joint Mission Support Center
(JMSC). It combines the computer crimes and digital forensics resources of the OIG with those                     ■   The mailer counterfeits or alters information-based
of the Postal Inspection Service to provide a host of network and computer forensic services in                       indicia (IBI) postage.
support of all postal investigations.
                                                                                                                  ■   The mailer uses a fraudulent credit card or bad check to
                                                                                                                      pay for postal products or services.
The DES has more than 40 employees located throughout the country in 18 DES labs. They are
highly skilled experts in the fields of network and computer forensics. DES services include remote               ■   The mailer uses counterfeit stamps.
and local digital collection of computer data, Postal Service Internet data analysis, Postal Service
e-mail retrieval/analysis, real-time computer use monitoring, cell phone analysis, and other                      ■   A third-party mailer charges postal customers for
investigative services.                                                                                               services not provided, giving customers the impression
                                                                                                                      the Postal Service failed to provide the service.
In addition to these services, the DES is integrated with the Postal Service Computer Incident
                                                                                                                  During FY 2008, Postal Inspectors initiated 403 new
Response Team (CIRT). A Special Agent assigned at the CIRT facilitates network security investigations
                                                                                                                  investigations related to postal revenue fraud. Inspectors
and the acquisition of a variety of digital data produced by the Postal Service network infrastructure.
                                                                                                                  arrested 90 suspects for revenue-related crime, and
This integration with the Postal Service, along with the vast technical services offered, allows the DES
                                                                                                                  reported 96 convictions in the same period, some from
to provide comprehensive and timely service to Postal Inspection Service and OIG investigations.
                                                                                                                  cases initiated in prior reporting periods. Inspectors
During the reporting period, the DES proactively generated 23 investigations, 10 of which pertained               identiﬁed more than $52.5 million in losses to the Postal
to felony allegations. The DES has responded to more than 563 requests for investigative support                  Service from fraudulent activities, while civil settlements,
for our investigations.                                                                                           voluntary restitution, and court-ordered ﬁnes, penalties,
                                                                                                                  and restitution resulting from Postal Inspection Service
                                                                                                                  investigations totaled more than $16.9 million.

                                                                                                                  Permit Revenue Protection
Forensic Laboratory Services
                                                                                                                  The majority of Postal Service revenue is derived from
Forensic Laboratory Services (FLS) is a Directorate of the JMSC. It provides forensic scientiﬁc                   Permit Imprint Mail, stamps, and metered mail. In fact,
and technical expertise to criminal, security, and administrative investigations conducted by the                 Permit Mail alone accounts for nearly 50 percent of Postal
Postal Inspection Service and the OIG. The Dulles, VA, laboratory has more than 40 highly trained                 Service revenue and represents its most vulnerable area of
forensic scientists and administrative support staff who play a key role in identifying, apprehending,            revenue risk.
prosecuting, and convicting persons for postal-related offenses.
                                                                                                                  In FY 2008, the Postal Inspection Service began working
The National Forensic Laboratory includes three units: Latent Print and the Automated Fingerprint                 with staff from the Postal Service’s Intelligent Mail, Address
Identiﬁcation Systems, Physical Sciences, and Questioned Documents and Imaging, which provide                     Quality, and Engineering ofﬁces to address risks related to
forensic services and technical support in ﬁve disciplines and multiple sub-disciplines.                          Permit Mail. Postal Inspectors completed a pilot test of a
                                                                                                                  Permit Revenue Protection System during the ﬁscal year and
During this ﬁscal year the FLS completed more than 3,069 examinations that helped identify 467                    developed several investigative leads related to suspicious
suspects — 58 through the automated ﬁngerprint identiﬁcation system. Laboratory personnel also                    mailings. The success of the pilot is expected to result
gave expert testimony on 28 occasions. In addition to forensic examinations, FLS provides support                 in a nationwide rollout of a new initiative in FY 2009 that
for Postal Service product security (money orders, meters, stamps, and packaging) and basic and                   will establish a national database of permit numbers and
advanced training classes for Postal Inspectors and Special Agents.                                               capture permit information through existing mail-processing
                                                                                                                  equipment.

                                                                                                                  Revenue Protection Investigations
                                                                                                                  Following the disclosure of a $6 million settlement with
                                                                                                                  a ﬁnancial corporation, another major business mailer
                                                                                                                  reported it also had obtained discounts on mailings for
                                                                                                                  which it was not entitled. The improper discounts would
                                                                                                                  result in millions of dollars in postal losses, as the mailer
                                                                                                                  had failed to comply with the Postal Service’s “Move
                                                                                                                  Update” requirements and therefore did not qualify for
                                                                                                                  automation rate discounts. On behalf of the Postal Service,
                                                                                                                  the U.S. Department of Justice (DOJ) signed a $4.95 million
                                                                                                                  settlement agreement with the mailer in June 2008. A
Forensic Laboratory Services in Dulles, VA.




16 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                  REVENUE AND ASSET PROTECTION




former subsidiary of the mailer already agreed to an
$8 million payment in a settlement related to Move Update
compliance.

Postal Inspectors in El Monte, CA, reviewing data from a PC
Postage meter, determined the meter was being used to
print large amounts of postage without providing payment.
Inspectors found the owner of an Internet merchandising
company was manipulating hardware and software to print
duplicates of legitimate labels to mail items in the United
States and abroad. The owner cooperated with Inspectors
and demonstrated his scheme, which Postal Inspectors
videotaped and used to train other Inspectors nationwide.
Total losses to the Postal Service exceeded $572,000. He
was convicted in federal court in February.

Embezzlements and Financial Crimes
Employee embezzlements may involve postal employees
stealing money from cash drawers, using sophisticated
schemes to manipulate postal money orders or money
order funds, or falsifying ﬁnancial retail records. When Post
Ofﬁces experience unusual or signiﬁcant shortages, Special
Agents employ various investigative techniques to uncover
embezzlements. Improper or lax procedures are reported
to management for corrective action. When employees are
found to be responsible for missing postal funds, they are
reported to management for appropriate administrative           Employee embezzlements may involve postal employees stealing money from cash drawers, using
action. In cases that warrant criminal prosecution, offenders   sophisticated schemes to manipulate postal money orders or money order funds, or falsifying ﬁnancial retail
not only face the loss of their jobs but also may face jail     records.
time and court-ordered restitution. Following are examples
of ﬁnancial fraud cases the OIG investigated during this        5 years’ probation after they pled guilty to illegally using
reporting period.                                               a Postal Service credit card. Special Agents and a Postal
                                                                Inspector observed the wife fraudulently use a Voyager
■   In June, a Pennsylvania Postmaster was found guilty
                                                                card to pay for a $350 fuel purchase for her husband’s
    of using postal money orders for personal use. He was
                                                                tractor trailer. The couple used Voyager credit cards to
    sentenced to 5 months in prison and ordered to repay
                                                                purchase and sell fuel to individuals in Texas, Arkansas,
    approximately $115,400 to the Postal Service for the
                                                                and Louisiana. The couple also used the cards to purchase
    shortage in his stamp accountability. Additionally, he
                                                                fuel and groceries for personal use. As part of their plea
    was sentenced to 5 months of home conﬁnement and
                                                                agreement, they agreed to repay $47,300 to the Postal
    3 years of probation.
                                                                Service.
■   In August, a former Sales and Service Associate
    (SSA) was ordered to pay $364,065 in restitution and        Tort Claim. In May, the Postal Service agreed to pay a
    sentenced to 24 months’ incarceration and 3 years’          Pennsylvania postal customer for injuries and damages
    supervised release. The SSA, who had worked in              sustained after tripping and falling on cracked asphalt. The
    Puerto Rico, told Special Agents he converted postal        accident occurred in the South Jersey P&DC parking lot.
    revenue for personal use during a 1-year period.            The customer ﬁled a $15 million lawsuit, claiming she was
                                                                totally disabled. Special Agents determined the customer
■   In August, a U.S. District Court judge in California        misrepresented her claim, was physically active, and not
    ordered a former SSA to repay $67,833 to the Postal         totally disabled. On numerous occasions, the customer
    Service and to serve 6 months of home conﬁnement            was observed performing activities exceeding her claim
    and 5 years’ probation for converting postal money          of disability. Because of the plaintiff’s misrepresentation,
    orders to his own use.                                      the court reduced the award to $125,000, and the Postal
                                                                Service avoided paying an additional $375,000.
Voyager Credit Card. In June, a former Texas HCR Driver
and his wife, a Part-time Flexible Clerk, were sentenced to




                                                                                                                                              April 1 – September 30, 2008 | 17
WORKERS’ COMPENSATION FRAUD




                                              WORKERS’                                                            examine ways to control escalating workers’ compensation
    Workers’                                  COMPENSATION FRAUD                                                  costs, the Postal Service, the OIG, and the DOL convened
    Compensation Fraud                                                                                            in San Diego, in April, for the second annual National
                                              The Postal Service funds workers’ compensation beneﬁts              Injury Compensation Symposium and Training Conference.
    Investigative Results                     for employees who sustain job-related injuries. The                 Approximately 250 attendees discussed the impact of
    April 1 – September 31, 2008              monetary and medical beneﬁts paid by the Postal Service             healthcare fraud on the workers’ compensation program.
                                              to workers’ compensation claimants totaled $965 million             The results of OIG investigative efforts during this reporting
    ■    767 fraud investigations             in 2008. At the end of 2008, the Postal Service’s                   period included $102 million in cost savings/avoidances,
         resolved                             estimated total liability for future workers’ compensation          28 arrests, and 184 administrative personnel actions,
    ■    $101,527,416 million in              costs was more than $6.94 billion. Administered by the              including removals, suspensions, and letters of warning.
         compensation payments                U.S. Department of Labor (DOL), the Ofﬁce of Workers’
         avoided                              Compensation Programs (OWCP) provides direct                        Injury Compensation — Claimant Fraud
                                              compensation to providers, claimants, and beneﬁciaries.
    ■    28 arrests                           The Postal Service later reimburses OWCP in a process               Most employees who receive workers’ compensation
                                              known as “charge-back billing.”                                     beneﬁts do so because of legitimate job-related injuries.
    ■    17 indictments                                                                                           However, a small percentage of postal employees and
    ■    17 convictions                       The OIG’s mission for injury compensation fraud                     healthcare providers abuse the system. These schemes
                                              investigations is both proactive and reactive. Depending on         cost the Postal Service millions of dollars each year in
    ■    184 personnel actions                the case type, Special Agents focus on the prevention and           compensation payments, medical costs, administrative
         taken by postal                      deterrence of workers’ compensation fraud or on detecting           expenses, and enforcement costs. Special Agents initiate
         management                           and investigating an allegation of a fraudulent claim. To           criminal investigations when they suspect individuals
                                                                                                                  or healthcare providers of defrauding the DOL’s Federal
                                                                                                                  Employees’ Compensation Act beneﬁts fund. Criminal
                                                                                                                  prosecutions are an effective deterrent to fraud and
                                                                                                                  may permanently prevent the payment of additional
                                                                                                                  compensation. Cases that may require administrative
                                                                                                                  action are referred to the Postal Service and the DOL.
                                                                                                                  Special Agents work closely with injury compensation
                                                                                                                  specialists from the Postal Service on all phases of these
                                                                                                                  investigations.

                                                                                                                  Following are examples of injury compensation fraud cases
                                                                                                                  investigated during this reporting period.
                                                                                                                  ■   In April, a former Minnesota Casual Clerk, who
                                                                                                                      operated a business while receiving OWCP beneﬁts
                                                                                                                      for work-related back and leg injuries, was sentenced
                                                                                                                      to 5 years’ probation. Also, he was ordered to pay
                                                                                                                      restitution of approximately $68,600.
                                                                                                                  ■   In June, a former Oregon Mail Handler, who collected
                                                                                                                      OWCP beneﬁts while operating a real estate business,
                                                                                                                      was sentenced to 3 years’ probation and ordered to
                                                                                                                      pay $56,922 in restitution. He worked for the Postal
                                                                                                                      Service for 3 years in the mid-1970s until claiming
                                                                                                                      to injure his back while lifting heavy buckets of
                                                                                                                      mail. The Mail Handler claimed he had numerous
                                                                                                                      physical limitations, including an inability to operate
                                                                                                                      a motor vehicle for more than 30 minutes. However,
                                                                                                                      in November 2006, a Special Agent observed the
                                                                                                                      Mail Handler driving for more than 2 hours to show
                                                                                                                      properties. He was removed from the periodic rolls, and
                                                                                                                      the Postal Service avoided $443,644 in future OWCP
                                              To examine ways to control escalating workers' compensation             beneﬁt payments.
                                              costs, the Postal Service, OIG, and Department of Labor
                                              convened in San Diego, in April, for the second annual National     ■   In July, a Florida Distribution Clerk pled guilty to
                                              Injury Compensation Symposium and Training Conference.                  one count of making a material false statement in




18 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                     MAIL THEFT




    connection with receiving OWCP beneﬁts. For more
    than 1 year, the Clerk simultaneously received identical
    controlled pain medications from three different
    physicians who were treating her for the same
    symptoms. The Clerk had signed a pain management
    agreement, in which she agreed not to receive
    controlled medications from other physicians. The
    Clerk faces a maximum sentence of 1 year in prison
    and a $100,000 ﬁne, while the Postal Service avoided
    $878,295 in future OWCP payments.

OWCP Medical Provider Fraud
Special Agents investigate allegations of fraud committed
by medical providers who treat multiple Postal Service
OWCP claimants. Following is a representative case worked
during the reporting period.
                                                               A Clerk on workers’ compensation was observed walking, with the
■   In September, a network of 20 physical therapy
                                                               aid of a cane, to a doctor’s appointment. Later that same day, the
    facilities located throughout Connecticut agreed to
                                                               Clerk was observed working without a limp, unaided, and without
    pay the U.S. Government approximately $1.9 million
                                                               using a cane.
    for submitting falsiﬁed claims to various government
    healthcare programs. From October 2002 to December         External Mail Theft
    2005, the network billed government healthcare
    programs for direct, one-on-one care when such             Postal Inspectors know that because mail can contain any
    services were not provided. Speciﬁcally, the network’s     number of valuables — not just jewelry or other expensive
    therapists routinely provided therapy services             items, but personal and ﬁnancial information such as
    simultaneously to multiple patients but billed the         credit card applications — criminals will try to steal it. Mail
    government as if the therapists provided direct, one-      thieves employ an endless number of schemes that Postal
    on-one care. False claims were submitted on behalf of      Inspectors work hard to thwart. Inspectors take preventive
    97 postal employees. To settle allegations under the       measures to protect and educate postal employees and the
    False Claims Act, the network agreed to pay the Postal     public about mail theft.
    Service $43,976.
                                                               In FY 2008, Postal Inspectors arrested 2,860 suspects
                                                               for mail theft and, in the same period, 2,829 mail theft
MAIL THEFT                                                     suspects were convicted in cases originating in this and
                                                               prior reporting periods.
Postal Inspectors investigate mail theft by criminals
who attack the postal system, including Postal Service         Volume Attacks. Postal vehicles, collection and relay
contractors who transport mail to postal facilities. OIG       boxes, apartment mailbox panels, cluster box units (CBUs),
Special Agents investigate mail theft by postal employees,     and neighborhood delivery and collection box units
as well as contractors who deliver mail.                       (NDCBUs) are targeted by thieves seeking large volumes of
                                                               mail. These “volume attacks” constitute a threat to postal
Every day, more than 700 million pieces of mail
                                                               employees and customers.
travel across the country. Mail is delivered to about
149 million addresses 6 days every week. And every             Postal Inspectors report that customers’ conﬁdence in the
day, those millions of mailpieces — First-Class letters,       mail is justiﬁed, as volume mail attacks were up slightly,
parcels, magazines, ﬁnancial documents, business               1.3 percent from last year, when 3,638 volume attacks
correspondence, Express and Priority Mail, Registered          were recorded. Inspectors investigate these thefts and
Mail, international mail, and much more — are moved to         work closely with Postal Service staff to develop and install
their destinations by plane, ship, rail, truck, automobile,    neighborhood delivery units with stronger security features.
and human beings. To protect the mail during all points
of delivery, Postal Inspectors and Special Agents deploy       Following are examples of volume mail thefts investigated
security countermeasures and follow proven investigative       by Postal Inspectors in FY 2008.
protocols.
                                                               ■   Postal Inspectors investigated a man in connection to
                                                                   mail stolen from collection boxes in Queens, NY. The




                                                                                                                                    April 1 – September 30, 2008 | 19
MAIL THEFT




Improving on Mail Services                                                                                            suspect used an ofﬁcial Postal Service “arrow key” to
                                                                                                                      gain access to the collection boxes and riﬂed mail to
Registered Mail is the most secure service offered by the Postal Service. It allows the agency and                    ﬁnd postal money orders. He altered the money orders
the customer to monitor mail from the point of acceptance to delivery. Customers can track mail                       and cashed them using a fraudulent Honduran passport.
online at usps.com, by calling 1.800.222.1811, or, for bulk mailers with electronic manifests, via                    Inspectors linked him to mail theft in New Jersey and
electronic file transfer. The Postal Service maintains records of the mailings for specified periods                  located more than 40 victims, who suffered ﬁnancial
of time, and customers may obtain delivery records by purchasing return receipt service.                              losses exceeding $30,000. Inspectors had arrested him
                                                                                                                      years earlier for mail theft. The suspect was indicted in
The Registered Mail System has remained virtually unchanged since it was introduced in 1855,
                                                                                                                      August.
in large part due to its complexity. But at the request of the Deputy Postmaster General and Chief
Operating Officer of the Postal Service, the Postal Inspection Service formed a task force in April               ■   In May Postal Inspectors caught up with the last of 16
2007, comprising Postal Inspectors and postal employees, to conduct a national security review                        suspects named in a 10-count indictment for mail theft,
of the system.                                                                                                        possession of fraudulent IDs, and aggravated identity
                                                                                                                      theft. The suspects stole thousands of pieces of mail
Task force members published a final report in February 2008. The resulting National Security                         across Dallas-Ft. Worth, then created counterfeit driver’s
Review of Registered Mail was based on wide-ranging interviews of key stakeholders in the                             licenses and IDs based on information from the mail.
Registered Mail System and extensive evaluations of every aspect of operations, including:                            They deposited stolen or counterfeit credit card checks
Area and district Registered Mail Coordinators, and other groups, as appropriate.                                     into fraudulently opened bank accounts, then withdrew
                                                                                                                      the money. More than 250 victims suffered losses
                                                                                                                      exceeding $400,000. In June 2008, the main suspect
■    Delivery and Retail                                   ■    Pricing
                                                                                                                      pled guilty to one count of conspiracy to possess stolen
■    Stamps                                                ■    Corporate Treasury                                    mail and one count of aggravated identity theft — a
                                                                                                                      statute that carries a mandatory 2-year sentence — to
■    Network Operations                                    ■    Finance
                                                                                                                      be served consecutively with any other sentence he
■    Product Management                                    ■    Intelligent Mail and Address Quality                  receives. He now faces 7 years in prison.
■    Engineering                                           ■    International                                     The Postal Service contracts the movement of some of the
■    Special Services                                                                                             nation’s mail to businesses that work diligently to transport
                                                                                                                  mail to postal facilities. Like postal employees, these
The task force determined the Registered Mail System was operating at a deficit of 38 percent                     individuals take their responsibilities seriously. Unfortunately,
per piece of mail. Their 15 recommendations addressed the need to lower operating costs,                          a small percentage of contractors abuse the public’s trust.
generate higher revenue, improve security, and streamline operations.                                             In FY 2008, Postal Inspectors’ investigations of mail theft by
                                                                                                                  contractors who transport mail resulted in 204 arrests and
Because secure processing and handling are crucial to Registered Mail operations, the                             192 convictions.
recommendations were formed using Carver risk-assessment methodology. Originally developed
by the U.S. military to identify areas vulnerable to attack, Carver has since been adapted by a                   Following an investigation by Postal Inspectors on the
number of federal agencies for use as a general risk-assessment tool.                                             Los Angeles International Airport Gateway Task Force,
                                                                                                                  six Evergreen contractors were terminated from their
Changes proposed in the National Security Review of Registered Mail will allow the Postal Service                 jobs in April 2008 for suspected mail theft. Inspectors
to realize millions of dollars in cost savings.                                                                   had been investigating the theft of video games at the
The recommendations include these opportunities for the Postal Service:                                           airport since July 2007, and the company reported an
                                                                                                                  estimated $267,680 in losses. Inspectors identiﬁed the
■    Annual cost savings by processing inbound international mail with First-Class Mail at                        groundhandling employees as suspects in the case and
     international service centers.                                                                               found evidence of their involvement and several others in
■    A one-time savings by using intelligent mail device technology to improve efficiencies;                      the thefts. In April 2008, the six contractors were indicted on
     streamline operations; reduce paperwork; provide tracking and accountability; and reduce                     charges of mail theft.
     employee workhours.
■    Upgraded customer service and improved revenue through better insurance protection;
                                                                                                                  Employee Mail Theft
     expedited service, such as Express Register or Secure Express; customer pickup service;                      The overwhelming majority of Postal Service employees
     and improved mail tracking.                                                                                  work conscientiously to move the nation’s mail to its proper
                                                                                                                  destination. Unfortunately, a small number of employees
■    Improved physical security and operational controls at Registered Mail sections of postal
                                                                                                                  abuse the public’s trust. It is the job of Special Agents to
     facilities.
                                                                                                                  identify dishonest employees and take steps to have them
The team led by the Postal Inspection Service, including personnel from the Postal Service’s                      prosecuted and removed from the Postal Service. Following
Operations Group, is implementing the recommendations.




20 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                    IDENTITY THEFT




are examples of employee crimes investigated this
reporting period.
■   In May, a California Manager of Distribution Operations
    pled guilty to theft of mail. The Manager became the
    subject of a task force investigation to determine
    the cause of DVD losses from the mailstream in the
    targeted area. Special Agents observed the Manager
    conceal mailings in a postal tub, which she later
    carried home. The investigation revealed the Manager
    schemed to give DVDs to her family members,
    who then sold the DVDs to retail businesses in the
    targeted area. Total losses are approximately 4,500
    DVDs, valued between $120,000 and $200,000.
    The Manager was sentenced to 18 months in
    prison, followed by 36 months of supervised release.
    Additionally, she was ordered to pay restitution of
    $180,000.
■   In June, a North Dakota Rural Letter Carrier resigned
    from duty after he was arrested for stealing more than
    36,500 mailpieces, some of which were mailed in
    1998. In April, a North Dakota federal grand jury issued
    a two-count indictment, charging the Carrier with delay
    or destruction of mail and possession of stolen mail       Photograph of a California employee carrying a postal tub that contained stolen DVDs and game discs
    matter.                                                    to the car.

■   In August, a former North Carolina Rural Letter
    Carrier — who hid mail in his home for roughly
    6 of the 13 years of his employment with the Postal
    Service — pled guilty to one count of delay or
    destruction of mail. A citizen contacted the OIG after
    observing a massive volume of mail in the Carrier’s
    garage. The recovered mail was removed from the
    Carrier’s home in two Postal Service long life vehicles
    and two 2-ton trucks. The Carrier faces 5 years of
    imprisonment and a $250,000 ﬁne.

IDENTITY THEFT
Identity theft occurs when a criminal steals someone’s
identifying information, such as a name, date of birth or
Social Security number, and uses it to fraudulently apply
for credit or take over someone’s credit or bank accounts.
In fact, the Postal Inspection Service is the lead agency
in investigating incidents of identity theft when criminals
misuse the nation’s postal system to defraud the American
public.

In response to the heavy ﬁnancial and emotional tolls
suffered by victims and the severe burdens placed on the
economy, the nation’s ﬁrst Identity Theft Task Force was
created by a presidential Executive Order. The Postmaster
General directed the Postal Inspection Service to represent
the agency on the task force, and one element of this
                                                               Bundles of mail and postal tubs recovered by OIG Special Agents from the garage of a North Carolina
                                                               Rural Carrier.




                                                                                                                                         April 1 – September 30, 2008 | 21
IDENTITY THEFT




                                                                                                                          examples of identity theft cases investigated by Postal
                                                                                                                          Inspectors in FY 2008.
                                                                                                                          ■ Postal  Inspectors arrested two suspects in Van Nuys,
                                                                                                                            CA, for bank and access-device fraud after receiving
                                                                                                                            reports from several major mailers about fraudulent
                                                                                                                            credit card applications in the San Fernando Valley. The
                                                                                                                            suspects broke into apartment mailboxes to steal pre-
                                                                                                                            approved credit applications, which they used to apply
                                                                                                                            for credit, then stole credit cards from the mailboxes
                                                                                                                            before the victims picked up their mail. Inspectors
                                                                                                                            executed federal search warrants on one suspect’s
                                                                                                                            home and vehicle and seized 30 fraudulent IDs, more
                                                                                                                            than 50 credit and debit cards, stolen mail, $23,000 in
                                                                                                                            cash, and more than 1,000 credit reports. Losses were
                                                                                                                            estimated in excess of $500,000. The suspects pled
                                                                                                                            guilty in March 2008.
                                                                                                                          ■ After  Postal Inspectors executed search warrants in
                                     AMMailill EExpeditor
                                                    diiti andd co-conspirator
                                                                       i      caught
                                                                                  h on camera purchasing
                                                                                                   h i a television
                                                                                                              l ii          January 2008, they arrested three suspects in Calumet
                                     with a gift card purchased with fraudulent identiﬁcation and a stolen check.           City, IL, on charges of organizing a ﬁnancial crimes
                                                                                                                            enterprise. The suspects used other victims’ personal
                                              role is the Postal Inspection Service’s participation in the                  information to obtain Illinois IDs, then opened bank
                                              Criminal Law Enforcement Subcommittee.                                        accounts with their own mailing addresses. They also
                                                                                                                            created counterfeit checks and assumed the identities
                                              In 2007, the Attorney General and FTC Chairman                                of bank customers to conduct split-deposit forgeries.
                                              announced the completion of the Strategic Plan of the                         Inspectors seized a Postal Service arrow key and
                                              President’s Identity Theft Task Force, which included 31                      stolen mail from one suspect’s home. Losses in Illinois
                                              major recommendations to formulate a comprehensive                            and northwest Indiana were estimated to exceed
                                              and coordinated proposal to attack this widespread and                        $470,000. Two of the suspects pled guilty.
                                              destructive crime. The Postal Inspection Service continues
                                              to implement recommendations of the Strategic Plan that                 Following are examples of identity theft cases jointly
                                              target the full cycle of identity theft, from acquiring sensitive       investigated by Special Agents and Postal Inspectors in this
                                              consumer data, tracking the misuse of personal data,                    reporting period.
                                              investigating and prosecuting criminals, helping with the
                                                                                                                      ■     In May, Special Agents and Postal Inspectors arrested
                                              recovery of victims, and providing recommendations for
                                                                                                                            a Georgia Mail Expeditor, who allegedly stole boxes
                                              various sectors of the economy.
                                                                                                                            of checks from the postal facility where he worked
                                              The Postal Inspection Service and U.S. Attorney’s Ofﬁce of                    and then sold them for $250 each to a former
                                              the Eastern District of Pennsylvania launched the National                    postal employee. The former employee, who was
                                              Identity Crimes Law Enforcement (NICLE) network in July.                      also arrested, allegedly sold the stolen checks to
                                              Funded by the Postal Inspection Service, NICLE improves                       seven co-conspirators who cashed them at casinos
                                              the coordination of identity theft investigations between                     and retail businesses in Colorado, Louisiana, and
                                              law enforcement agencies. It provides a central repository                    Mississippi. To cash the checks, the Mail Expeditor
                                              for identity crime information, allowing law enforcement                      and co-conspirators allegedly used false identiﬁcation
                                              agencies to learn immediately whether a particular piece of                   cards imprinted with the identifying information of the
                                              identiﬁcation — such as a Social Security number or bank                      individuals whose names appeared on the stolen check
                                              account — was reported stolen or used elsewhere in the                        boxes. The former employee told Special Agents that
                                              course of a crime. The data will be available to local, state,                she had purchased two to three boxes of checks a
                                              and federal law enforcement agencies, allowing them to                        week from the Mail Expeditor over the past 11 years,
                                              link related cases across jurisdictions.                                      and that they could make as much as $25,000 a box,
                                                                                                                            depending on how soon the account holder noticed
                                              FTC studies have shown that only a small percentage of                        the fraudulent transactions. Losses are estimated at
                                              identity theft can be traced to mail theft. In FY 2008, Postal                nearly $600,000. In May, the Mail Expeditor and eight
                                              Inspectors arrested 2,047 suspects and, in the same                           non-postal co-conspirators were indicted by a federal
                                              period, 1,732 identity thieves were convicted. Following are




22 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                     MAIL FRAUD




    grand jury on 51 counts. Management removed the             Bob’s Bitter Pill: A Half-Billion Dollar Penalty
    Mail Expeditor from duty in August.
                                                                Spare a tear, please, for Smiling Bob, whose grinning days are gone.
■   In August, management issued an “Indeﬁnite
    Suspension” to a Maryland City Letter Carrier who,          Consumers across the country know Smiling Bob, the mime-like caricature from Berkeley
    along with 12 non-postal co-conspirators, was indicted      Premium Nutraceuticals, whose ads enthusiastically touted Enzyte as a “male enhancement”
    by a federal grand jury on 53 counts for stealing and       supplement to improve sexual performance.
    cashing U.S. Treasury checks. In June 2007, OIG             Postal Inspectors found that the only thing Enzyte actually enhanced, however, was
    Special Agents joined Postal Inspectors and other           Berkeley’s — and owner Steve Warshak’s — bottom line. He founded the company and built
    Special Agents from the U.S. Department of the              the Cincinnati-based firm into the largest dietary supplement business in the country, with
    Treasury and the U.S. Secret Service in an investigation    Enzyte as its flagship product.
    into the stolen checks. The investigation determined
    the Carrier stole U.S. Treasury checks from a Post          Warshak’s business mantra was “Go big or don’t go at all,” and perhaps the U.S. District
    Ofﬁce where he worked and distributed them to 12            Court Judge had that in mind on August 27, 2008, when he sentenced Warshak to a quarter-
    non-postal employees. Two co-conspirators allegedly         century in federal prison and ordered him to pay a half-billion dollars in restitution for massive
                                                                consumer fraud. Warshak’s 75-year-old mother Harriet is among relatives and company
    produced and distributed false identiﬁcation cards
                                                                executives also facing prison time and criminal judgments.
    using names printed on the checks. Using the cards,
    the co-conspirators allegedly cashed the checks,            The Berkeley case was a triumph for the Postal Inspection Service, which served as lead
    stealing more than $100,000. The former Carrier faces       agency and managed all aspects of the challenging 4-year investigation, assisted by other
    37 years in prison and a $750,000 ﬁne for mail theft        local, state, and federal law enforcement agencies. Inspectors seized cash and property worth
    by a postal employee.                                       more than $35 million in a probe that generated 112 indictments and 13 convictions for mail
                                                                fraud, money laundering, and obstruction of justice.
MAIL FRAUD                                                      Though Smiling Bob was happy, Postal Inspectors found that hundreds of thousands of
                                                                consumers he victimized were not. Ohio’s largest-ever mail fraud scheme rocketed toward
Countless illegal schemes violate the nation’s ﬁrst consumer
                                                                $408 million in victim losses as Berkeley marketed alleged remedies for conditions ranging
protection law: the Mail Fraud Statute. As the agency           from sexual problems to insomnia to obesity, all boosted by false advertising claims and phony
responsible for ﬁghting criminals who misuse the postal         money-back guarantees.
system to defraud the American public, the Postal Inspection
Service employs this statute — which remains the most           Postal Inspectors determined that, for 5 years, the company and its executives made millions
effective tool available to ﬁght fraud — to the maximum         of dollars by sending customers dietary supplements they did not order, charging customers’
extent possible.                                                credit cards without authorization, defrauding several banks, and laundering the money through
                                                                personal bank and investment accounts. Berkeley’s business practices were so bad that it
Complex and noteworthy mail fraud cases range from              earned the dubious honor of being No. 1 in the country for complaints to the Better Business
swindles of the past, such as Ponzi schemes, to new twists      Bureau about mail fraud.
on old scams, such as investment and telemarketing fraud.
                                                                Postal Inspection Service staff managed all asset seizures over the course of the investigation,
As the schemes continue to evolve and their ranges expand       developing an aggressive plan that coordinated 16 asset seizure warrants on the same day that
via the Internet, the Postal Inspection Service has requested   50-plus federal agents executed search warrants. At stake: investment accounts totaling more
assistance from other domestic and international law            than $24 million.
enforcement entities to leverage resources and maximize
expertise. Postal Inspectors also continue to protect postal
customers by educating them about mail fraud.

In FY 2008, Postal Inspectors investigated 1,363 fraud
cases, and Postal Inspection Service analysts prepared more
than 44,627 letters and informative postcards in response
to mail fraud complaints. Postal Inspectors arrested 1,338
mail fraud suspects, and 1,188 were convicted as a result of
investigations conducted during FY 2008 and in prior ﬁscal
years.

Corporate Fraud. Following an investigation by the Postal
Inspection Service and FBI, a criminal information was
ﬁled in Illinois, in October 2007, charging BP America Inc.
(BP) with one count of conspiring to violate the Commodity      Though Smiling Bob was happy, Postal Inspectors found that hundreds of thousands of consumers he
                                                                victimized were not.
Exchange Act, mail fraud, and wire fraud. BP allegedly
schemed to corner the propane market and manipulate




                                                                                                                                     April 1 – September 30, 2008 | 23
CONTRACT FRAUD




                                              the price of propane carried through Texas pipelines (TET           takedown of mortgage fraud schemes involving more than
                                              propane). Under the terms of a deferred prosecution                 400 defendants nationwide. The Postal Inspection Service
                                              settlement, BP agreed to pay $53 million in restitution, a          participated in the operation, which focused on three
                                              criminal penalty of $100 million, and $25 million to the            types of mortgage fraud: lending fraud, foreclosure rescue
                                              Postal Inspection Service Consumer Fraud Fund. BP will              schemes, and mortgage-related bankruptcy schemes.
                                              also pay a $125 million civil penalty to the Commodity              Operation Malicious Mortgage targeted more than 400
                                              Futures Trading Commission. In turn, the government                 subjects and resulted in 173 convictions and 81 sentences;
                                              agreed not to prosecute BP for a period of 3 years for              victims suffered more than $1 billion in estimated losses.
                                              conduct charged in the information, if the company fully
                                              complies with terms of the agreement, including that                In one case example, the president and owner of Personal
                                              BP America and named subsidiaries cooperate with an                 Financial Management and ﬁve other businesses was
                                              independent monitor appointed for a 3-year period and with          sentenced in July, in Harrisburg, PA, to more than 12 years
                                              DOJ investigations of the propane manipulation schemes.             in prison and was ordered to pay $29.3 million in restitution
                                              An indictment was also issued charging four former                  to 819 victims after pleading guilty to a single count of
                                              employees of a BP subsidiary with conspiring to manipulate          mail fraud. Postal Inspectors found that, from 1988 and
                                              and corner the TET propane market and sell TET propane              through 2007, the businessman had defrauded victims via
                                              at an artiﬁcially inﬂated price in violation of mail and wire       his deceptive “Wrap Around, Equity Slide Down Discount”
                                              fraud statutes. Investigators determined that, in the course        mortgage program and his “Mortgage Participation”
                                              of the scheme, BP used the mail to transmit business                investment program, which caused losses to more than
                                              correspondence such as checks and invoices.                         21 ﬁnancial institutions. At sentencing, nine victims made
                                                                                                                  “impact statements” informing the court of the severe
                                              Investment Fraud. A 3-year investigation of a Texas man,            economic, physical, and psychological consequences of the
                                              led by Postal Inspectors with assistance from the FBI and           scheme for them and their families. The judge rejected the
                                              Texas State Securities Board, resulted in a sentence in July        man’s expression of remorse and ordered him immediately
                                              of 20 years in prison and 3 years’ probation, with an order         remanded into custody. The Postal Inspection Service led
                                              to pay $63.2 million in restitution. The man duped at least         the investigation with assistance from the Pennsylvania
                                              1,000 investors of more than $50 million through an oil             Department of Banking and Ofﬁce of the Attorney General.
                                              and gas Ponzi scheme. At his direction, employees of his
                                              ﬁrm sold interests in oil and gas well programs throughout          Deceptive Mail. In addition to the protection afforded
                                              the United States. Investors were told their money would            consumers by the Mail Fraud Statute, the Postal Service
                                              be used to drill, test, equip, and operate oil- and gas-well        is able to offer its customers the safeguard of remedies
                                              programs when, in fact, the man lied about the drilling,            provided under administrative and civil statutes. The
                                              and the wells were not producing oil and gas. Further, he           statutes are intended to protect the public and preserve the
                                              failed to disclose that the Texas State Securities Board            integrity of the mail. Through administrative proceedings
                                              had ordered him not to offer securities in Texas, that              and civil federal court action, Postal Inspectors may
                                              he was previously convicted for mail fraud, and that he             promptly halt any improper use of the mail to shield the
                                              had consented to a Permanent Injunction issued by the               public from potential fraud.
                                              Securities and Exchange Commission enjoining him from
                                              selling oil and gas interests. The man sent investors their         A False Representation Order and a Cease and Desist
                                              so-called “earnings” via the mail.                                  Order were issued in June against Coastal Publications
                                                                                                                  of Union City, NJ. Postal Inspectors found the owner
                                              Mortgage Fraud. Mortgage fraud is on the rise. Because              conducted an unlawful work-at-home scheme via ads in
                                              no single regulatory agency is responsible for monitoring           national publications. Victims were advised they could earn
                                              mortgages, the cooperation of law enforcement and                   $10 for each envelope they mailed with the company’s
                                              industry entities is integral to effectively combating this         promotional materials. Victims ﬁrst had to mail $45 to an
                                              crime. The Postal Inspection Service, FBI, Department               address in Jersey City. Those who mailed in the money only
                                              of Housing and Urban Development-Ofﬁce of Inspector                 received instructions to place ads in publications for weight
                                              General, Internal Revenue Service, and state and local              loss or health and nutrition, and were told they should
                                              agencies are among those currently investigating mortgage           remove $10 from each envelope received as a result of the
                                              fraud. To further leverage resources, Postal Inspectors             ads they placed.
                                              throughout the country take part in mortgage fraud task
                                              forces and working groups.                                          CONTRACT FRAUD
                                              In response to the mortgage fraud crisis, the FBI and DOJ           The Postal Service presently manages more than
                                              initiated Operation Malicious Mortgage, a multi-agency              $40.4 billion in contracts, ranging from multimillion dollar




24 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                              HOMICIDES, ASSAULTS, AND THREATS




national contracts for services such as transportation              Following are examples of contract fraud investigations
networks and IT infrastructures, to local contracts for             Special Agents conducted during this reporting period.            Examples of Contract
supplies and services at individual postal facilities. The                                                                            Fraud OIG seeks to
sheer volume of contracts and the huge dollar value                 ■   In April and May, a Pennsylvania postal contractor
                                                                        reimbursed the Postal Service more than $460,000              uncover
provide opportunities for contractors and employees
to defraud the Postal Service. The OIG aids the Postal                  in credits for vehicle parts for which the contractor
                                                                                                                                      ■    Billing for services not
Service by investigating allegations of contract fraud,                 had lowered prices but had neither passed the
                                                                                                                                           rendered and fraudulently
waste, and misconduct. When contract improprieties are                  cost savings on to the Postal Service nor informed
                                                                                                                                           charging for “extra costs.”
documented, Special Agents present the evidence for                     management about the price change. Additionally, the
criminal and civil prosecution or administrative remedies.              contractor failed to credit the Postal Service for parts      ■    Making false statements
Contract fraud is deﬁned as any intentional, unlawful                   management had purchased and returned, which                       and false claims.
deception designed to deprive the U.S. Government of                    would have resulted in additional cost savings to the
                                                                                                                                      ■    Misrepresenting material
something of value or to secure from the United States for              Postal Service.
                                                                                                                                           facts.
individuals a beneﬁt, privilege, allowance, or consideration        ■   In July, the owner of a Pennsylvania refrigeration
to which they are not entitled.                                                                                                       ■    Offering bribes and
                                                                        service company was sentenced to 5 months’
                                                                        incarceration, 5 months’ home conﬁnement, 2 years’                 gratuities.
The National Procurement Fraud Task Force (NPFTF),                      probation, and a $3,000 ﬁne in connection with a              ■    Falsifying records.
formed by the DOJ’s Criminal Division, promotes the “early              scheme to bribe postal managers to secure postal
detection, prevention, and prosecution of procurement fraud             contracts. Between 1998 and 2002, the contractor              ■    Arranging for secret
associated with increased contracting activity for national             paid a New Jersey Postmaster and a Post Ofﬁce                      proﬁts, kickbacks, or
security and other government programs.” The NPFTF, now                 Operations Manager $100 to $400 for each postal                    commissions.
in its second year of operation, has increased coordination             contract he received. This conviction and sentencing          ■    Engaging in conﬂicts of
with the law enforcement community and removed barriers                 are the results of multiple OIG investigations into a
in the prevention and prosecution of procurement fraud.                                                                                    interest.
                                                                        conspiracy involving the manager, who, in exchange for
                                                                        money and gratuities, steered multiple postal contracts
In September, approximately 500 professionals working in
                                                                        to certain businesses over an 8-year period.
the federal procurement community, including Investigators,
Auditors, Procurement Specialists, and Attorneys, attended          ■   In August, the Postal Service terminated all business
the 2008 NPFTF Training Conference in Richmond, VA.                     relationships with a New England-based automobile
Attendees learned new strategies to address procurement                 repair company that made multiple unnecessary
fraud and developed closer working relationships with other             repairs to postal vehicles, and had not complied with
law enforcement professionals involved in the acquisition               state and federal business regulations. Special Agents
and protection of the nation’s assets.                                  revealed the company made questionable repairs to
                                                                        postal vehicles and the company had been involuntarily
During this reporting period, the OIG conducted 99 contract             dissolved by the Commonwealth of Massachusetts for
fraud investigations, resulting in seven arrests and more               failing to ﬁle annual reports.
than $5 million in funds returned to the Postal Service.
                                                                    HOMICIDES, ASSAULTS,
                                                                    AND THREATS
                                                                    The Postal Inspection Service is committed to ensuring
                                                                    employee safety in the workplace. Postal Inspectors
                                                                    investigated 808 postal-related assaults and credible
                                                                    threats during FY 2008, down from 830 in the previous
                                                                    ﬁscal year, and arrested 326 suspects. Postal Inspectors
                                                                    seek prosecution in assault cases when appropriate.

                                                                    To ensure that its employees have a safe place to work,
                                                                    the Postal Service employs several proactive strategies
                                                                    and tools for reducing workplace violence. Integral to
                                                                    this effort are its Threat Assessment Teams (TATs), which
The National Procurement Fraud Task Force, formed by the            operate at each postal district. TATs use a cross-functional,
Department of Justices’s Criminal Division, promotes the            multidisciplinary approach to assess and manage risks,
“early detection, prevention, and prosecution of procurement        help reduce incidents of inappropriate behavior, and resolve
fraud associated with increased contracting activity for national   conﬂicts.
security and other government programs.”




                                                                                                                                          April 1 – September 30, 2008 | 25
OFFICIAL MISCONDUCT




                                              In addition to conducting investigations, Postal Inspectors             head on the sidewalk. The Carrier lost consciousness
                                              serve as advisors to the TATs by assisting them in                      and was transported to a local hospital, where he
                                              assessing situations, determining the risk of violence,                 underwent surgery. Postal Inspectors and Palm Beach
                                              and developing risk-abatement plans. Another prevention                 sheriff’s deputies responded to the scene, but the man
                                              strategy followed by Postal Inspectors, as well as postal               ﬂed. Inspectors were able to identify and locate the
                                              supervisors, is “stand-up” talks on violence prevention,                man, and they arrested him on federal assault charges
                                              which they present to employees at postal facilities.                   in February.
                                              Postal Inspectors also offer a video they produced, titled
                                                                                                                  ■   Postal Inspectors responded to a Post Ofﬁce in southeast
                                              “Workplace Violence: Stop it Before it Happens,” as an
                                                                                                                      Louisiana in October 2007 after an employee found a
                                              additional tool to help employees learn how to resolve
                                                                                                                      canvas bag, belonging to a Letter Carrier, in a ﬂat tub on
                                              conﬂicts before they escalate to violence. The effectiveness
                                                                                                                      the workroom ﬂoor. The bag contained a gun magazine
                                              of these workplace violence prevention efforts was evident
                                                                                                                      ﬁlled with.40-caliber ammunition and spent shell
                                              in the 9 percent reduction of incidents in FY 2008.
                                                                                                                      casings. Inspectors later recovered a loaded .40-caliber
                                              ■    A Florida man was sentenced, in August, to 8 1/2 years             semiautomatic pistol from the Carrier’s personal car
                                                   in federal prison, to be followed by 3 years’ supervised           parked in the employee lot. The Carrier was removed
                                                   release, for assaulting a Letter Carrier who was                   from his position and, in July 2008, was found guilty by
                                                   delivering mail in Lake Worth. The man struck the                  a federal magistrate judge of unlawfully possessing a
                                                   Letter Carrier in the face, causing him to fall and hit his        ﬁrearm on postal property.

                                                                                                                  OFFICIAL MISCONDUCT
                                                                                                                  Misconduct on the part of Postal Service employees
                                                                                                                  includes the following offenses committed in the course of
                                                                                                                  their ofﬁcial duties: misuse of Postal Service computers,
                                                                                                                  destruction or theft of Postal Service property, falsiﬁcation
                                                                                                                  of ofﬁcial documents and forgery, theft of funds, abuse of
                                                                                                                  authority, sabotage of operations, narcotics usage or sale
                                                                                                                  of drugs while on duty, and alcohol abuse. Following are
                                                                                                                  a few examples of OIG responses to tips or allegations of
                                                                                                                  employee misconduct.
                                                                                                                  ■   In July, a City Letter Carrier in California, who
                                                                                                                      presented falsiﬁed income information to the Postal
                                                                                                                      Service, was ordered to serve 5 years’ probation,
                                                                                                                      perform 1,000 hours of community service, and repay
                                                                                                                      approximately $8,200 to the Postal Service. The Carrier
                                                                                                                      concealed information about outside employment and
                                                                                                                      real estate income, which was material to the amount
                                                                                                                      of back pay he was entitled to receive from the Postal
                                                                                                                      Service.
                                                                                                                  ■   In July, a Louisiana SSA pled guilty to one count of
                                                                                                                      false claims for falsifying an address on an application
                                                                                                                      for Federal Emergency Management Agency (FEMA)
                                                                                                                      beneﬁts. The SSA, who obtained $4,358 in hurricane
                                                                                                                      damage beneﬁts to which she was not entitled, faces a
Postal Inspectors responded to the scene on July 18, after the Postmaster of the Dallas, WV, Post                     maximum of 5 years in prison and a $250,000 ﬁne.
Ofﬁce had been shot. Their investigation revealed a man had walked into the Post Ofﬁce with a shotgun,
shot the Postmaster, and ﬂed. The Postmaster was able to dial 911 and provide information about her               ■   In August, a New Jersey City Letter Carrier pled guilty
attacker, then was airlifted to a local hospital where she succumbed to her injuries. Postal Inspectors, West         in the U.S. District Court to one count of possessing
Virginia State Police, and other authorities arrived at the scene, and a warrant was obtained for the arrest          and distributing child pornography. In March 2007, the
of the suspect on charges of ﬁrst-degree murder. The suspect was located in Zanesville, OH, where he                  FBI informed the OIG the Carrier had been identiﬁed
was involved in a hit-and-run accident after attempting to overdose on over-the-counter medication. He                for distributing child pornography. In a May 2007
was admitted to a local hospital and placed under police guard. On July 21, Postal Inspectors and West                interview, the Carrier told the FBI and Special Agents
Virginia State Police transported the suspect back to West Virginia after he waived extradition. He is being          that he had sent and received child pornography
held in police custody in Marshal County, WV, without bond.                                                           from his personal home computer. Further, the Digital




26 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                               ILLEGAL DRUGS AND NARCOTICS TRAFFICKING




    Evidence Services (see feature story on page 16)             commence a legal proceeding on the legally protected
    forensically examined the computer and found 328             matter; or refuse to violate the law.
    images and two video movies of child pornography on
    the hard drive. The Carrier faces a maximum sentence         ILLEGAL DRUGS AND
    of 10 years’ imprisonment and a $250,000 ﬁne.
                                                                 NARCOTICS TRAFFICKING
Carrier Observation Program. Improper conduct by
                                                                 Postal Inspectors investigate mailings of illegal drugs and
postal employees who are on duty and in uniform casts the
                                                                 drug proceeds, and Special Agents investigate postal
Postal Service in a negative light. This improper conduct
                                                                 employees who sell narcotics while on postal property or
includes, but is not limited to, Letter Carriers purchasing or
                                                                 on duty.
consuming alcohol in public places, selling illegal narcotics
from their postal vehicles, driving with suspended state
driver’s licenses, and deviating from their routes and           Narcotics Trafﬁcking
conducting non-postal business, all while on duty and            The Postal Inspection Service interdicts mailings of illegal
in uniform. Letter Carriers who drive postal trucks while        drugs and drug proceeds to protect postal employees as
intoxicated or under the inﬂuence of a narcotic also present     well as the integrity of the mail. Postal Inspectors also
a threat to others, themselves, and Postal Service property      investigate organized narcotic distribution groups to protect
while placing the security of the mail at risk. Carrier          employees and customers from the violence related to drug
Observation Program investigations completed by the OIG          trafﬁcking and to preserve the integrity of the mail.
during this reporting period resulted in 84 administrative
personnel actions including removals, suspensions, and           Postal Inspectors, often working with other law enforcement
letters of warning.                                              ofﬁcials, arrested 1,118 suspects for drug trafﬁcking via
                                                                 the mail in FY 2008. Their investigations resulted in the
                                                                 seizure of approximately 8.6 tons of illegal narcotics found
EXECUTIVE INVESTIGATIONS                                         in the mail, as well as more than $4.7 million in cash and
AND INTERNAL AFFAIRS                                             monetary instruments, 19 ﬁrearms, and 2 vehicles related
The OIG’s Ofﬁce of Investigations conducts criminal and          to ongoing investigations. Following are examples of
administrative investigations of Postal Service executives,      investigations from FY 2008.
and OIG and Postal Inspection Service personnel, as well as      ■   In October 2007, a woman called Postal Inspectors
whistleblower reprisal investigations.                               in Harrisburg, PA, out of concern for the safety of
                                                                     her Letter Carrier. She reported seeing two men with
Whistleblower Activity                                               weapons seeking a package addressed to her business
A whistleblower is an employee or former employee who                and saying they would “ﬁnd the mail man.” Inspectors
reports misconduct to people or entities that have the               located the men and arrested them. One had a loaded
power to take corrective action. Generally, the misconduct           9 mm semiautomatic handgun, and both had prior
is a violation of law, rule, or regulation, and/or a direct          convictions for drug trafﬁcking, violent crimes, and
threat to public interest — fraud, health, safety violations,        weapons possession. Inspectors determined the
and corruption are just a few examples. The employee                 package was from McAllen, TX, and they arrested the
must reasonably believe his or her employer has committed            mailer and charged all three suspects. The package
a violation of some law, rule, or regulation; testify or             contained about 30 pounds of marijuana, and evidence
                                                                     indicated the men were responsible for multiple
                                                                     mailings. One suspect pled guilty and was sentenced
                                                                     in July to 5 years in prison and 3 years’ probation.
   OIG whistleblower activity during this                        ■   In June, Postal Inspectors in Anchorage, AK, and
   period:                                                           Phoenix, AZ, arrested the mailers of more than 1 kilo
   ■   74 Allegations received
                                                                     of heroin sent via Express Mail. Inspectors alleged that
                                                                     a prisoner coordinated the mailings while in custody
   ■   23 OIG investigations initiated                               at the Red Rock Correctional Facility in Arizona. His
   ■   20 Investigations closed with no ﬁnding of retaliation        girlfriend and another co-conspirator handled the
          or deferred to other adjudicative body                     heroin and money and shipped multiple packages over
                                                                     6 months to distributors in Anchorage. The case began
   ■   15 Open investigations                                        when Postal Inspectors conducted a controlled delivery
   ■   0 OIG found reprisal                                          of a package containing approximately 1 kilo of black
                                                                     tar heroin and some prescription pills, resulting in three




                                                                                                                                  April 1 – September 30, 2008 | 27
ROBBERIES




                                                   arrests. They executed a second controlled delivery                a West Virginia Postal Manager. The manager had
                                                   of heroin 1 month later, which resulted in three more              allegedly tried to gain unauthorized entry into a Virginia
                                                   arrests. All suspects were charged federally.                      Post Ofﬁce to retrieve a letter she had written to the
                                                                                                                      wife of a convicted methamphetamine dealer. In the
                                              Employee Drug Investigations                                            letter — which the Postmaster wrote on a postal
                                                                                                                      computer while on duty — the Postmaster apologized
                                              Special Agents investigate postal employees selling
                                                                                                                      for using the wife’s name to forge a letter addressed
                                              narcotics while on postal property or on duty. Information
                                                                                                                      to a U.S. judge. The investigation also determined
                                              on the possession or personal use of illegal drugs by
                                                                                                                      the Postmaster had been engaged in a conspiracy
                                              postal employees is referred through management to the
                                                                                                                      involving the possession with intent to distribute a
                                              Employee Assistance Program for attention.
                                                                                                                      controlled substance. In July, the Postmaster was
                                              Illegal drugs in the workplace can negatively impact                    indicted on two counts of possession with intent to
                                              employee productivity and safety. They also affect                      distribute.
                                              employee judgment and can increase stress levels, leading           ■   In July, a former City Letter Carrier in Oklahoma was
                                              to acts of violence or hostility. Use and sale of narcotics             sentenced to 151 months (12.6 years) in prison for
                                              on duty by employees can contribute to other crimes                     using methamphetamine, distribution of the illegal
                                              such as theft, embezzlements, and fraudulent workers’                   substance on two occasions, and possession with
                                              compensation claims.                                                    the intent to distribute. During a search of his vehicle,
                                                                                                                      Special Agents discovered drug paraphernalia, 4.3
                                              For the 6-month period, Special Agents arrested 11 postal
                                                                                                                      grams of methamphetamine, and a “Last Chance
                                              employees suspected of possessing or using illegal drugs
                                                                                                                      Agreement,” issued by the Postal Service and signed
                                              on duty, and 37 employees were removed from the Postal
                                                                                                                      by the Carrier.
                                              Service. Following are examples of OIG investigations of
                                              narcotics-related offenses by postal employees.                     ■   In April, a Massachusetts City Letter Carrier — who
                                                                                                                      was arrested after she ﬂed police in her postal
                                              ■    In June, Special Agents from the OIG, the U.S. Drug                vehicle — pled guilty to failing to stop for police,
                                                   Enforcement Administration (DEA) and the Bureau of                 assault, resisting arrest, disorderly conduct, and drug
                                                   Alcohol, Tobacco, Firearms and Explosives arrested                 possession. Special Agents determined the Carrier had
                                                                                                                      sped through a construction zone after injecting herself
                                                                                                                      with heroin while on duty and in the postal vehicle.

                                                                                                                  ROBBERIES
                                                                                                                  Robberies pose a threat to postal employees, jeopardize
                                                                                                                  the public’s trust in the mail, and attack the ﬁnancial
                                                                                                                  integrity of the Postal Service. Postal Inspectors in all parts
                                                                                                                  of the country receive expert training on how to safeguard
                                                                                                                  employees and facilities against criminals, but the mail and
                                                                                                                  Post Ofﬁces likely will remain compelling targets for larceny.

                                                                                                                  Thieves who attack Letter Carriers seek mail containing
                                                                                                                  valuables — such as jewelry, checks, or ﬁnancial
                                                                                                                  information — or keys to mail receptacles that give them
                                                                                                                  greater access to even more mail. Those who target Postal
                                                                                                                  Service facilities are usually after cash and money orders.
                                                                                                                  In FY 2008, the Postal Service experienced 88 robberies or
                                                                                                                  attempted robberies of postal employees or Post Ofﬁces.

                                                                                                                  The investigation of robberies continued to be a priority for
                                                                                                                  Postal Inspectors as shown in the following examples from
                                                                                                                  FY 2008.
                                                                                                                  ■   The Archer Avenue Station in New York was robbed
                                                                                                                      at gunpoint by three men of cash, stamps, and postal
During a search of a Carrier’s personal vehicle, Special Agents discovered drug paraphernalia, 4.3 grams of           money in June 2007. Postal Inspectors identiﬁed
methamphetamine, and a “Last Chance Agreement,” issued by the Postal Service and signed by the Carrier.               a suspect based on DNA evidence found inside a




28 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                     DANGEROUS MAIL INVESTIGATIONS




    hat from the crime scene, and arrested the man in            criminal intent, a rapid response ensures that Postal
    June. Inspectors learned the suspect had robbed the          Inspectors are on hand at the earliest opportunity when
    Post Ofﬁce and recruited two friends to help. He also        mail is intentionally used to convey chemical, biological,
    implicated his aunt, who was a Letter Carrier at the         radiological, or explosive substances.
    Post Ofﬁce and who provided helpful information,
    including the safe combination and a postal uniform.         Postal Inspectors trained as Dangerous Mail Specialists
                                                                 use screening equipment, along with established threat-
■   Postal Inspectors learned that an HCR Driver for the
    Wapato, WA, Post Ofﬁce was robbed of cash, checks,
    and postal money orders on January 17. The driver
    stated she was robbed by a man who speciﬁcally
    asked for Registered Mail, then ﬂed the scene with
    several others. Postal Inspectors arrested a suspect on
    January 31 after executing a federal search warrant at
    his residence.

BURGLARIES
Postal Inspectors in FY 2008 reported 176 burglaries
at postal facilities nationwide. Due to increased security
countermeasures and aggressive investigations, roughly 86
percent of burglaries in the past ﬁscal year resulted in only
minor losses of less than $1,000.

In July, a suspect entered the Beverly Hills, CA, Postal
Store, accessed the vault, cut a hole into the registry cage,
and stole cash and blank postal money orders. In August
Postal Inspectors arrested a suspect in Los Angeles who
attempted to sell more than 3,000 postal money orders for
$1 million. The money orders matched the serial numbers
of those stolen from the Beverly Hills facility. The suspect
was on probation when he was arrested for the burglary.

DANGEROUS MAIL                                                   Dangerous mail refers to mail containing explosives or biological,
INVESTIGATIONS                                                   chemical, or radiological substances. Postal Inspectors receive
                                                                 specialized training and equipment to address these threats and to
Dangerous mail refers to mail containing explosives or
                                                                 protect postal employees, customers, and the mail system.
biological, chemical, or radiological substances. Postal
Inspectors receive specialized training and equipment to
address these threats and to protect postal employees,
customers, and the mail system. The Postal Inspection
Service partners with other agencies in the homeland security
community and assists with national security programs.

Postal Inspectors develop protocols for, and coordinate
responses to, reports of alleged or suspected dangerous
items in the mail or at mail facilities. Inspectors across the
country respond to the incidents, resolve alleged and actual
threats, and conduct investigations of the incidents and any
related criminal activity.

Suspicious Substances in the Mail
Postal Inspectors respond rapidly to reports of unidentiﬁed
substances in the mail and threats involving chemical or         The Postal Inspection Service’s mobile mail-screening station is designed to detect
biological material. Although the incidents may not involve      chemical, biological, radiological, nuclear, and explosive threats. Five to eight people
                                                                 operate the state-of-the-art, 53-foot custom tractor-trailer.




                                                                                                                                                   April 1 – September 30, 2008 | 29
DANGEROUS MAIL INVESTIGATIONS




                                              assessment protocols, to respond to mail and mail facilities        incident involving an IED sent via the mail and eight IEDs
                                              reporting suspicious substances. They determine whether             placed in postal mail receptacles.
                                              the substances are hazardous and could pose a threat to
                                              postal employees, customers, or facilities.                         If a mail bomb detonates, the life and safety of those in
                                                                                                                  the vicinity of the explosion are the ﬁrst priorities of Postal
                                              In FY 2008, the Postal Inspectors responded to 2,894                Inspectors and other responders. Once these priorities are
                                              incidents nationwide involving unidentiﬁed suspicious               addressed, Inspectors secure the crime scene and process
                                              powders and liquids reported by postal employees,                   the area for evidence.
                                              customers, or other federal agencies. The unidentiﬁed
                                              substances were found in the Postal Service’s critical              In FY 2008, Postal Inspectors responded to 1,761 incidents
                                              infrastructure, at postal facilities, or in the mail. Postal        of explosive devices placed in private mail receptacles,
                                              Inspectors determined that all of the suspicious substances         hoax bomb devices, suspicious items found in postal
                                              reported were nonhazardous material such as talcum                  facilities or equipment, and mailed explosive devices. Their
                                              powder or detergent.                                                investigations resulted in 84 arrests and 65 convictions.
                                                                                                                  Most of the incidents involved false alarms or items
                                              The Postal Inspection Service’s screening program has               inadvertently left behind by customers. The remainder
                                              proven to be enormously successful for the Postal Service.          involved hoax devices or homemade explosives used to
                                              While the majority of incidents involve nonhazardous                vandalize mailboxes. Postal Inspectors investigate even the
                                              substances, a response by Postal Inspectors ensures                 threatened use of dangerous material in the mailstream
                                              that employees can depend on having a safe and secure               and other miscellaneous misuses of the mail.
                                              workplace and that countless postal facilities are kept open
                                              rather than being needlessly evacuated. The result is fewer         Following are examples of investigations of suspicious
                                              lost workhours, better employee morale and productivity,            substances and other items conducted by Postal Inspectors
                                              and improved delivery standards for the Postal Service.             in FY 2008.

                                              Beginning in May 2005, the Postal Inspection Service                ■   In March, Postal Inspectors, with agents from several
                                              began purchasing and deploying throughout the country                   state and local law enforcement agencies and local
                                              advanced equipment for screening unidentiﬁed substances                 ﬁrst responders, traveled to Clay County, IA, when 17
                                              that may be found in the mail. In FY 2008, the Dangerous                customers in an area covering more than 110 square
                                              Mail Group deployed 201 sets of equipment, and 316                      miles reported their mailboxes had been destroyed by
                                              Postal Inspectors completed training in and certiﬁcation                a blast or a blunt instrument. Two mailboxes contained
                                              as Dangerous Mail Specialists. Further, over the past ﬁscal             unexploded IEDs, which were rendered safe by bomb
                                              year, Postal Inspectors delivered more than 141 educational             technicians from the Iowa State Fire Marshal’s Ofﬁce.
                                              seminars to employees, business owners, and other law                   The public was advised, via radio and television, not to
                                              enforcement and government agencies addressing mail                     open their mailboxes until further notice, and the Postal
                                              safety and handling protocols.                                          Service curtailed Saturday mail delivery to about 1,200
                                                                                                                      customers — for their safety and to protect postal
                                              The results have been dramatic: Postal Inspection Service               employees from harm. Inspectors identiﬁed a suspect
                                              efforts reduced the number of unnecessary postal facility               from a surveillance video. In an interview, the suspect
                                              evacuations by 34 percent from the same period last                     admitted that he and four others committed the crime.
                                              year and reduced lost workhours by about 44 percent.                    Inspectors arrested the suspects, who were charged
                                              Overall this reduced delayed mail and operating costs                   in juvenile court with 17 federal felony counts of
                                              associated with evacuations. Further, unnecessary requests              destroying letter boxes or mail and seven state felony
                                              for emergency responses by local ﬁrst responders were                   counts of possessing an explosive device.
                                              reduced, freeing responders to be available in the event of         ■   Donald Wayne Schamber pled guilty to mailing an
                                              other emergencies.                                                      explosive device with intent to injure and was sentenced
                                                                                                                      in May 2008 to 10 years in prison. A Letter Carrier had
                                              Suspicious Items in the Mail                                            reported to Postal Inspectors and West Plains, MO, police
                                              In addition to responding to reports of dangerous                       on June 1, 2007, that he found a suspicious package in
                                              substances associated with the mail, Dangerous Mail                     a collection box addressed to West Plains police. A bomb
                                              Specialists respond to reports of suspicious items in the               squad from the Missouri State Highway Patrol X-rayed
                                              mail, such as mail bombs or improvised explosive devices                the parcel and identiﬁed a functional pipe bomb inside,
                                              (IEDs). Fortunately, mail bombs are exceptionally rare. Over            which they rendered safe. Inspectors forwarded the
                                              the past ﬁscal year, Postal Inspectors investigated one                 components to the Dulles Forensic Laboratory, which
                                                                                                                      traced the components to purchases at a retail store




30 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                   CHILD EXPLOITATION VIA THE MAIL




    by a white male in May. Postal Inspectors distributed
    copies of a surveillance photo and reward poster to the
    media on June 1 and arrested Schamber only 3 days
    later. Schamber told Inspectors he was trying to frame his
    ex-wife’s husband as the mailer of the device. Other local,
    state, and federal agencies assisted with the case.
■   Postal Inspectors and other members of the FBI’s Joint
    Terrorism Task Force in Boston, MA, arrested a man
    in March for allegedly mailing nearly 100 threatening
    communications from 2005 through 2007 targeting
    airports, celebrities, executives, and others in the Los
    Angeles area. An Inspector on the task force in Los
    Angeles connected the 2005 mailings to similar ones
    sent in 2007. Boston Postal Inspectors and FBI agents
    identiﬁed the man and interviewed him in January at
    his home. He claimed he mailed the threats because
    the Screen Actors Guild had made disparaging remarks
    against Jodi Foster, and he believed the Guild was
    somehow connected to the airports. He appeared before
    a district judge and was released on an unsecured
    $10,000 bond to a third-party custodian. As part of his
    pretrial conditions, the man was barred from using the
                                                                  Postal Inspectors worked with other federal, state, and local law enforcement and security professionals in
    mail without direct supervision, accessing the Internet in
                                                                  FY 2008 in conducting mail screenings to detect explosives and other dangerous material at such National
    any form, and traveling outside of Massachusetts. He was
                                                                  Special Security Events as the Democratic and Republican National Conventions.
    additionally ordered to attend mental health sessions.
■   An FBI agent in Dalton, GA, requested assistance from         Mail Screening at National Special
    Postal Inspectors in January related to ﬁve mailed            Security Events
    letters threatening to cause “another 9/11” by blowing
    up the Shaw Industries building in Dalton. Inspectors         The Department of Homeland Security (DHS) designates
    obtained video images of the mailer from a postal             certain public events as National Special Security Events.
    facility and traced them to a suspect who recently had        The events receive this designation because they are seen
    a conﬂict with his supervisor. The supervisor’s name          as attractive targets for terrorists or assassins due to their
    appeared on the letters as the author. On February            visibility or political connection.
    12, Postal Inspectors along with other local, state, and
                                                                  Postal Inspectors worked with other federal, state, and local
    federal agents arrested the man and charged him with
                                                                  law enforcement and security professionals, in FY 2008, in
    ﬁve counts of making terrorist threats.
                                                                  conducting mail screenings to detect explosives and other
■   Postal Inspectors arrested a man in January for mailing       dangerous material at such National Special Security Events
    threatening communications and making false or ﬁctitious      as the Super Bowl and the Democratic and Republican
    statements after the Chief Executive Ofﬁcer of LaSalle        National Conventions. In addition, Postal Inspectors
    Bank in Michigan received a letter on September 11,           conducted mail-screening operations onsite at three other
    2007, threatening the bank “would be in the next 9/11”        national special security events.
    and LaSalle Bank “would be my ﬁrst mark.” During an
    interview, Inspectors learned he mailed the threat because    CHILD EXPLOITATION VIA
    the bank denied him a home equity loan. The man had
    a prior history of mailing an anthrax hoax. Assistance
                                                                  THE MAIL
    in the case was provided by several local, state, and         Postal Inspectors arrested 160 suspects and identiﬁed
    federal agencies. Forensic Examiners from the National        45 child molesters, in FY 2008, as part of the Postal
    Forensic Laboratory identiﬁed the man through latent          Inspection Service’s continuing efforts to bring to justice
    prints on the letter.                                         those who unlawfully use the mail to trafﬁc in child
                                                                  pornography or otherwise sexually exploit children. Postal
                                                                  Inspectors also identiﬁed and rescued 46 children from
                                                                  incidents of sexual abuse and exploitation.




                                                                                                                                               April 1 – September 30, 2008 | 31
CHILD EXPLOITATION VIA THE MAIL




                                              Because nearly all cases of child exploitation investigated             entering the plea and pending a hearing, Inspectors
                                              by Postal Inspectors involve the Internet as well as the                discovered new sexually explicit letters and a drawing
                                              mail, the Postal Inspection Service has become an integral              he had mailed to his daughter. They also found the man
                                              partner in the DOJ’s Project Safe Childhood initiative. The             attempted to sexually “groom” a 16-year-old girl. Based
                                              DOJ initiative is aimed at preventing the sexual exploitation           on the new evidence, the U.S. Attorney’s Ofﬁce ﬁled a
                                              of children through the Internet by using a well-coordinated,           motion for an upward departure at sentencing. In June,
                                              multi-pronged approach involving federal, state, and local              he was sentenced to 20 years in prison, to be served
                                              law enforcement agencies.                                               consecutively to his state sentence.

                                              During FY 2008, Postal Inspectors initiated 164 new                 ■   Postal Inspectors were contacted in April by the
                                              investigations involving child exploitation. The investigations         Lackawanna County, PA, District Attorney’s Ofﬁce
                                              were examples of high-impact, quality casework that                     following training provided by Inspectors related to
                                              emphasized the identiﬁcation and dismantling of major                   child exploitation investigations. Local detectives had
                                              commercial distribution enterprises that relied on the                  received complaints about a man who was following
                                              mail and the Internet to conduct illegal activities. Postal             children in a local park and photographing them while
                                              Inspectors worked in close cooperation with trial attorneys             hiding behind trees. He had two prior state convictions
                                              of DOJ’s Child Exploitation and Obscenity Section, where                for unlawful contact with children and was out on bail
                                              a Postal Inspector was assigned full time on all cases of               pending sentencing for his latest state conviction.
                                              national and international signiﬁcance.                                 He was classiﬁed in Pennsylvania as a violent sexual
                                                                                                                      predator. Postal Inspectors contacted the man in an
                                              ■    In December 2006, the California Department of                     undercover operation, and he responded by mailing
                                                   Corrections reported to Postal Inspectors that an inmate           a payment for a video of hardcore child pornography,
                                                   had mailed pornographic pictures to his 12-year-old                with a handwritten request for more videos. In June,
                                                   daughter. The man was serving a 12-year sentence                   Postal Inspectors and other investigators executed
                                                   for the repeated molestation of his other daughter,                a controlled delivery of a child pornography video to
                                                   who was 8-years-old, and her friend. Inspectors                    the man’s home in Scranton, and later arrested him.
                                                   determined the man had telephoned his daughter                     Inspectors found the man not only ordered the video,
                                                   from jail and threatened suicide to manipulate her into            but had molested six boys. In September, the man pled
                                                   mailing him sexually explicit letters. Postal Inspectors           guilty to receiving and possessing child pornography
                                                   executed three federal search warrants on ﬁve pieces               and is in custody pending sentencing.
                                                   of First-Class Mail, all of which were pornographic.
                                                   The man pled guilty to multiple counts; however, after




32 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                  SECURITY




SECURITY AND CRIME PREVENTION
The Chief Postal Inspector is the Chief Security Ofﬁcer and Emergency Coordinator for the Postal
Service. He is responsible for the physical protection of all postal facilities, personnel, and assets,
as well as the Postal Service’s information security program. The Chief Postal Inspector maintains
liaison with other investigative and law enforcement agencies, including DHS, FEMA, and other
national emergency coordinators.

SECURITY                                                       Terminal Handling Supplier Reviews
                                                               In FY 2008, the Postal Service solicited new proposals
Security of Postal Assets                                      for its terminal handling services (THS) network. THS
Postal Inspectors have continued to work with staff from       sites perform critical mailhandling operations for the
the Postal Service’s Mail Transportation Equipment ofﬁce in    Postal Service’s air and ground transportation networks
FY 2008 to recover costly postal pallets and ﬂat tubs from     nationwide. Postal Inspectors and staff from the Postal
locations across the country. Inspectors ﬁrst identiﬁed the    Service’s Supply Management and Shared Networks ofﬁces
problem in 2004, which resulted in revenue shortfalls to the   evaluated suppliers’ technical proposals and presented ﬁnal
Postal Service. As internal controls improve and awareness     recommendations to postal managers. Once the suppliers
of the problem grows, more postal equipment has been           were in place, Postal Inspectors conducted security
located and returned to circulation: In FY 2008, Postal        assessments at each of the 56 THS sites. They provided
Inspectors and postal employees recovered 12,500 pallets       security reports for each site visit to local and national THS
worth $250,000.                                                managers and Postal Service contracting ofﬁcers, with
                                                               details of any observed security deﬁciencies.
Personnel Security
As part of the Postal Inspection Service’s commitment to       Access-Control Protection for Postal Facilities
maintaining a safe and secure working environment for          The Postal Inspection Service teamed with Postal Service
Postal Service employees, Postal Inspectors performed          staff from the Information Technology and Facilities ofﬁces
a review of personnel screening at all 80 postal districts     to develop and deploy the new Enterprise Physical Access
during FY 2008. The reviews included interviews of             Control System (ePACS). ePACS is a security system that
employees involved in the hiring process, examinations         links the Postal Service’s computerized access-control
of Ofﬁcial Personnel Folders and Pre-Employment                systems nationwide through its local area network.
Investigative Files, and compliance with established
suitability and screening policies and procedures.

Postal Inspectors’ ﬁndings disclosed that about 63 percent
of the 4,314 cases had no deﬁciencies. In a report to
District Managers, Inspectors detailed deﬁciencies they
found and identiﬁed opportunities for improvement.
The most prevalent deﬁciencies were incomplete or
unsigned Interview Checklists, uncertiﬁed interviewers,
missing documents from Ofﬁcial Personal Folders or
Pre-Employment Investigative Folders, and lack of drug
screening prior to hiring.

Security Force
The Postal Inspection Service maintains an armed,
uniformed security force of Postal Police Ofﬁcers (PPOs)
to provide ongoing protection for postal employees, mail,
and property. PPOs are assigned to facilities considered
most at risk for crime. The presence of ofﬁcers serves as
a deterrent to criminal activity and creates an environment
conducive to the safety of postal employees and customers.


                                                               Postal Police Ofﬁcers are assigned to facilities considered most at risk for crime.




                                                                                                                                               April 1 – September 30, 2008 | 33
HOMELAND SECURITY




                                              The Postal Service previously used standalone systems               Postal Notiﬁcation and Emergency
                                              that relied on local security processes. ePACS represents           Management System
                                              a new level of security by updating the entire postal
                                              network. When actions are taken in one system, such as an           To provide timely responses, in the event of terrorist or
                                              employee termination or a suspension of access, they are            other attacks, the Postal Inspection Service employs the
                                              reﬂected system-wide. ePACS signiﬁcantly enhances the               multi-pronged approach of its Postal Notiﬁcation and
                                              security of postal employees, facilities, and assets.               Emergency Management System (P-NEMS). P-NEMS
                                                                                                                  analyzes data from the Postal Inspection Service’s Critical
                                              Postal Inspectors and postal staff pilot-tested ePACS at            Incident Watch Desk, the Postal Alert and Notiﬁcation
                                              four facilities in the Great Lakes Area, and it has since been      System (PANS), and incident-management software.
                                              installed at more than 175 facilities nationwide. In FY 2008,
                                              Postal Inspectors and others installed ePACS at another             Postal Inspectors used incident-management software to
                                              35 sites. In addition to improving security, the development        track personnel, resources, and events while conducting
                                              team identiﬁed signiﬁcant future cost savings for the Postal        mail-screening operations during the 2008 Democratic
                                              Service by proposing the use of IT structured wiring rather         and Republican National Conventions. The software fully
                                              than costly proprietary wiring.                                     supports Incident Command System protocols and can be
                                                                                                                  quickly deployed to manage facility and event security, as
                                                                                                                  well as disaster preparedness and recovery.
                                              Facility Security Reviews
                                              Postal Inspectors worked with staff from the Postal                 Homeland Security Exercises
                                              Service’s Facilities ofﬁce, in FY 2008, to conduct risk
                                              assessments of new postal facilities. The assessments are           The Postal Inspection Service participated in National Level
                                              designed to ensure that appropriate security measures are           Exercise (NLE) 2-08 conducted by the Federal Executive
                                              incorporated into construction plans for the facilities. This       Branch from May 1 through 8, 2008. NLE 2-08 included
                                              practice assures that facilities offer appropriate protection       the FEMA Eagle Horizon 08 continuity exercise, the
                                              for postal employees, customers, and assets. Postal                 Department of Defense Ardent Sentry exercise, and FEMA’s
                                              Inspectors also conducted security reviews at 341 postal            Hurricane Preparedness Exercise. The National Continuity
                                              facilities in high-risk areas, as determined through risk-          Policy Implementation Plan mandated that all federal
                                              based assessments.                                                  departments and agencies complete the full-scale NLE
                                                                                                                  2-08 exercise.

                                              HOMELAND SECURITY                                                   The Eagle Horizon 08 is an externally evaluated, scenario-
                                                                                                                  based exercise that allows agencies to activate and
                                              The Postal Inspection Service is charged with implementing
                                                                                                                  test their continuity plans, deploy essential personnel
                                              requirements mandated in Presidential Directive 19, which
                                                                                                                  to alternate facilities, perform essential functions from
                                              establishes national policies related to deterring, detecting,
                                                                                                                  the alternate facility, and test compliance with annual
                                              preventing, providing protection from, and responding to the
                                                                                                                  requirements outlined in Federal Continuity Directive 1.
                                              terrorist use of explosives.
                                                                                                                  Postal Inspection Service personnel from Headquarters
                                              The Postal Inspection Service worked with other agencies
                                                                                                                  and ﬁeld locations participated in the exercise to test the
                                              on the Presidential Directive 19 working group to publish a
                                                                                                                  continuity of operations at a Postal Service alternate facility.
                                              plan, the National Strategy for Combating Terrorist Use of
                                                                                                                  The exercise was conducted at the interagency level for the
                                              Explosives in the United States, in June. Postal Inspectors
                                                                                                                  Postal Service and Postal Inspection Service, and internally
                                              were additionally tasked with enhancing standards and
                                                                                                                  for Postal Inspection Service compliance. The interagency
                                              improving the delivery of training on post-blast investigation
                                                                                                                  exercise enabled the Postal Service to test its continuity of
                                              methods for federal, state, and local authorities.
                                                                                                                  operations plans.
                                              Postal Inspectors are assigned to full-time positions
                                              with the FBI’s National Joint Terrorism Task Force and              National Preparedness
                                              DHS’s National Operations Center. Postal Inspectors                 During its ﬁrst full year as an ofﬁce of the Postal Inspection
                                              are also active participants in homeland security and               Service, the National Preparedness group continued to
                                              law enforcement working groups, including the federal               perform responsibilities related to incident management,
                                              Interagency Intelligence Committee on Counterterrorism              infrastructure protection, aviation mail security, and
                                              and the National Counterterrorism Center. Furthermore,              emergency performance measurement — all key activities
                                              Postal Inspectors represent the Postal Service on the Postal        in preparing for, responding to, and assisting with recovery
                                              & Shipping Sector Coordinating Council, one of 17 private-          from major incidents affecting postal employees and
                                              sector councils under DHS.                                          operations.




34 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                HOMELAND SECURITY




The goal of the Postal Inspection Service is to offer ﬁrst-
class protection to employees and the postal infrastructure
and to ensure business continuity by anticipating threats to
Postal Service interests. To accomplish this goal, staff must
maintain a high level of national preparedness through
coordinated planning and oversight. It has assigned a
manager for each of the nine postal areas and a Homeland
Security Coordinator for each of the 80 districts to
synchronize their work with Postal Inspectors and ensure
they can provide readiness for all hazards, implement risk-
mitigation plans and procedures, and deliver prompt and
effective incident-response and recovery operations across
the country.

The Postal Inspection Service continued to implement,
manage, and reﬁne emergency resources, including the
emergency-preparedness response-and-recovery services
contracts, the Large-Capacity Power Generator Program,
critical-reserve stockpile, and Geo-Spatial Information
Systems. These resources guarantee “24-7-365”
emergency coverage for all postal personnel and assets.

In the days leading up to the landfall of Hurricane Ike on the
coast of southeast Texas, National Preparedness Managers,
Homeland Security Coordinators, and Postal Inspectors —
who were still responding to ﬂood-recovery operations             In FY 2008, the Postal Inspection Service’s National Preparedness Managers, Homeland Security
in the Midwest and post-storm recovery from Hurricane             Coordinators, and Postal Inspectors helped coordinate the Postal Service’s ﬂood post-storm recovery from
Gustav — worked to secure diesel generators and ensure            Hurricanes Gustav and Ike by deploying support equipment and supplies, assisting with damage assessments
large-generator maintenance for postal facilities.                and recovery, and helping to restore postal operations.

Using the Geo-Spatial Information System, staff members           facilities nationwide. Staff evaluated compliance with
identiﬁed the 45 postal facilities most likely to be impacted     security requirements for building and vehicle security,
by the hurricane. The system generated detailed maps              accountable mail handling, and the local enforcement of
indicating the likely path and intensity of Hurricane Ike and     employee-identiﬁcation requirements. Both before and after
pinpointed its course in relation to critical postal locations.   disasters, National Preparedness staff employs a wide array
National Preparedness staff disseminated maps and                 of tools and processes to establish performance measures
advisories to ensure that all appropriate managers, postal        that will ensure effective and cost-efﬁcient security for
area staff, District Managers, and emergency-response             employee, assets, and business operations.
team members were deployed and ready to implement
protective measures as needed.                                    Midwest Flooding. In June, the Postal Inspection Service
                                                                  responded to ﬂooding caused by severe rainfall in the
                                                                  Midwest that affected 33 Post Ofﬁces. In one Great Lakes
Natural and Manmade Disasters                                     Region ofﬁce in Beloit, WI, where a nearby river rose 13.5
The Postal Inspection Service responded to dozens of              feet above ﬂood levels, staff members met with local and
emergencies, in FY 2008, related to hurricanes, ﬂoods,            postal ofﬁcials to assess site conditions and set objectives
ﬁres, and other incidents. Staff coordinated the deployment       for maintaining operations and mitigating risks. Over the
of emergency equipment and supplies and assisted with             following 3 weeks, Postal Inspection Service staff, local
damage assessments and recovery, including hazardous              public works employees, postal employees, supervisors,
and toxic-material removal. Safely removing hazardous             and the Postmaster worked together on sandbagging the
materials from the postal system and educating employees          area in effort to maintain operations.
and customers about nonmailable items is a priority of the
Postal Inspection Service.                                        At the same time, in Cedar Rapids, IA, more than 4,000
                                                                  residents were forced to evacuate the area when record
To ensure compliance with security measures, Postal               ﬂooding shut down most of the city. Postal Inspection
Inspectors and National Preparedness staff conducted              Service staff worked with postal managers and Inspectors
thousands of security-assessment reviews at postal                to install temporary CBUs in a parking lot where postal




                                                                                                                                            April 1 – September 30, 2008 | 35
GLOBAL SECURITY AND INVESTIGATIONS




                                              workers were passing out mail to families. The CBUs                 kits, ﬂashlights, meals ready to eat, protective masks, and
                                              remained on high ground throughout the recovery period,             water, bringing relief to thousands of people.
                                              and customers were given keys so they could safely
                                              retrieve mail. The sandbagging minimized damage at Post             Wildﬁres raged in Northern California throughout the
                                              Ofﬁces, and the district Emergency Operations Coordinator           summer of 2008, charring more than 59,000 acres of
                                              assisted with response and recovery operations for Iowa             land and burning more than 100 structures in Concow
                                              City, Coralville, and Cedar Rapids.                                 and Paradise, CA. The Postal Service ensured that all
                                                                                                                  Letter Carriers in the affected areas — City, Rural, and
                                              California Wildﬁres. In October and November 2007,                  HCR — had proper supplies to perform their duties,
                                              23 wildﬁres burned in Southern California, charring more            including bottled water and smoke-protection masks.

                                                                                                                  GLOBAL SECURITY AND
                                                                                                                  INVESTIGATIONS
                                                                                                                  The mission of the Global Security and Investigations
                                                                                                                  Division is to protect the Postal Service’s international and
                                                                                                                  military mail operations and related assets worldwide.
                                                                                                                  In support of this mission, division personnel conduct
                                                                                                                  domestic and international investigations and liaison with
                                                                                                                  foreign postal administrations, security personnel, and law
                                                                                                                  enforcement agencies.

                                                                                                                  Postal Inspectors engage in mail security and prevention
                                                                                                                  initiatives and investigative work in support of this
                                                                                                                  mission and provide security consulting for foreign postal
                                                                                                                  administrations through the Postal Security Group (PSG)
                                                                                                                  of the Universal Postal Union (UPU), and with the Security
                                                                                                                  Action Group of the Postal Union of the Americas, Spain,
                                                                                                                  and Portugal (PUASP). Inspectors work with the Postal
                                                                                                                  Service’s ofﬁces of Global Business and International Postal
                                                                                                                  Affairs, and with other stakeholders worldwide.

                                                                                                                  As chairman of the UPU Postal Security Group, the Chief
Billings, MT, Plane Crash. In May, a Beechcraft 1900 airplane carrying 5,000 pounds of First-Class                Postal Inspector and the Postal Inspection Service have a
and Priority Mail crashed shortly after take-off from the Logan International Airport in Billings, MT, en route   leadership role in ensuring the global security of U.S. Mail.
to Great Falls. The District Homeland Security Coordinator worked with postal managers and Inspectors             For example, during FY 2008, division staff participated
to gather mail that had been spread over a wide area. A Postal Inspector investigated the crash with              in the strategic partnership agreement between Servicio
other local, state, and federal ofﬁcials.                                                                         Postal Mexicano, also known as Sepomex, and the Postal
                                                                                                                  Service. As part of the agreement, the Postal Inspection
                                              than 500,000 acres and mandating the evacuation of more             Service was asked to support Sepomex in creating security
                                              than 321,500 people. A total of 139 people were injured             and investigations programs modeled after the programs
                                              and 10 died in what were deemed the worst wildﬁres in the           of the Postal Inspection Service. Over the past ﬁscal year,
                                              history of that area. As a result of the extensive exercises        U.S. Postal Inspectors assisted Sepomex by organizing,
                                              conducted earlier in the year, Postal Inspectors and other          selecting, and training newly appointed Sepomex postal
                                              staff were well-prepared to respond to the disaster.                inspectors.
                                              Although many employees were forced to evacuate the
                                              area, Postal Inspection Service staff reported to multiple          The alliance between the Postal Inspection Service and
                                              Emergency Operations Centers and Postal Inspectors                  Sepomex supports the development and implementation
                                              provided round-the-clock security so that customers could           of security initiatives to ensure the safety and security of
                                              pick up mail at alternate locations. Throughout the ordeal,         mail crossing U.S. and Mexican borders, assists with the
                                              team workers maintained excellent communications                    creation of new products and services for the two postal
                                              with the postal community, critical external agencies,              administrations, and promotes enhanced service for mailers
                                              and community members. Staff brought large quantities               in both countries.
                                              of emergency supplies into affected areas, including
                                                                                                                  For example, Sepomex postal inspectors and U.S. Postal
                                              generators, portable toilets, personal hygiene kits, ﬁrst-aid
                                                                                                                  Inspectors received information that Sepomex and Postal




36 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                      CYBER INTELLIGENCE




Service mail sacks were being sold to a private construction     During FY 2008, Postal Inspectors also delivered bilateral
company, which was using them to transport cement                training to postal ofﬁcials, postal employees, police ofﬁcers,
and sand. When investigators learned of a scheduled              and customs agents from foreign postal administrations, to
delivery of stolen sacks to the company on June 19,              include mail theft courses in Brazil, Nicaragua, Costa Rica,
2008, an operation was planned and executed, resulting           Mexico, Thailand, Liberia, and other locations.
in the recovery of 70,000 mail sacks and the arrest of
seven suspects. At the home of one suspect, they seized          Universal Postal Union and the
mail sacks from Sepomex, the Postal Service, China and           Geneva Congress
Germany, and determined the man has been stealing the
sacks for the past 3 years. The case received widespread         The Universal Postal Congress is the supreme authority
media attention in Mexico.                                       of the UPU and brings together the ofﬁcial delegates of its
                                                                 191 member countries. During its quadrennial conference
                                                                 held in August in Geneva, Switzerland, the UPU adopted
Conducting Global Investigations
                                                                 a World Postal Strategy that will serve as a roadmap for
In FY 2008, the Global Security and Investigations Division      member countries and UPU bodies until the next Congress,
created task forces at the ﬁve gateway cities: Miami,            scheduled for Doha, Qatar, in 2012. More than 3,000
San Francisco, Los Angeles, Chicago, and New York.               participants from the UPU’s member countries worked to
The gateway task forces comprise Postal Inspectors               resolve issues affecting the global postal sector.
and Special Agents who work on criminal investigations,
measures intended to prevent revenue loss related to             The Chief Postal Inspector delivered several presentations
international mail, and measures to ensure the security of       during the Congress related to global postal markets and
the international mail system. Task force investigations have    products, outlined the activities of the Postal Security
resolved signiﬁcant security issues both in the United States    Action Group (PSAG) over the past 4 years, and discussed
and abroad. Following are examples of their investigations       proposals for the future direction of PSAG related to
in the past ﬁscal year.                                          deterring criminals’ use of the mail for money laundering,
                                                                 drug trafﬁcking, and terrorist ﬁnancing. He described critical
■   In April, Postal Inspectors assigned to the JFK Gateway      new minimum security standards for the postal sector,
    Task Force arrested seven contractors hired by               which were endorsed by consensus, and proposed changes
    Swissport, USA, for stealing international parcel mail.      to regulations for mailing explosive devises and military
    The arrests were the culmination of an extensive             ordnances, which also were adopted.
    investigation into the theft of Express Mail and Priority
    Mail parcels, including military mail, transiting from JFK   At the conclusion of the 24th Congress, it was announced
    Airport aboard Delta Airlines to destinations around the     that the United States would chair PSAG for the next 4 years.
    world. All seven contractors were indicted on mail theft
    charges in June.
                                                                 CYBER INTELLIGENCE
■   In March, Postal Inspectors located nearly 30 tons of
    U.S. Mail backlogged in Mexico that was destined to          The mission of the Postal Inspection Service’s Cyber
    Havana, Cuba. In an agreement facilitated by Postal          Intelligence Division is to proactively address cyber crime
    Inspectors for the Postal Service’s Global Business          affecting the Postal Service and its customers, and to develop
    ofﬁce and Sepomex ofﬁcials, Sepomex contracted a             solutions to mitigate threats through the following actions:
    cargo plane and transported the backlogged mail back         ■   Targeting high-value crime affecting the Postal Service
    to Havana in April. To avoid future problems, Postal             and postal customers.
    Inspectors assisted Global Business specialists in
    developing a plan to reroute U.S. Mail destined to Cuba      ■   Building and maintaining relationships with foreign and
    through Panama instead of Mexico.                                domestic law enforcement and intelligence agencies,
                                                                     businesses, and academic institutions.
Security Training Initiatives                                    ■   Providing timely, accurate reporting of cyber crime
Postal Inspectors continue to deliver security training              risks to Postal Service business ventures.
abroad for employees of foreign postal administrations and
                                                                 ■   Mitigating risks to new postal products and business
postal-related security stakeholders in support of the UPU
                                                                     planning.
Postal Security Group and the Postal Security Action Group
of PUASP. The courses are intended to improve the security       Not only is the Postal Service one of the largest businesses
of U.S. Mail as it transits international borders.               in the United States, with nearly 685,000 employees and
                                                                 more than 33,000 commercial retail outlets, it owns the
                                                                 third largest information technology infrastructure in the




                                                                                                                                  April 1 – September 30, 2008 | 37
CYBER INTELLIGENCE




                                                                                                                  Cyber attacks, in FY 2008, were also aimed at executives
                                                                                                                  of government agencies and were designed to gain access
                                                                                                                  to their computers; the Postmaster General and Deputy
                                                                                                                  Postmaster General were each targeted. Postal Inspectors
                                                                                                                  successfully traced the attacks to speciﬁc locations and
                                                                                                                  worked with the FBI and the DOJ’s Computer Crime and
                                                                                                                  Intellectual Property Section to prosecute the perpetrators.

                                                                                                                  Division staff uses a malicious software analysis program
                                                                                                                  to assist the Postal Service’s Information Technology team
                                                                                                                  in monitoring and securing the IT infrastructure. The
                                                                                                                  program identiﬁes emerging cyber threats and provides
                                                                                                                  timely analysis to postal executives and the Postal Service’s
                                                                                                                  Computer Incident Response Team. Division staff also
                                                                                                                  performs “reverse engineering” of malicious code that
                                                                                                                  threatens or inﬁltrates postal systems.

                                                                                                                  International Cyber Crime
                                                                                                                  The United Kingdom is the second largest source of
                                                                                                                  international mail destined for the United States. Securing
                                                                                                                  mail sent to and from this vital trading partner is crucial
                                                                                                                  to Postal Service operations. Criminals operating a host of
                                                                                                                  fraudulent schemes now intentionally base their activities in
                                                                                                                  multiple countries to exploit administrative and jurisdictional
Postal Inspectors blocked certain online shipments destined to countries with high levels of shipping fraud       barriers to law enforcement and prosecutive proceedings.
and implemented controls to detect parcels bearing counterfeit, duplicate, or altered mailing labels.             They may conduct illegal activity from one country, target
                                                                                                                  victims in another, and launder the ﬁnancial proceeds in
                                                                                                                  several others.
                                              world. Similar to most other U.S. businesses, the Postal
                                              Service’s international business operations continue to             Law enforcement entities in the United Kingdom have
                                              expand.                                                             been seeing increased criminal activity involving the Mail.
                                                                                                                  Beginning in June, a U.S. Postal Inspector was detailed to
                                              All Postal Service operations — including mail processing,          the City of London Police to focus on intelligence-gathering
                                              accounting, and payment systems — rely on its IT                    and analysis of economic crimes related to mail. The
                                              infrastructure. Further, postal customers use numerous              Inspector participated in customs operations at London’s
                                              web-based products, such as Click-N-Ship, change of                 Heathrow Airport, and, since his deployment, he worked
                                              address and hold mail services, and Post Ofﬁce box                  with his UK counterpart to interdict nearly $19 million worth
                                              payments. Given the size of its IT infrastructure, the Postal       of counterfeit checks bound for the United States, and more
                                              Service faces thousands of network attacks daily by                 than $568,000 worth of counterfeit Postal Service money
                                              criminals seeking access to its computers in a bid to create        orders.
                                              havoc or steal assets.
                                                                                                                  Reshipping Initiative
                                              National Cyber Forensics and                                        Criminals who conduct reshipping scams recruit U.S.
                                              Training Alliance                                                   citizens by advertising at career websites and via classiﬁed
                                              In FY 2008, the Postal Inspection Service partnered with            ads to “make money while working from your home.” Using
                                              the National Cyber Forensics and Training Alliance, a               stolen credit card numbers, scammers buy computers,
                                              non-proﬁt organization that works with law enforcement              electronics, and other items that can easily be resold and
                                              agencies, private industry, and academia to research                mail them to recruits for reshipping out of the country. The
                                              cyber attacks. One of the initiatives focused on malicious          criminals even provide counterfeit “postage-paid” mailing
                                              software. Postal Inspectors assisted in identifying an              labels. U.S. victims rarely discover the fraudulent charges
                                              organized-crime network operating from Romania and                  until long after a package has been delivered. When
                                              targeting U.S. businesses and citizens, including the Postal        cardholders report the fraud, banks collect their money
                                              Service, via malicious software.                                    from the Postal Service and merchants, and may add ﬁnes.




38 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                             CONSUMER EDUCATION AND FRAUD PREVENTION




A Postal Inspection Service initiative to stop reshipping
scams was aimed at protecting postal consumers, business
mailers, and ﬁnancial institutions from fraud and resulted
in saving the Postal Service a projected $8 million annually
in postage, air freight charges, and fraudulent credit card
fees.

In April, Postal Inspectors interviewed more than 700
reshippers nationwide to educate them about illegal
reshipping and obtained agreements from them to cease
the activity and release the merchandise. As a result, Postal
Inspectors identiﬁed and removed from the mail nearly
1,300 parcels bearing fraudulent mailing labels.

As part of the initiative, Inspectors blocked certain online
shipments to countries with high levels of shipping fraud
and implemented controls to detect parcels bearing
counterfeit, duplicate, or altered mailing labels.

CONSUMER EDUCATION AND
                                                                The 2008 National Consumer Protection Week theme, Don’t Fall for a Fake Check Scam, was built on
FRAUD PREVENTION                                                a consumer fraud-awareness campaign launched in October 2007 by the Alliance for Consumer Fraud
Postal Inspectors employ a number of tools — not just           Awareness. The Alliance was spearheaded by the Postal Inspection Service.
criminal prosecution — to ﬁght fraud. The Postal Inspection
Service also works to protect consumers by educating            were sponsored by every Postal Inspection Service division
them about current fraud schemes so they do not become          and included Post Ofﬁce presentations and informational
victims. For years, Postal Inspectors have led fraud-           booths; radio, TV, and newspaper interviews; community
prevention projects and worked actively with consumer-          and senior citizens’ center presentations; employee service
protection agencies and other groups to teach citizens          talks; and visits to local colleges and universities.
how to protect themselves. An educated public is the ﬁrst
line of defense against con artists, and Postal Inspectors      Operation Tele-PHONEY
are committed to helping Americans learn about fraud            The Postal Inspection Service participated in a
prevention.                                                     telemarketing fraud sweep coordinated by the FTC in
                                                                May to heighten consumers’ awareness of telemarketing
2008 National Consumer Protection Week                          fraud. An announcement highlighting the results of the
The 2008 National Consumer Protection Week (NCPW)               sweep included a number of telemarketing fraud cases
theme, “Don’t Fall for a Fake Check Scam,” was built on a       investigated by Postal Inspectors and other agencies. In
consumer fraud-awareness campaign launched in October           all, more than 30 international, federal, state, and local law
2007 by the Alliance for Consumer Fraud Awareness. The          enforcement agencies participated in the sweep — the
Alliance was spearheaded by the Postal Inspection Service,      largest ever coordinated by the FTC.
in partnership with the Ofﬁce of the Consumer Advocate,
                                                                “Operation Tele-PHONEY” encompassed more than 180
and included 20 ﬁnancial institutions, associations,
                                                                cases, including civil and criminal actions in the United
consumer advocacy groups, and businesses. Together they
                                                                States and Canada. More than 80 state law enforcement
developed and launched the fakechecks.org Web site to
                                                                actions were initiated, criminal actions were taken
increase Americans’ awareness about fraudulent ﬁnancial
                                                                against more than 90 defendants, and eight cross-border
schemes, help consumers learn how to protect their assets
                                                                telemarketing fraud actions were brought by Canada’s
from fraudsters, and provide a single location where
                                                                Competition Bureau and the British Columbia Business
consumers could report suspected ﬁnancial fraud.
                                                                Practices and Consumer Protection Authority. The FTC
Postal Inspectors joined managers from the Postal Service’s     estimated that, as a result of law enforcement actions,
Ofﬁce of the Consumer Advocate, District Consumer Affairs,      consumers would save approximately $30 million over
Corporate Communications ofﬁce and representatives              the next year. FTC Chairman William E. Kovacic said, “The
from other federal, state, and local consumer-protection        sheer breadth of ‘Operation Tele-PHONEY’ is a testament to
agencies during NCPW in March to urge Americans to be           the ability of law enforcement agencies at all levels to work
informed consumers, not victims of con artists. Forums




                                                                                                                                          April 1 – September 30, 2008 | 39
CONSUMER EDUCATION AND FRAUD PREVENTION




                                              together effectively to help protect consumers both in the          In March 2008, the Postal Inspection Service issued
                                              United States and abroad.”                                          an update of Publication 307, Stop Unsolicited Sexually
                                                                                                                  Oriented Advertisements in the Mail, to advise postal
                                              Fraud Prevention Information for Postal                             customers of the statutory remedies available to prohibit
                                              Employees and Customers                                             such mailings to their addresses.
                                              The Postal Inspection Service offers consumer fraud                 These and a host of other fraud prevention publications
                                              information, fraud alerts, wanted and reward posters,               are available online for viewing and printing at the Postal
                                              and related information on its Web site, www.usps.com/              Inspection Service’s Web site.
                                              postalinspectors. Postal customers can report suspected
                                              identity theft, mail theft, and mail fraud online at the site.      Victim-Witness Assistance Program
                                              In FY 2008, the Postal Inspection Service published a new           Federal legislation mandating certain rights for victims and
                                              edition of Publication 166, Mail Center Security, which             witnesses of crime was initially passed in 1982. As part of
                                              provides guidelines to help business owners maintain                the Victim Witness Protection Act, Congress instructed the
                                              safe and secure mail centers. It offers practical advice            Attorney General to assure that all federal law enforcement
                                              on protective measures that will assist businesses in               agencies adopt guidelines consistent with the purpose of
                                              assessing, preventing, and responding to problems                   the act and related legislation. The Crime Victim Rights Act
                                              stemming from mail theft, mail bombs, or mailed bomb                added the most far-reaching legislation to date supporting
                                              threats as well as chemical, biological, or radiological            victim rights.
                                              threats in the mail.
                                                                                                                  The Postal Inspection Service works with the DOJ and
                                                                                                                  the law enforcement community to support the Attorney
                                                                                                                  General’s Guidelines for Victims and Witnesses. The Postal
                                                                                                                  Inspection Service’s responsibility is to identify potential
                                                                                                                  victims related to its criminal investigations, provide them
                                                                                                                  with timely notiﬁcation of their rights, and inform them
                                                                                                                  of the services available to assist them. Beyond legal
                                                                                                                  mandates, victims may require the personal attention of
                                                                                                                  a trained staff member — which often proves to be the
                                                                                                                  service most valued and remembered by customers. The
                                                                                                                  Postal Inspection Service is only the second federal law
                                                                                                                  enforcement agency to gain direct access to the DOJ’s
                                                                                                                  Victim Notiﬁcation System. Access was granted due to the
                                                                                                                  high volume of Postal Inspection Service investigations that
                                                                                                                  affect large numbers of victims.

                                                                                                                   Victim Outreach                                   FY 2008
                                                                                                                   Notiﬁcations                                        66,499
                                                                                                                   Information and Referrals                            5,378
                                                                                                                   Criminal Justice Support                             1,861
                                                                                                                   Identity Theft Assistance                            3,643
                                                                                                                   Elderly Victim Assistance                              909
                                                                                                                   Victim Advocacy Services                               928




                          Pub 166 Guide to Mail Center Security is provided to business owners to help
                          them maintain safe and secure mail centers.




40 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                       APPENDIX A




APPENDICES
The Inspector General Act of 1978 requires semiannual reports on the immediately preceding 6-month periods ending March 31 and
September 30. These reports are sent to Congress and made available to the public.

This report summarizes OIG and Postal Inspection Service activities and illustrates signiﬁcant problems, abuses, and deﬁciencies,
along with recommendations and corrective actions related to the administration of U.S. Postal Service programs and operations
during the reporting period.

The appendices on the following pages fulﬁll the requirements of the Act.


APPENDIX A
Reports Issued to Postal Service Management
For the period April 1 — September 30, 2008

OIG audit teams conduct performance and ﬁnancial audits, evaluations, and other reviews to address the business of the Postal Service. Each team issues audit
reports (AR) or management advisory reports (MA) in accordance with the identiﬁed needs of the project.


   Deﬁnitions:
   Questioned Costs. A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, and so forth.

   Unsupported Costs. A cost that is not supported by adequate documentation. Unsupported costs are included with the amounts shown as
   Questioned Costs.

   Funds Put to Better Use. Funds that could be used more efﬁciently by implementing recommended actions.

   Revenue Impact. Amounts from revenue generating functions such as retail sales, rent, leases, or fees that were underpaid or not realized. In addition,
   this category includes increased revenue from existing functions and generating revenue from new sources.


                                                                    Funds Put
 Risk Category                 Number of Reports                 to Better Use         Questioned Costs         Unsupported Costs                Revenue Impact
 Strategic                                       15                $55,268,960                $46,876,250                          –                                –
 Financial                                      160                          –                $66,795,145                $52,847,385                      $2,133,183
 Operational                                     47               $332,291,125                $49,765,545                          –                     $2,084,620
 Total                                          222               $387,560,085              $163,436,940                $52,847,385                      $4,217,803




                                                                                                                                       April 1 – September 30, 2008 | 41
APPENDIX A




Reports With Quantiﬁable Potential Monetary Beneﬁts
                                                                                                         Funds Put                          Unsupported     Revenue
                                                                                                      to Better Use     Questioned Costs          Costs      Impact
 STRATEGIC RISK
 Engineering
 Equipment Maintenance in the Fort Worth District; DA-AR-08-009; 8/7/2008                                  $9,476,402          $4,738,201             –            –
 Mail Processing Equipment Spare Parts: Plant Stockrooms; DA-AR-08-008; 7/28/2008                         $30,155,144         $30,155,144             –            –
 Upgraded Flats Sorting Machine 1000 Utilization in the New York Metro Area;
                                                                                                          $15,637,414         $11,982,905             –            –
 DA-AR-08-010; 8/25/2007
 FINANCIAL RISK
 Fiscal Year 2008 Financial Installation Audit
 Alameda Station — Los Angeles, California; FF-AR-08-186; 5/23/2008                                                –               $2,104         $2,104     $51,693
 Anderson Business Mail Unit — Anderson, South Carolina; FF-AR-08-229; 7/8/2008                                    –                   –              –       $3,565
 Austin Business Mail Entry Unit — Austin, Texas; FF-AR-08-187; 5/23/2008                                          –                   –              –       $5,850
 Bardin Road Station — Arlington, Texas; FF-AR-08-159; 4/21/2008                                                   –              $3,078         $3,078            –
 Blythebourne Station — Brooklyn, New York; FF-AR-08-259; 8/13/2008                                                –               $1,957         $1,957           –
 Brookhollow Station — Self-Service Postal Center – Dallas, Texas;
                                                                                                                   –                $370           $370         $923
 FF-AR-08-236; 7/17/2008
 Brownsville Business Mail Entry Unit — Brownsville, Texas; FF-AR-08-223; 7/2/2008                                 –                  $0              –       $6,369
 Cedar Bluff Station — Knoxville, Tennessee; FF-AR-08-175; 5/19/2008                                               –                  $0              –      $16,424
 Center City Station — Oklahoma City, Oklahoma; FF-AR-08-171; 5/5/2008                                             –              $1,380         $1,380       $8,916
 Chesapeake Beach Vending — Chesapeake Beach, Maryland; FF-AR-08-204; 6/17/2008                                    –               $1,258             –            –
 Chicago District Business Mail and Business Reply Mail Procedures — Chicago, Illinois;
                                                                                                                   –            $484,300        $417,000   $1,270,000
 FF-AR-08-258; 8/12/2008
 Conyers Main Post Ofﬁce — Conyers, Georgia; FF-AR-08-230; 7/8/2008                                                –                $466           $466       $8,306
 Creve Coeur Branch — St. Louis, Missouri; FF-AR-08-264; 8/15/2008                                                 –               $2,145         $1,325      $17,477
 Detroit Business Mail Entry Unit — Detroit, Michigan; FF-AR-08-275; 8/28/2008                                     –                   –              –      $20,823
 Dodge City Business Mail Entry Unit — Dodge City, Kansas; FF-AR-08-211; 6/19/2008                                 –                   –              –      $59,577
 Drums Post Ofﬁce — Drums, Pennsylvania; FF-AR-08-191; 5/27/2008                                                   –                   –              –       $7,254
 Duluth Main Post Ofﬁce — Duluth, Minnesota; FF-AR-08-174; 5/19/2008                                               –              $1,308         $1,308       $1,406
 Elberon Station — Long Branch, New Jersey; FF-AR-08-184; 5/23/2008                                                –              $3,332         $3,332            –
 Ensenada Post Ofﬁce — Ensanada, Puerto Rico; FF-AR-08-249; 8/1/2008                                               –               $7,641             –       $1,505
 Franklin D. Roosevelt Station — New York, New York; FF-AR-08-208; 6/18/2008                                       –              $3,906         $3,906      $10,734
 Franklin Post Ofﬁce — Franklin, Virginia; FF-AR-08-152; 4/9/2008                                                  –                $624           $156      $90,257
 Grand Rapids Business Mail Entry Unit — Grand Rapids, Minnesota;
                                                                                                                   –                   –              –       $6,213
 FF-AR-08-199; 6/5/2008
 Hartford Business Mail Entry Unit — Hartford, Connecticut; FF-AR-08-228; 7/3/2008                                 –                   –              –      $40,474
 Hawthorne Main Post Ofﬁce — Hawthorne, California; FF-AR-08-188; 5/27/2008                                        –                   –              –       $3,900
 Honolulu Main Ofﬁce Station — Honolulu, Hawaii; FF-AR-08-170; 4/30/2008                                           –                $238           $238      $19,636
 Jacksonville General Mail Facility Post Ofﬁce — Jacksonville, Florida;
                                                                                                                   –                $162           $162      $41,507
 FF-AR-08-195; 6/2/2008
 Kirkwood Automated Postal Center #1 — Kirkwood, Missouri; FF-AR-08-241; 7/25/2008                                 –              $3,661         $3,661            –
 Lakewood Branch Post Ofﬁce — Lakewood, Ohio; FF-AR-08-222; 6/30/2008                                              –                   –              –       $5,584




42 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                              APPENDIX A




                                                                                          Funds Put                        Unsupported            Revenue
                                                                                       to Better Use   Questioned Costs          Costs             Impact
Lamar Station — Corpus Christi, Texas; FF-AR-08-260; 8/14/2008                                    –                $749            $287              $1,825
Longview Business Mail Entry Unit — Longview, Texas; FF-AR-08-251; 8/7/2008                       –                   –                –           $28,398
Manchester Business Mail Entry Unit — Manchester, Pennsylvania;
                                                                                                  –                   –                –             $2,998
FF-AR-08-250; 8/6/2008
Minot Main Post Ofﬁce — Minot, North Dakota; FF-AR-08-232; 7/11/2008                              –                $316            $316              $1,389
Mount Pleasant Business Mail Entry Unit — Mount Pleasant, Iowa;
                                                                                                  –                   –                –           $113,014
FF-AR-08-183; 5/23/2008
Murfreesboro Main Ofﬁce Window — Murfreesboro, Tennessee; FF-AR-08-180;
                                                                                                  –                $424            $424              $4,383
5/22/2008
New Lots Station — Brooklyn, New York; FF-AR-08-283; 9/16/2008                                    –               $5,156               –             $5,323
Norwich Business Mail Entry Unit — Norwich, Connecticut; FF-AR-08-268; 8/20/2008                  –                   –                –           $85,804
Pontiac Business Mail Entry Unit — Pontiac, Michigan; FF-AR-08-272; 8/26/2008                     –                   –                –           $23,034
Rapid City Main Post Ofﬁce — Rapid City, South Dakota; FF-AR-08-285; 9/18/2008                    –                   –                –             $2,108
Rochester Business Mail Entry Unit — Rochester, Minnesota; FF-AR-08-161; 4/21/2008                –                   –                –             $1,968
Salt Lake City Main Post Ofﬁce — Salt Lake City, Utah; FF-AR-08-256; 8/8/2008                     –                   –                –           $50,039
San Antonio Air Mail Facility — San Antonio, Texas; FF-AR-08-284; 9/17/2008                       –               $1,207         $1,207                $208
Santa Clarita Main Post Ofﬁce — Santa Clarita, California; FF-AR-08-219; 6/26/2008                –             $29,660          $2,222             $18,554
Seattle Business Mail Entry Unit — Seattle, Washington; FF-AR-08-200; 6/10/2008                   –                   –                –            $29,079
Senatobia Business Mail Entry Unit — Senatobia, Mississippi; FF-AR-08-217; 6/25/2008              –               $2,311               –           $30,556
Snohomish Post Ofﬁce — Snohomish, Washington; FF-AR-08-207; 6/18/2008                             –              $1,008          $1,008                $223
South Suburban Post Ofﬁce — Bedford Park, Illinois; FF-AR-08-178; 5/20/2008                       –              $8,796          $8,796                    –
Southampton Post Ofﬁce — Southampton, Pennsylvania; FF-AR-08-162; 4/18/2008                       –             $31,209         $31,209                 $50
St. Louis Business Mail Entry Unit — St. Louis, Missouri; FF-AR-08-273; 8/26/2008                 –                   –                –            $19,504
Staten Island Main Post Ofﬁce — Staten Island, New York; FF-AR-08-154; 4/10/2008                  –             $18,428         $18,428                    –
Thousand Oaks Main Post Ofﬁce — Thousand Oaks, California; FF-AR-08-177; 5/20/2008                –              $4,000          $4,000              $4,322
Walton Business Mail Entry Unit — Walton, Kentucky; FF-AR-08-245; 7/29/2008                       –                   –                –             $1,674
Wardensville Post Ofﬁce — Wardensville, West Virginia; FF-AR-08-193; 5/30/2008                    –              $3,894                –                   –
Warwick Business Mail Entry Unit — Warwick, Rhode Island; FF-AR-08-163; 4/21/2008                 –                   –                –            $10,337
Yazoo City Post Ofﬁce — Yazoo City, Mississippi; FF-AR-08-276; 8/28/2008                          –              $6,810                –                   –
Fiscal Year 2008 SmartPay Purchase Card Program
Great Lakes; FF-AR-08-287; 9/26/2008                                                              –             $38,412         $38,412                    –
Paciﬁc Area; FF-AR-08-281; 9/12/2008                                                              –             $20,215         $18,105                    –
Western Area; FF-AR-08-286; 9/25/2008                                                             –              $57,712        $57,712                    –
Supply Management
Contract Oversight of Highway Transportation Contracts in the Southeast Area;
                                                                                                  –           $9,531,082     $9,531,082                    –
CA-AR-08-009; 8/25/2008
Firm Fixed Price Proposal, Revision B, Submitted by Siemens Energy and Automation,
                                                                                                  –          $10,822,092               –                   –
Incorporated, Postal Automation Division; CA-CAR-08-020; 4/18/2008
Rough Order Magnitude Proposal Submitted by Hewlett Packard Company;
                                                                                                  –         $45,693,734     $42,693,734                    –
CA-CAR-08-022; 5/20/2008




                                                                                                                              April 1 – September 30, 2008 | 43
APPENDIX A




                                                                                                         Funds Put                          Unsupported     Revenue
                                                                                                      to Better Use     Questioned Costs          Costs      Impact
 OPERATIONAL RISK
 Cost, Revenue & Rates
 Controls Over the International Reconciliation System; CRR-AR-08-006; 8/25/2008                             $154,163           $705,305              –            –
 Delivery
 City Letter Carrier Operations Ofﬁce Time Processes: DR-AR-08-013; 9/30/2008                            $12,862,773           $6,128,681             –            –
 Management of Delivery Point Sequencing Percentage Increases for City Delivery —
                                                                                                           $3,738,011          $9,574,823             –            –
 Southeast Area, Atlanta District; DR-AR-08-005; 7/30/2008
 Vehicle Maintenance Facilities — Scheduled Maintenance Service in the Great Lakes Area;
                                                                                                         $28,224,843                   –              –            –
 DR-AR-08-009; 9/29/2008
 Vehicle Maintenance Facilities — Scheduled Maintenance Service in the New York Metro
                                                                                                         $25,287,093                   –              –            –
 Area; DR-AR-08-011; 9/30/2008
 Vehicle Maintenance Facilities — Scheduled Maintenance Service in the Southeast Area;
                                                                                                         $27,620,773                   –              –            –
 DR-AR-08-007; 9/16/2008
 Vehicle Maintenance Facilities — Scheduled Maintenance Service in the Southwest Area;
                                                                                                         $34,522,159                   –              –            –
 DR-AR-08-006; 8/14/2008
 Vehicle Maintenance Facilities — Scheduled Maintenance Service in the Western Area;
                                                                                                         $14,251,384                   –              –            –
 DR-AR-08-008; 9/29/2008
 Vehicle Maintenance Facilities — Scheduled Maintenance Services in the Paciﬁc Area;
                                                                                                         $21,580,236                   –              –            –
 DR-AR-08-010; 9/30/2008
 Financial Reporting
 Miami International Service Center — Inbound International Mail; FT-AR-08-012; 9/3/2008                           –                   –              –    $2,084,620
 Information Systems
 Private Branch Exchange Systems; IS-AR-08-010; 5/27/2008                                                  $1,316,533            $14,248              –            –
 Inspection Service & Facilities
 Leased Facility Maintenance Responsibility in the Great Lakes Area;
                                                                                                                   –             $117,111             –            –
 SA-AR-08-008; 7/23/2008
 Regatta Annex Lease; SA-AR-08-011; 8/18/2008                                                                      –            $621,964              –            –
 Network Processing
 Powered Industrial Vehicle Management System at the Providence Processing and
                                                                                                           $1,576,086                  –              –            –
 Distribution Center; NO-AR-08-010; 9/23/2008
 Powered Industrial Vehicle Management System at the Raleigh Processing and Distribution
                                                                                                          $3,345,456                   –              –            –
 Center; NO-AR-08-007; 9/15/2008
 Transportation
 Air Networks — Federal Express Transportation Agreement — Western Area;
                                                                                                        $117,549,363          $23,747,665             –            –
 NL-AR-08-008; 9/29/2008
 Dallas Airport Mail Center Operations; NL-AR-08-009; 9/30/2008                                          $26,329,467           $8,437,430             –            –
 Postal Vehicle Service Transportation Routes — Northern Virginia Processing and
                                                                                                          $8,009,363                   –              –            –
 Distribution Center; NL-AR-08-006; 9/25/2008
 Vehicle Management — National Trailer Lease Renewal — Eastern Area;
                                                                                                           $3,886,717           $248,779              –            –
 NL-AR-08-005; 8/27/2008
 Vehicle Management — National Trailer Lease Renewal — Southeast Area;
                                                                                                          $2,036,705            $169,539              –            –
 NL-AR-08-007; 9/25/2008
                                                                                                       $387,560,085         $163,436,940     $52,847,385   $4,217,803




44 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                   APPENDIX A




Report Listing
For the period April 1 – September 30, 2008

Complete listing of all OIG reports issued to Postal Service management.


STRATEGIC RISK                                        Mail Processing Operations in the Rio Grande        Houston District; FF-AR-08-248; 7/31/2008
                                                      District; NO-AR-08-008; 9/23/2008
Engineering                                                                                               Long Island District; FF-AR-08-266; 8/19/2008
                                                      Sales & Service
Engineering Investment Portfolio Measurement;                                                             Louisiana District; FF-AR-08-255; 8/8/2008
DA-AR-08-007; 7/21/2008                               Business Mail Entry Unit Sampling and Veriﬁcation
                                                      Procedures; MS-AR-08-005; 7/31/2008                 Mid-Carolinas District; FF-AR-08-247; 7/30/2008
Equipment Maintenance in the Fort Worth District;
DA-AR-08-009; 8/7/2008                                FINANCIAL RISK                                      New Hampshire/Vermont District; FF-AR-08-269;
                                                                                                          8/27/2008
Flats Sequencing System: Production First Article     Cost, Revenue & Rates
Testing Readiness and Quality; DA-AR-08-006;                                                              Salt Lake District; FF-AR-08-157; 4/14/2008
6/4/2008                                              Bound Printed Matter Workshare Discounts;
                                                      CRR-AR-08-005; 5/9/2008                             Sierra Coastal District; FF-AR-08-235; 7/17/2008
Mail Processing Equipment Spare Parts: Plant
Stockrooms; DA-AR-08-008; 7/28/2008                   Field Financial                                     Triboro District, John F. Kennedy Air Mail Facility;
                                                                                                          FF-AR-08-271; 8/25/2008
Status of Intelligent Mail Enabling Infrastructure;   Fiscal Year 2008 Use of No-Fee Money Orders;
DA-AR-08-005; 5/21/2008                               FF-MA-08-001; 7/21/2008                             Fiscal Year 2008 Financial Installation Audit

Upgraded Flats Sorting Machine 1000 Utilization       Financial Reporting                                 Alameda Station — Los Angeles, California;
in the New York Metro Area; DA-AR-08-010;                                                                 FF-AR-08-186; 5/23/2008
8/25/2007                                             Compliance with the Bank Secrecy Act;
                                                      FT-AR-08-014; 9/17/2008                             Altus Main Post Ofﬁce — Altus, Oklahoma;
Network Optimization                                                                                      FF-AR-08-169; 4/25/2008
                                                      Financial Reporting
Assessment of the Remote Encoding Center                                                                  Anderson Business Mail Unit — Anderson, South
Network Consolidation Process; EN-AR-08-007;          Federal Employees’ Retirement System                Carolina; FF-AR-08-229; 7/8/2008
9/23/2008                                             Contribution Rates; FT-AR-08-011; 8/21/2008
                                                                                                          Anniston Business Mail Entry Unit — Anniston,
Best Practices for Post-Implementation Reviews        Independent Report on Withholdings and              Alabama; FF-AR-08-181; 5/22/2008
of Airport Mail Center Initiatives; EN-MA-08-002;     Contributions for Health Beneﬁts, Life Insurance,
                                                      Retirement, and Employee Head Count Data;           Arlington Business Mail Entry Unit — Arlington,
9/15/2008
                                                      FT-AR-08-013; 9/12/2008                             Tennessee; FF-AR-08-192; 5/30/2008
Detroit, Michigan Processing and Distribution
                                                      Fiscal Year 2008 Cost and Revenue Analysis          Atlanta Main Post Ofﬁce Self Service Postal
Center Consolidation; EN-AR-08-005; 7/17/2008
                                                                                                          Center — Atlanta, Georgia; FF-AR-08-243;
Marysville Processing and Distribution Facility       Arizona District; FF-AR-08-153; 4/10/2008           7/25/2008
Consolidation; EN-AR-08-003; 4/15/2008
                                                      Baltimore District; FF-AR-08-262; 8/14/2008         Austin Business Mail Entry Unit — Austin, Texas;
Miami Airport Mail Center Outsourcing;                                                                    FF-AR-08-187; 5/23/2008
                                                      Central Illinois District; FF-AR-08-278; 9/4/2008
EN-AR-08-004; 7/16/2008
                                                                                                          Bardin Road Station — Arlington, Texas;
                                                      Cincinnati District; FF-AR-08-214; 6/24/2008        FF-AR-08-159; 4/21/2008
Mojave Post Ofﬁce Facility Consolidation;
EN-AR-08-006; 9/17/2008                               Greater Indiana District; FF-AR-08-167;             Belleville Self-Service Postal Center — Belleville,
                                                      4/22/2008                                           Illinois; FF-AR-08-263; 8/14/2008
Network Processing
                                                      Honolulu District Processing and Distribution       Birmingham Business Mail Entry Unit —
Activation of the Philadelphia Processing and
                                                      Center; FF-AR-08-164; 4/21/2008                     Birmingham, Michigan; FF-AR-08-253; 8/7/2008
Distribution Center; NO-AR-08-004; 7/10/2008
                                                      Honolulu District; FF-AR-08-165; 4/22/2008




                                                                                                                                   April 1 – September 30, 2008 | 45
APPENDIX A




Blythebourne Station — Brooklyn, New York;                         Danville Business Mail Entry Unit — Danville,       Hawthorne Main Post Ofﬁce — Hawthorne,
FF-AR-08-259; 8/13/2008                                            Kentucky; FF-AR-08-252; 8/7/2008                    California; FF-AR-08-188; 5/27/2008

Boston Post Ofﬁce — Boston, Virginia;                              Dawson Business Mail Entry Unit — Dawson,           Hayden Main Post Ofﬁce — Hayden, Colorado;
FF-AR-08-190; 5/27/2008                                            Georgia; FF-AR-08-242; 7/25/2008                    FF-AR-08-210; 6/19/2008

Broken Arrow Business Mail Entry Unit — Broken                     Decatur Business Mail Entry Unit — Decatur,         Holtwood Post Ofﬁce — Holtwood, Pennsylvania;
Arrow, Oklahoma; FF-AR-08-213; 6/20/2008                           Alabama; FF-AR-08-182; 5/22/2008                    FF-AR-08-220; 6/30/2008

Brookhollow Station — Self-Service Postal                          Detroit Business Mail Entry Unit — Detroit,         Honolulu Main Ofﬁce Station — Honolulu, Hawaii;
Center — Dallas, Texas; FF-AR-08-236;                              Michigan; FF-AR-08-275; 8/28/2008                   FF-AR-08-170; 4/30/2008
7/17/2008
                                                                   Dodge City Business Mail Entry Unit — Dodge City,   Indianapolis Business Mail Entry Unit —
Brookstone Finance Station — Acworth, Georgia;                     Kansas; FF-AR-08-211; 6/19/2008                     Indianapolis, Indiana; FF-AR-08-240; 7/24/2008
FF-AR-08-147; 4/2/2008
                                                                   Drums Post Ofﬁce — Drums, Pennsylvania;             Jacksonville General Mail Facility Post Ofﬁce —
Brownsville Business Mail Entry Unit —                             FF-AR-08-191; 5/27/2008                             Jacksonville, Florida; FF-AR-08-195; 6/2/2008
Brownsville, Texas; FF-AR-08-223; 7/2/2008
                                                                   Duluth Main Post Ofﬁce — Duluth, Minnesota;         James A. Farley Station Self Service Postal
Bushnell Business Mail Entry Unit — Bushnell,                      FF-AR-08-174; 5/19/2008                             Center — New York, New York; FF-AR-08-224;
Florida; FF-AR-08-149; 4/2/2008                                                                                        7/2/2008
                                                                   Elberon Station — Long Branch, New Jersey;
Carbondale Finance Station — Carbondale, Illinois;                 FF-AR-08-184; 5/23/2008                             Kenilworth Main Post Ofﬁce — Kenilworth, New
FF-AR-08-233(R); 7/14/2008                                                                                             Jersey; FF-AR-08-148; 4/1/2008
                                                                   Ensenada Post Ofﬁce — Ensenada, Puerto Rico;
Carol Stream Automated Postal Center — Carol                       FF-AR-08-249; 8/1/2008                              Kingsport Business Mail Entry Unit — Kingsport,
Stream, Illinois; FF-AR-08-201; 6/13/2008                                                                              Tennessee; FF-AR-08-205; 6/17/2008
                                                                   Exeter Post Ofﬁce — Exeter, California;
Cedar Bluff Station — Knoxville, Tennessee;                        FF-AR-08-203; 6/13/208                              Kirkwood Automated Postal Center #1 —
FF-AR-08-175; 5/19/2008                                                                                                Kirkwood, Missouri; FF-AR-08-241; 7/25/2008
                                                                   Folcroft Business Mail Entry Unit — Folcroft,
Center City Station — Oklahoma City, Oklahoma;                     Pennsylvania; FF-AR-08-196; 6/3/2008                Lakewood Branch Post Ofﬁce — Lakewood, Ohio;
FF-AR-08-171; 5/5/2008                                                                                                 FF-AR-08-222; 6/30/2008
                                                                   Franklin D. Roosevelt Station — New York, New
Centreville Main Ofﬁce Window — Centreville,                       York; FF-AR-08-208; 6/18/2008                       Lamar Station — Corpus Christi, Texas;
Virginia; FF-AR-08-189; 5/27/2008                                                                                      FF-AR-08-260; 8/14/2008
                                                                   Franklin Post Ofﬁce — Franklin, Virginia;
Chesapeake Beach Vending — Chesapeake                              FF-AR-08-152; 4/9/2008                              Laredo Business Mail Entry Unit — Laredo, Texas;
Beach, Maryland; FF-AR-08-204; 6/17/2008                                                                               FF-AR-08-282; 9/17/2008
                                                                   Freeport Post Ofﬁce — Freeport, Ohio;
Chestertown Post Ofﬁce — Chestertown, New                          FF-AR-08-158; 4/15/2008                             Longview Business Mail Entry Unit — Longview,
York; FF-AR-08-267; 8/19/2008                                                                                          Texas; FF-AR-08-251; 8/7/2008
                                                                   Glennville Business Mail Entry Unit — Glennville,
Chicago District Business Mail and Business Reply                  Georgia; FF-AR-08-261; 8/14/2008                    Lynn Haven Post Ofﬁce — Lynn Haven, Florida;
Mail Procedures — Chicago, Illinois;                                                                                   FF-AR-08-156; 4/14/2008
FF-AR-08-258; 8/12/2008                                            Grand Rapids Business Mail Entry Unit — Grand
                                                                   Rapids, Minnesota; FF-AR-08-199; 6/5/2008           Manchester Business Mail Entry Unit —
Concord Automated Postal Center — Concord,                                                                             Manchester, Pennsylvania; FF-AR-08-250;
New Hampshire; FF-AR-08-280; 9/9/2008                              Greenwood Business Mail Entry Unit —                8/6/2008
                                                                   Greenwood, Mississippi; FF-AR-08-197; 6/5/2008
Conyers Main Post Ofﬁce — Conyers, Georgia;                                                                            Marlborough Post Ofﬁce — Marlborough, New
FF-AR-08-230; 7/8/2008                                             Hartford Business Mail Entry Unit — Hartford,       Hampshire; FF-AR-08-168; 4/24/2008
                                                                   Connecticut; FF-AR-08-228; 7/3/2008
Coupeville Post Ofﬁce — Coupeville, Washington;                                                                        Merriﬁeld Self-Service Postal Center — Merriﬁeld,
FF-AR-08-239; 7/22/2008                                            Harvester Retail Branch — St. Charles, Missouri;    Virginia; FF-AR-08-209; 6/18/2008
                                                                   FF-AR-08-176; 5/19/2008
Creve Coeur Branch — St. Louis, Missouri;                                                                              Milwaukee Business Mail Entry Unit — Milwaukee,
FF-AR-08-264; 8/15/2008                                                                                                Wisconsin; FF-AR-08-244; 7/25/2008




46 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                   APPENDIX A




Minot Main Post Ofﬁce — Minot, North Dakota;          Salt Lake City Main Post Ofﬁce — Salt Lake City,      Tampa Business Mail Entry Window Unit — Tampa,
FF-AR-08-232; 7/11/2008                               Utah; FF-AR-08-256; 8/8/2008                          Florida; FF-AR-08-265; 8/18/2008

Moline Business Mail Entry Unit — Moline, Illinois;   San Antonio Air Mail Facility — San Antonio, Texas;   Thousand Oaks Main Post Ofﬁce — Thousand
FF-AR-08-212; 6/19/2008                               FF-AR-08-284; 9/17/2008                               Oaks, California; FF-AR-08-177; 5/20/2008

Mount Pleasant Business Mail Entry Unit — Mount       Santa Clarita Main Post Ofﬁce — Santa Clarita,        Upper Marlboro Automated Postal Center —
Pleasant, Iowa; FF-AR-08-183; 5/23/2008               California; FF-AR-08-219; 6/26/2008                   Largo, Maryland; FF-AR-08-216; 6/25/2008

Mullen Post Ofﬁce — Mullen, Nebraska;                 Seattle Business Mail Entry Unit — Seattle,           Vernon Post Ofﬁce — Vernon, Alabama;
FF-AR-08-231; 7/11/2008                               Washington; FF-AR-08-200; 6/10/2008                   FF-AR-08-238; 7/22/2008

Murfreesboro Main Ofﬁce Window —                      Senatobia Business Mail Entry Unit — Senatobia,       Vincennes Vending Self-Service Postal Center —
Murfreesboro, Tennessee; FF-AR-08-180;                Mississippi; FF-AR-08-217; 6/25/2008                  Vincennes, Indiana; FF-AR-08-160; 4/16/2008
5/22/2008
                                                      Snohomish Post Ofﬁce — Snohomish,                     Virginia City Main Post Ofﬁce — Virginia City,
New Lots Station — Brooklyn, New York;                Washington; FF-AR-08-207; 6/18/2008                   Montana; FF-AR-08-237; 7/18/2008
FF-AR-08-283; 9/16/2008
                                                      Sopchoppy Post Ofﬁce — Sopchoppy, Florida;            Walton Business Mail Entry Unit — Walton,
Norridgewock Post Ofﬁce — Norridgewock, Maine;        FF-AR-08-155; 4/14/2008                               Kentucky; FF-AR-08-245; 7/29/2008
FF-AR-08-173; 5/13/2008
                                                      South Hamilton Post Ofﬁce — South Hamilton,           Wardensville Post Ofﬁce — Wardensville, West
Norwich Business Mail Entry Unit — Norwich,           Massachusetts; FF-AR-08-257; 8/11/2008                Virginia; FF-AR-08-193; 5/30/2008
Connecticut; FF-AR-08-268; 8/20/2008
                                                      South Suburban Post Ofﬁce — Bedford Park,             Warwick Business Mail Entry Unit — Warwick,
Oakhurst Post Ofﬁce — Oakhurst, New Jersey;           Illinois; FF-AR-08-178; 5/20/2008                     Rhode Island; FF-AR-08-163; 4/21/2008
FF-AR-08-166; 4/22/2008
                                                      Southampton Post Ofﬁce — Southampton,                 Wells Post Ofﬁce — Wells, Vermont;
Paris Business Mail Entry Unit — Paris, Texas;        Pennsylvania; FF-AR-08-162; 4/18/2008                 FF-AR-08-151; 4/7/2008
FF-AR-08-202; 6/12/2008
                                                      Spartanburg Business Mail Entry Unit —                Winchester Business Mail Entry Unit —
Parma Self-Service Postal Center — Parma, Ohio;       Spartanburg, South Carolina; FF-AR-08-234;            Winchester, Kentucky; FF-AR-08-206; 6/17/2008
FF-AR-08-277; 9/2/2008                                7/15/2008
                                                                                                            Windham Main Ofﬁce Window Unit — Windham,
Pontiac Business Mail Entry Unit — Pontiac,           Spring-Klein Station Automated Postal Center —        Maine; FF-AR-08-226; 7/2/2008
Michigan; FF-AR-08-272; 8/26/2008                     Spring, Texas; FF-AR-08-150; 4/7/2008
                                                                                                            Wolcottville Main Post Ofﬁce — Wolcottville,
Portage Business Mail Entry Unit — Portage,           St. Louis Business Mail Entry Unit — St. Louis,       Indiana; FF-AR-08-185; 5/23/2008
Wisconsin; FF-AR-08-172; 5/7/2008                     Missouri; FF-AR-08-273; 8/26/2008
                                                                                                            Wolf Point Business Mail Entry Unit — Wolf Point,
Portland Self-Service Postal Center — Portland,       Staten Island Main Post Ofﬁce — Staten Island,        Montana; FF-AR-08-198; 6/5/2008
Maine; FF-AR-08-227; 7/2/2008                         New York; FF-AR-08-154; 4/10/2008
                                                                                                            Woodland Post Ofﬁce — Woodland, Washington;
Prospect Post Ofﬁce — Prospect, Kentucky;             Sturgis Business Mail Entry Unit — Sturgis, South     FF-AR-08-246; 7/29/2008
FF-AR-08-221; 6/30/2008                               Dakota; FF-AR-08-179; 5/21/2008
                                                                                                            Yazoo City Post Ofﬁce — Yazoo City, Mississippi;
Rapid City Main Post Ofﬁce — Rapid City, South        Suffolk Business Mail Entry Unit — Suffolk,           FF-AR-08-276; 8/28/2008
Dakota; FF-AR-08-285; 9/18/2008                       Virginia; FF-AR-08-218; 6/25/2008
                                                                                                            Fiscal Year 2008 SmartPay Purchase Card
Ripon Business Mail Entry Unit — Ripon,               Summit Main Post Ofﬁce Automated Postal               Program
Wisconsin; FF-AR-08-215; 6/24/2008                    Center — Summit, New Jersey; FF-AR-08-225;
                                                      7/2/2008                                              Capital Metro; FF-AR-08-270; 8/22/2008
Rochester Business Mail Entry Unit — Rochester,
Minnesota; FF-AR-08-161; 4/21/2008                    Sumter Automated Postal Center — Sumter, South        Great Lakes; FF-AR-08-287; 9/26/2008
                                                      Carolina; FF-AR-08-254; 8/8/2008
Rutland Business Mail Entry Unit — Rutland,                                                                 Paciﬁc Area; FF-AR-08-281; 9/12/2008
Vermont; FF-AR-08-274; 8/27/2008                      Sunbury Post Ofﬁce — Sunbury, Ohio;
                                                      FF-AR-08-194; 5/30/2008




                                                                                                                                   April 1 – September 30, 2008 | 47
APPENDIX A




Southeast Area; FF-AR-08-279; 9/8/2008                             Speciﬁc Costs Included on Invoices Submitted      Engineering
                                                                   by C.H. Robinson Worldwide; CA-CAR-08-021;
Western Area; FF-AR-08-286; 9/25/2008                              5/7/2008                                          Facilities Energy Management Strategy;
                                                                                                                     DA-AR-08-004; 4/9/2008
Revenue & Systems                                                  Veriﬁcation of the Reasonableness for Ofﬁce
                                                                   Supplies Purchased from OfﬁceMax (Government      National Energy Management Plan;
In-Ofﬁce Cost System Phone Readings Additional                     Solutions Group) by the U.S. Postal Service;      DA-MA-08-003; 9/26/2008
Analysis; ESS-MA-08-001; 8/11/2008                                 CA-CAR-08-027; 8/6/2008
                                                                                                                     Financial Reporting
Supply Management                                                  OPERATIONAL RISK
                                                                                                                     Miami International Service Center — Inbound
Agreed-Upon Procedure Audit of Accrual Leave                       Cost, Revenue & Rates                             International Mail; FT-AR-08-012; 9/3/2008
Invoice Submitted by Northrop Grumman
Information Technology, Civilian Agencies Group;                   Controls Over the International Reconciliation    Human Capital
CA-CAR-08-023; 6/2/2008                                            System; CRR-AR-08-006; 8/25/2008
                                                                                                                     Grievance Settlement and Arbitration Award
Agreed-Upon Procedures Review of Five Individual                   System for International Revenue and Volume,      Payments; HM-MA-08-002; 9/16/2008
Delivery Orders Under Three Guaranteed Maximum                     Inbound and Quality of Service Performance
Price Contracts at Honeywell Automation and                        Measurement; CRR-AR-08-007; 9/30/2008             Violence Prevention and Response Programs in
Control Solutions; CA-CAR-08-024; 6/6/2008                                                                           Selected Locations; HM-AR-08-006; 5/2/2008
                                                                   Delivery
Contract Oversight of Highway Transportation                                                                         Information Systems
Contracts in the Southeast Area; CA-AR-08-009;                     City Letter Carrier Operations Ofﬁce Time
8/25/2008                                                          Processes: DR-AR-08-013; 9/30/2008                Access Controls at the Eagan, Minnesota;
                                                                                                                     San Mateo, California; and St. Louis, Missouri
Determination of Legal Costs; CA-CAR-08-026;                       Management of Delivery Point Sequencing           Information Technology and Accounting Service
8/5/2008                                                           Percentage Increases for City Delivery —          Centers for Fiscal Year 2008; IS-AR-08-015;
                                                                   Southeast Area, Atlanta District; DR-AR-08-005;   8/15/2008
Financial Condition and Capability Review of Key                   7/30/2008
Handling Systems, Incorporated; CA-CAR-08-028;                                                                       Application Control Review of the Time and
8/25/2008                                                          Management of Delivery Points — Southeast Area:   Attendance Collection System; IS-AR-08-014;
                                                                   DR-AR-08-012; 9/30/2008                           8/14/2008
Financial Condition Risk Assessment of Minnesota
Diversiﬁed Industries, Inc.; CA-CAR-08-025;                        Vehicle Maintenance Facilities — Scheduled        Compliance Audit of the Postal Service’s External
7/21/2008                                                          Maintenance Service in the Great Lakes Area;      Public Key Infrastructure Services; IS-AR-08-017;
                                                                   DR-AR-08-009; 9/29/2008                           9/11/2008
Firm Fixed Price Proposal, Revision B, Submitted
by Siemens Energy and Automation, Incorporated,                    Vehicle Maintenance Facilities — Scheduled        Identity Theft Potential in the Change of Address
Postal Automation Division; CA-CAR-08-020;                         Maintenance Service in the New York Metro Area;   Process; IS-AR-08-016; 8/29/2008
4/18/2008                                                          DR-AR-08-011; 9/30/2008
                                                                                                                     PhoneSweep Security Assessment at the Eagan
Management of Contract Changes — Hallmark                          Vehicle Maintenance Facilities — Scheduled        Information Technology and Accounting Service
Custom Marketing, Inc.; CA-AR-08-007;                              Maintenance Service in the Southeast Area;        Center; IS-CS-08-002; 9/22/2008
7/11/2008                                                          DR-AR-08-007; 9/16/2008
                                                                                                                     PhoneSweep Security Assessment at the San
Management of Contract Changes — Marriott                          Vehicle Maintenance Facilities — Scheduled        Mateo Information Technology and Accounting
Hotel Services, Inc., Contract Number 479984-90-                   Maintenance Service in the Southwest Area;        Service Center; IS-CS-08-003; 9/22/2008
B-0399; CA-AR-08-010; 9/5/2008                                     DR-AR-08-006; 8/14/2008
                                                                                                                     Private Branch Exchange Systems; IS-AR-08-010;
Renewal Process for Highway Transportation                         Vehicle Maintenance Facilities — Scheduled        5/27/2008
Contracts in the Southeast Area; CA-AR-08-008;                     Maintenance Service in the Western Area;
7/17/2008                                                          DR-AR-08-008; 9/29/2008                           Protection of Sensitive Equipment at Selected
                                                                                                                     Postal Service Information Technology Facilities;
Rough Order Magnitude Proposal Submitted by                        Vehicle Maintenance Facilities — Scheduled        IS-AR-08-013; 7/9/2008
Hewlett Packard Company; CA-CAR-08-022;                            Maintenance Services in the Paciﬁc Area;
5/20/2008                                                          DR-AR-08-010; 9/30/2008                           Security Vulnerability Assessment of the Electronic
                                                                                                                     Travel Voucher System; IS-AR-08-012; 6/25/2008




48 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                       APPENDIX A




Security Vulnerability Assessment of the Electronic   Sales & Service
Veriﬁcation System Database; IS-CS-08-001;
8/29/2008                                             Political Campaign Mailings; MS-AR-08-006;
                                                      9/30/2008
System Software Controls at the Eagan, Minnesota,
and San Mateo, California Information Technology      Transportation
and Accounting Service Centers for FY 2008; IS-
                                                      Air Networks — Federal Express Transportation
AR-08-011; 6/3/2008
                                                      Agreement — Western Area; NL-AR-08-008;
Inspection Service & Facilities                       9/29/2008

Continuity of Operations for the Great Lakes Area;    Dallas Airport Mail Center Operations;
SA-AR-08-009; 7/23/2008                               NL-AR-08-009; 9/30/2008

Continuity of Operations for the Paciﬁc Area;         Postal Vehicle Service Transportation Routes —
SA-AR-08-010; 7/24/2008                               Northern Virginia Processing and Distribution
                                                      Center; NL-AR-08-006; 9/25/2008
Leased Facility Maintenance Responsibility in the
Great Lakes Area; SA-AR-08-008; 7/23/2008             Vehicle Management — National Trailer Lease
                                                      Renewal — Eastern Area; NL-AR-08-005;
Location of Southeast Area Ofﬁce Space;               8/27/2008
SA-MA-08-002; 6/17/2008
                                                      Vehicle Management — National Trailer Lease
Regatta Annex Lease; SA-AR-08-011; 8/18/2008          Renewal — Southeast Area; NL-AR-08-007;
                                                      9/25/2008
Security Clearances for Postal Service Employees;
SA-AR-08-013; 8/22/2008

Suitability Screening Process for Postal Service
Employees in the Capital Metro Area;
SA-AR-08-012; 8/21/2008

Network Processing

Delayed Mail at the North Texas Processing and
Distribution Center; NO-AR-08-006; 8/14/2008

Follow-up Review of Implementation of Signiﬁcant
Audit Recommendations Impacting Mail Processing
Efﬁciency; NO-AR-08-011; 9/29/2008

Mail Condition Reporting at International Service
Centers Capping Report; NO-AR-08-005;
8/5/2008

Missent Priority Mail® Procedures in the Dallas
District; NO-MA-08-001; 9/8/2008

Oklahoma City Processing and Distribution Center
Activation; NO-AR-08-009; 9/23/2008

Powered Industrial Vehicle Management System at
the Providence Processing and Distribution Center;
NO-AR-08-010; 9/23/2008

Powered Industrial Vehicle Management System
at the Raleigh Processing and Distribution Center;
NO-AR-08-007; 9/15/2008




                                                                                                       April 1 – September 30, 2008 | 49
APPENDIX B




APPENDIX B
Findings Of Questioned Costs
For the period April 1 — September 30, 2008

As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of questioned costs in audit reports.

Questioned Cost: A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, or contract.

                                                                                                                                                Unsupported Costs Included
 Description                                                                                        Number of Reports    Questioned Costs              in Questioned Costs
 Reports for which no management decision was made at the beginning of the                                         15          $48,215,700                        $370,697
 reporting period
 Reports requiring management decision that were issued during the reporting period                               50          $163,436,940                      $52,841,977
 TOTAL                                                                                                            65         $211,652,640                     $53,212,674


 Reports for which a management decision was made during the reporting period (i+ii)                               54          $194,627,655                     $43,192,858
              (i) Dollar Value of disallowed cost                                                                  –           $82,452,104                        $255,941
              (ii) Dollar value of cost not disallowed                                                             –           $112,175,561                     $42,936,917

 Reports for which no management decision was made by the end of the reporting period;                             11           $17,024,975                     $10,025,224
 negotiations are ongoing
 Reports for which no management decision was made within 6 months of issuance                                      2                  $2,527                            –
 (See Note 1 for a list of individual reports)
 Reports for which no management decision was made within 1 year of issuance                                       –                       –                             –
 (See Note 2 for a list of individual reports)
 Contract Reports with Signiﬁcant Audit Finding                                                                     2          $56,515,826                     $42,693,734
 (See Note 3 for a list of individual reports)



Note 1 — Reports for Which No Management Decision Was Made Within 6 Months of Issuance:

                                                                                                                                            Unsupported Costs Included in
 Subject                                                    Report/Case Number                 Report Date          Questioned Costs                    Questioned Costs
 National Review of SmartPay Purchase Card                  CA-AR-08-002                       11-7-2007                    $244,626                              $243,183
 Transactions
 Postal Service Board of Governors' Travel and              FT-AR-08-008                       2-14-2008                      $2,527                                     –
 Miscellaneous Expenses for Fiscal Year 2007
 TOTAL                                                                                                                       $2,527                                      –


Note 2 — Reports for which no management decision was made within 1 year of issuance:

None for this report period.




50 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                APPENDIX B & C




Note 3 — Contract Reports With a Signiﬁcant Audit Finding:

                                                       Questioned
                                                            Costs         Disallowed          Unsupported Costs Finding Description
 Audit of Firm Fixed Price Proposal, Revision B,        $10,822,092                   –                       –    The cost or pricing data submitted by the contractor was
 Submitted by Siemens Energy and Automation,                                                                       adequate and the proposal was prepared in accordance with
 Incorporated, Postal Automation Division                                                                          appropriate provisions of the U.S. Postal Service Supplying
 4-18-2008 CA-CAR-08-020                                                                                           Principles and Practices.
 Rough Order Magnitude Proposal Submitted by           $45,693,734                    –              $42,693,734   The contractor’s ROM proposal was not prepared in accordance
 Hewlett Packard Company 5-20-2008                                                                                 with the appropriate provisions of the U.S. Postal Service
 CA-CAR-08-022                                                                                                     Supplying Principles and Practices and the information submitted
                                                                                                                   by the contractor was not adequate.
 TOTAL                                                $56,515,826                                   $42,693,734                                                                    –




APPENDIX C
Recommendations That Funds Be Put to Better Use
For the period April 1 — September 30, 2008

As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of recommendations for funds that can be put to
better use by management.

Funds Put to Better Use: Funds that could be used more efﬁciently by implementing recommended actions.


 Description                                                                                                                      Number of Reports                  Dollar Value
 Reports for which no management decision was made at the beginning of the reporting period                                                             6             $52,004,938
 Reports issued during the reporting period                                                                                                           20             $387,560,085
 TOTAL                                                                                                                                                26           $439,565,023


 Reports for which a management decision was made during the report period                                                                            23              $424,511,382
             (i) Value of recommendations agreed to by management                                                                                                    $207,003,655
             (ii) Value of recommendations that were not agreed to by management                                                                                      $217,507,727
 Reports for which no management decision was made by the end of the reporting period.                                                                  3              $15,053,641




                                                                                                                                                     April 1 – September 30, 2008 | 51
APPENDIX D




APPENDIX D
Reported Non-Monetary Beneﬁts
For the period April 1 — September 30, 2008

Overview

Many of our audit reports identify areas for improvement that result in non-monetary beneﬁts to the Postal Service. These beneﬁts include improvements to
service, protection of assets and improvements in the reliability of data.


                                                                                                                                     Type of Measure              Value or Amount
 IMPROVED SERVICE
 Recommendations that address the Postal Service’s efforts to improve the quality and accessibility                                  Number of Recommendations                 73
 of its products and services
 Number of customer service audits conducted                                                                                         Number of Audits                          13
 SAFEGUARDING ASSETS
 Assets or Accountable Items at Risk
 Inadequate internal controls put the value of assets or accountable items (such as cash and stamps) at risk of loss                 Dollar Value                      $29,499,963
 Physical Safety and Security
 Dollar value of physical assets (plant, computer equipment, vehicles, etc.) at risk of loss due to                                  Dollar Value                               –
 inadequate physical protection
 Recommendations that address the safety and security of Postal Service employees and/or the work environment                        Number of Recommendations                 55
 Number of employee/facility safety and security audits conducted                                                                    Number of Audits                          14
 Information Technology Security
 Inadequate controls/protection put the value of data, IT assets (software, networks), and employee work time at risk of loss        Dollar Value                               –
 Number of data security/IT security audits conducted                                                                                Number of Audits                          18
 Revenue at Risk
 Dollar value of revenue that the Postal Service is at risk of losing. (Mailer seeking alternative solutions for current services)   Dollar Value                      $21,581,852
 Disbursements at Risk
 Dollar value of disbursements made where proper Postal Service internal controls and processes were not followed                    Dollar Value                       $1,003,931
 Goodwill / Branding
 An “adverse impact” on goodwill is an actual event/problem that harms the Postal Service’s reputation or a potential problem        Number of Issues Identiﬁed                16
 that could negatively impact the Postal Service “brand name”
 RELIABILITY OF DATA
 Records at Risk
 Data at risk of corruption or loss due to inadequate internal controls and or protection                                            Number of Data Records                     4
                                                                                                                                     at Risk
 Dollar value of data used to support management decisions that is not fully supported or completely accurate                        Dollar Value                       $3,060,158




52 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                        APPENDIX E




APPENDIX E
Reports with Signiﬁcant Recommendations Pending Corrective Actions
For the period through September 30, 2008

As required by the IG Act, the following pages include a list of each audit report for which no management decision has been made by the end of the
reporting period.



                                 Report Title, Recommendation Summary

                                             R = Recommendation number
 Report Number     Issue Date                TID = Target Implementation Date
 NO-AR-05-011      6/17/2005     Efﬁciency of the Los Angeles International Service Center

                                 R-1 — Reduce mail processing workhours by 85,000. TID: October 2010
 HM-AR-05-009      7/22/2005     Complaints Regarding Personnel Issues in the Caribbean District

                                 R-13 — Ensure employees are properly recording their clock rings in accordance with policy. TID: August 2008

                                 R-19 — Establish a team to conduct a review of all calendar years 2002 through 2004 special job opportunity hiring of casual and transitional
                                 employees to ensure there were no additional individuals improperly hired. TID: August 2008
 HM-AR-06-004      5/19/2006     Postal Service's Injury Compensation Programs' Controversion and Challenge Process in Selected Areas

                                 R-2 — Provide sufﬁcient oversight of injury compensation control ofﬁces by including steps to validate the proper tracking and monitoring of
                                 controverted and challenged claims in the Human Resource Information System and the Claim Control Register in their Area Program reviews.
                                 TID: September 2009
 IS-AR-06-003      2/10/2006     Security Vulnerability Assessment and Audit of Automated Postal Center Systems

                                 R-1 — Identify appropriate corrective action for identiﬁed vulnerabilities. TID: March 2009

                                 R-7 — Implement appropriate maximum ﬁle sizes to ensure desired data is captured and retained for designated periods. TID: March 2009
 FT-AR-06-016      3/31/2006     Postal Service's Share of Health Insurance Premiums for Retired Employees

                                 R-1 — Establish and communicate policies and procedures to continuously monitor the accuracy of the Postal Service’s share of health insurance
                                 premiums paid for retires and survivors. TID: September 2008 (management has not provided a revised date)
 DR-AR-06-007      8/9/2006      Overdrawn Express Mail Corporate Accounts

                                 R-3 — Convert all trust Express Mail Corporate Accounts to Automated Clearing House or credit card accounts. TID: March 2009
 HM-AR-06-006      8/29/2006     Postal Service's Grievance-Arbitration Service Centers

                                 R-8 — Automate the processing and payment of arbitrator invoices using an existing Postal Service electronic purchasing system. TID: May 2009

                                 R-9 — Assess the beneﬁts of transitioning the grievance-arbitration processing function to the shared services center or another feasible alternative.
                                 TID: Not provided
 IS-AR-06-017      9/27/2006     Enterprise Payment Switch Solution Phase 1: Requirements and Design

                                 R-1 — Create or revise polices and procedures to provide guidance for Payment Card Industry compliance. TID: December 2008

                                 R-2 — Resolve the inconsistencies between Postal Service polices and the Payment Card Industry Data Security Standard TID: December 2008




                                                                                                                                                       April 1 – September 30, 2008 | 53
APPENDIX E




                                           Report Title, Recommendation Summary

                                                        R = Recommendation number
 Report Number           Issue Date                     TID = Target Implementation Date
 EN-AR-07-001            11/9/2006         Sioux City, Iowa, Processing and Distribution Facility Consolidation

                                           R-1 — Complete revisions to the Sioux City Area Mail Processing (AMP) proposal. TID: December 2008

                                           R-2 — Communicate updated information on the Sioux City AMP to stakeholders. TID: December 2008
 EN-AR-07-002            12/5/2006         Service Implications of Area Mail Processing Consolidations

                                           R-4 — Revise the Collection Point Management System to track changes to collection box pick-up times. TID: September 2010
 IS-AR-07-003            12/7/2006         Security Vulnerability Assessment of Legacy Applications at the Eagan Host Computing Services, Eagan, Minnesota

                                           R-1 — Implement an automated asset management solution. TID: December 2008
 IS-AR-07-006            12/26/2006        National Customer Management System Encryption

                                           R-1 — Replace the current encryption methodology. TID: December 2008

                                           R-2 — Verify all encryption algorithms used in the storage or transmission of sensitive cardholder data comply with Postal Service and Payment
                                           Card Industry Security requirements. TID: December 2008
 IS-AR-07-007            2/23/2007         Enterprise Payment Switch Solution Phase II: Preparations for Security Testing

                                           R-2 — Complete the Payment Card Industry Compensating Controls Worksheet. TID: December 2008
 SA-AR-07-002            3/30/2007         Postal Service Security Controls and Processes for the Capital Metro Area

                                           R-1 — Provide consolidated standard operating procedures and guidance to assist in performing duties and responsibilities consistently and in a
                                           timely manner. TID: March 2009

                                           R-2 — Establish and implement appropriate internal controls, such as an internal review and approval process, to ensure that security personnel
                                           complete facility security surveys (FSS) accurately and in a timely manner. TID: January 2009

                                           R-3 — Establish a formal process for conducting FSS’s, including time frames for addressing deﬁciencies and follow-up reviews. TID: October 2008

                                           R-4 — Establish requirements for mandatory security training, including periodic refresher training, for responsible security personnel at the area-,
                                           district-, and facility-levels. TID: January 2009

                                           R-5 — Develop performance measures to assess the achievement of security goals. TID: January 2009
 SA-AR-07-003            5/9/2007          Postal Service Security Controls and Processes for the Paciﬁc Area

                                           R-1 — Establish and implement appropriate internal controls (such as an internal review and approval process) to ensure security personnel
                                           complete facility security surveys accurately and in a timely manner. TID: December 2008

                                           R-2 — Develop appropriate performance measures for physical security to assess the achievement of security goals and incorporate them into
                                           performance plans for area-, district-, and ﬁeld-level security personnel. TID: January 2009
 HM-AR-07-002            5/16/2007         Postal Service’s Workplace Safety and Workplace-Related Injury Reduction Goals and Progress

                                           R-1 — Closely monitor conversion to the SAP Environmental Health and Safety module. Ensure the upgraded system captures costs by facility,
                                           district/performance cluster, and area ofﬁce, as well as the costs for identiﬁed key categories. TID: October 2008
 DR-MA-07-004            6/14/2007         Management of Retail Work Hours in Relation to the Workload for Mobile Units – Triboro District

                                           R-1 — Revise the Handbook for Retail Operations, to include standard procedures for mobile units. TID: June 2009

                                           R-2 — Distribute the revised Handbook for Retail Operations to Area ofﬁcials for implementation. TID: June 2009




54 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                     APPENDIX E




                             Report Title, Recommendation Summary

                                          R = Recommendation number
Report Number   Issue Date                TID = Target Implementation Date
IS-AR-07-012    7/25/2007    Review of Controls Over Postal Inspection Service Network Switches

                             R-2 — Apply the updated hardening standards and guidelines. TID: March 2009
IS-AR-07-016    8/20/2007    Audit of Database Administration Practices

                             R-2 — Establish policies and procedures for the protection and use of sensitive data in the test, development, and production environments.
                             TID: December 2009
CA-MA-07-005    8/2/2007     Commodity Sourcing Activities Within the Automation Category Management Center

                             R-1 — Explore options for developing alternative sources for mail automation equipment. TID: October 2008

                             R-3 — Obtain cost or pricing data when negotiating noncompetitive, share-in-savings, incentive-type contracts for mail automation equipment.
                             TID: October 2008
IS-AR-07-017    8/29/2007    Separation of Duties at the Eagan, Minnesota; San Mateo, California; and St. Louis, Missouri, Information Technology and Accounting
                             Service Centers

                             R-1 — Assess the risk of the duties of all Information Technology and Accounting Service Center positions for the purpose of assigning these
                             positions as sensitive. TID: December 2009

                             R-4 — Coordinate with the Postal Inspection Service to ensure the proper clearance level is attributed to employees. TID: November 2008
DA-MA-07-002    9/13/2007    St. Louis Equipment Maintenance and Waste Disposal

                             R-1 — Continue to support initiatives for an effective maintenance program and formalize the training initiatives, including speciﬁc time frames for
                             completion. TID: Management submitted closure request
DR-MA-07-005    9/21/2007    Maintenance and Repair Payments to Commercial Vendors Using Postal Service Form 8230, Authorization for Payment

                             R-6 — Eliminate one clerk position at the San Mateo Accounting Center through attrition. TID: June 2009
HM-AR-07-004    9/26/2007    The Postal Service’s Comprehensive Strategic Workforce Plan

                             R-1 — Develop guidance and procedures for creating a comprehensive strategic workforce plan to address current and future workforce
                             requirements. TID: December 2008

                             R-2 — Coordinate the agency-wide development and implementation of the comprehensive strategic workforce plan with the vice presidents
                             responsible for human capital issues and other vice presidents responsible for workforce planning and operations. TID: December 2008
NL-AR-07-007    9/27/2007    Postal Vehicle Service Transportation Routes — Milwaukee Processing and Distribution Center

                             R-1 — Verify elimination of the 11,283 hours that management agreed to remove from trip schedules. TID: January 2009
FF-AR-07-254    9/28/2007    Audit Report — Chicago District Financial Accountability

                             R -1 — Develop and implement a mandatory ﬁnancial training program for all unit managers and supervisors. TID: September 2008 (management
                             has not provided a revised date)

                             R-5 — Provide a quarterly and annual summary of unit compliance with ﬁnancial procedures regarding remediation of the ﬁndings contained in this
                             report. TID: October 2008

                             R-6 — Monitor monthly compliance with the cash deposit procedures for the Grand Crossing Station, until remediation of the issue has been
                             maintained for 12 months. TID: August 2008 (management has not provided a revised date)




                                                                                                                                                   April 1 – September 30, 2008 | 55
APPENDIX E




                                           Report Title, Recommendation Summary

                                                        R = Recommendation number
 Report Number           Issue Date                     TID = Target Implementation Date
 NL-AR-07-008            9/28/2007         The Impact of Transportation on Chicago District Performance

                                           R-1 — Analyze Chicago District operations to identify excess postal vehicle resources. TID: Not provided

                                           R-2 — Improve communication and coordination between processing facilities and local post ofﬁces by improving local transportation planning
                                           and scheduling. TID: Not provided

                                           R-3 — Require managers to plan transportation between the two facilities and properly account for mail in trailers. TID: Not provided

                                           R-4 — Improve data collection by properly supervising employees and properly training employees on the Surface Visibility system. TID: Not provided
 DR-AR-07-016            9/29/2007         Implementation and Utilization of the Growth Management Tool

                                           R-1 — Update Delivery and Retail Growth and Delivery Point Management Standard Operating Procedures. TID: October 2008
 MS-AR-08-002            11/16/2007        Function 4 Business Plan Process

                                           R-1 — Adhere to the Function 4 on-site review schedule and ensure qualiﬁed teams are available to conduct scheduled reviews. TID: July 2008
                                           (management has not provided a revised date)

                                           R-2 — Monitor performance and track adherence to the approved Function 4 Business Plans. TID: July 2008 (management has not provided a
                                           revised date)

                                           R-3 — Provide Automated Workforce Projection System training to ensure awareness of the requirements to update the system with the Function 4
                                           on-site and administrative reviews. TID: July 2008 (management has not provided a revised date)

                                           R-4 — Update the Automated Workforce Projection System workload annually for every unit. TID: July 2008 (management has not provided a
                                           revised date)
 FT-AR-08-005            1/24/2008         New York International Service Center – Inbound International Mail

                                           R-1 — Establish and communicate policies and procedures to address the complete processing and billing cycle for inbound international mail. TID:
                                           March 2009

                                           R-3 — Direct International Accounting Branch and appropriate systems personnel to establish controls to ensure that foreign postal administrations
                                           are correctly billed for all valid dispatches, including dispatch numbers used more than once in a calendar year. TID: December 2008
 CRR-AR-08-002           2/12/2008         Security Review of the Electronic Veriﬁcation System

                                           R-2 — Revise Publication 91, Conﬁrmation Services Technical Guide, to require mailers to utilize a secure ﬁle transfer method when transmitting
                                           manifests for electronic veriﬁcation to the Postal Service. TID: March 2009
 NL-AR-08-002            2/19/2008         Air Networks — Federal Express Transportation Agreement — Paciﬁc Area

                                           R-1 — Use surface transportation to move mail that does not require air transportation to meet Postal Service on time standards. TID: March 2008
                                           (management has not provided a revised date)

                                           R-3 — Maximize the use of bypass containers by using bypass sorting as much as possible at processing plants and by dispatching mail to airports
                                           in time for terminal handling service contractors to load it into bypass containers. TID: April 2008 (management has not provided a revised date)
 EN-AR-08-002            2/29/2008         St. Louis Airport Mail Center Outsourcing

                                           R-2 — Establish a post-implementation review program for Airport Mail Centers (AMC) that compares anticipated savings with actual results.
                                           TID: December 2008

                                           R-3 — Conduct a post-implementation review for the St. Louis AMC closure and outsourcing initiative using the guidance established in
                                           recommendation 2. TID: Not provided




56 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                   APPENDIX E




                             Report Title, Recommendation Summary

                                         R = Recommendation number
Report Number   Issue Date               TID = Target Implementation Date
DR-AR-08-004    3/4/2008     City Delivery Vehicle Mileage — Base Versus Actual — National Capping Report

                             R-2 — Revising the Automated Vehicle Utilization System to eliminate the possibility of negative miles being recorded by modifying the system to
                             prevent input of the ending mileage being less than the beginning mileage. TID: July 2009
IS-AR-08-006    3/6/2008     Identity Theft Potential in Postal Service Information Systems

                             R-1 — Ensure that employees and contractors accessing identiﬁed systems have the appropriate security clearance and that the clearance status is
                             documented with the access request. TID: December 2008

                             R-3 — Establish and implement host encryption solutions for data back-up dates prior to off-site shipping and storage. TID: December 2008
IS-AR-08-008    3/11/2008    National Accounting Oracle Financials Application Data Encryption Follow-Up

                             R-2 — Perform veriﬁcation tests to ensure management identiﬁes and adequately protects all sensitive information in accordance with policy.
                             TID: December 2008
IS-AR-08-009    3/14/2008    Update Processes for Active Directory and CA-ACF2

                             R-1 — Review the manager roles in the two systems to determine how these roles can be integrated. TID: May 2008 (management has not provided
                             a revised date)

                             R-2 — Review the capabilities and establish requirements for tracking employees assigned to detail positions and how to pass on timely and
                             accurate data to another system. TID: December 2008
FF-AR-08-131    3/19/2008    Fiscal Year 2007 Financial Installation Audits — Business Mail Entry Units

                             R-1 — Provide proper management oversight and instructions to schedule periodic veriﬁcations when Periodicals mailings are received during non-
                             business hours. TID: October 2008

                             R-2 — Develop and implement an action plan to measurably reduce the current deﬁciency and its likelihood of continuing. TID: January 2009

                             R-3 — Properly train all employees, including supervisors, who accept business and Periodicals mail. TID: October 2008

                             R-4 — Review existing policies and procedures for consistency. TID: October 2008
MS-AR-08-003    3/19/2008    Local Stamps on Consignment Programs

                             R-2 — Terminate existing local Stamps on Consignment agreements, incorporate them into the national program, and collect the past due amounts
                             that consignees owe the Postal Service for stamp consignments. TID: Management submitted closure request
DA-AR-08-003    3/20/2008    Northern Virginia District Energy Management Savings Opportunities

                             R-4 — Direct applicable personnel to review and monitor energy bills to ensure accuracy and to review the adequacy of rate plans.
                             TID: Not provided
MS-MA-08-001    3/26/2008    Review of Business Over the Counter

                             R-1 — Add language to Postal Service (PS) Form 3849, “Sorry We Missed You,” to make customers aware they can request redelivery through
                             usps.com and the contact center. TID: May 2008 (management has not provided a revised date)

                             R-2 — Add language to PS Form 8076, “Authorization to Hold Mail,” to make customers aware they can place mail on hold through usps.com and
                             the contact center. TID: June 2008 (management has not provided a revised date)

                             R-3 — Use advertisements to inform customers that hold mail and redelivery services are available via usps.com and the contact center.
                             TID: Not provided




                                                                                                                                                 April 1 – September 30, 2008 | 57
APPENDIX E




                                           Report Title, Recommendation Summary

                                                        R = Recommendation number
 Report Number           Issue Date                     TID = Target Implementation Date
 NL-AR-08-003            3/26/2008         Postal Vehicle Service Transportation Routes — San Francisco Processing and Distribution Center

                                           R-1 — Verify elimination of the 26,698 hours that management agreed to remove from trip schedules. TID: January 2009

                                           R-2 — Coordinate and conduct a zero-base review to determine if all facility driver tasks are necessary, determine how much time is necessary for
                                           drivers to perform the tasks, and adjust driver schedules accordingly. TID: January 2009
 CRR-AR-08-003           3/31/2008         Application Controls Review of the Electronic Veriﬁcation System

                                           R-1 — Re-evaluate all warning messages in the Product Tracking System to determine whether they impact the postage calculation.
                                           TID: March 2009

                                           R- 2 — Strengthen the edit rules in the Product Tracking System to enforce the requirements for destination entry discounts. TID: June 2009

                                           R-3 — Develop and implement formal procedures for sampling and monitor delinquent sampling. TID: December 2009

                                           R-5 — Develop reconciliation solution. TID: September 2008 (management has not provided a revised date)
 CRR-AR-08-004           3/31/2008         In-Ofﬁce Cost System Telephone Readings

                                           R-1 — Expand existing quality control programs to assist area and district management with identifying and monitoring data collectors with a high
                                           number of inaccurate In-Ofﬁce Cost System readings. TID: December 2008

                                           R-4 — Implement the expanded quality control program, developed by Statistical Programs, to identify and monitor data collectors with a high
                                           number of inaccurate In-Ofﬁce Cost System readings. TID: December 2008

                                           R-5 — Follow the quality control procedures Statistical Programs has established to handle the In-Ofﬁce Cost System readings that do not meet
                                           data integrity standards to prevent such data from inclusion in national aggregation. TID: December 2008
 FT-AR-08-010            3/31/2008         Fiscal Year 2007 Postal Service Financial Statements Audit — St. Louis Information Technology and Accounting Service Center

                                           R-2 — Modify policies and procedures to include the destination facility validation in the highway extra trips payment process. TID: June 2009
 MS-AR-08-004            3/31/2008         Click-N-Ship Program

                                           R-2 — Emphasize Click-N-Ship Website instructions. TID: June 2008 (management has not provided a revised date)

                                           R-6 — Provide instructions on the SCAN form for delivery and retail employees to follow when handling Click-N-Ship items. TID: June 2008
                                           (management has not provided a revised date)

                                           R-8 — Consolidate the three Click-N-Ship merchant identiﬁcation numbers into one. TID: September 2008 (management has not provided a revised
                                           date)

                                           R-9 — Develop written policies and procedures for the Click-N-ship program ofﬁce. TID: September 2008 (management has not provided
                                           a revised date)
 DA-AR-08-004            4/9/2008          Facilities Energy Management Strategy

                                           R-1 — Finalize and publish a National Energy Management Plan. TID: December 2008

                                           R-2 — Update the Facility Energy Management Policy and Guide. TID: December 2008

                                           R-3 — Continue to develop systems for reporting actual energy consumption baselines and progressing toward energy reduction goals.
                                           TID: December 2008




58 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                     APPENDIX E




                             Report Title, Recommendation Summary

                                         R = Recommendation number
Report Number   Issue Date               TID = Target Implementation Date
CRR-AR-08-005   5/9/2008     Bound Printed Matter Workshare Discounts

                             R-1 — Determine whether the old supporting data is accurate in the current operational environment. TID: December 2008

                             R-2 — Develop updated cost avoidance models based on current data. TID: December 2008
DA-AR-08-005    5/21/2008    Status of Intelligent Mail Enabling Infrastructure

                             R-1 — Clarify the 24-digit barcode requirements and funding for material handling systems. TID: May 2009

                             R-2 — Ensure contingency plans for the server consolidation program include extended maintenance for micro-computers or provide for other
                             appropriate contingency plans if deployment is delayed beyond 2009. TID: December 2008
IS-AR-08-010    5/27/2008    Private Branch Exchange Systems

                             R-1 — Discontinue the lines that were overcapacity. TID: November 2008

                             R-2 — Assign resources and eliminate lines. TID: November 2008

                             R-3 — Remove the circuit cards that support disconnected lines. TID: December 2008
IS-AR-08-011    6/3/2008     System Software Controls at the Eagan, Minnesota, and San Mateo, California, Information Technology and Accounting Service Centers
                             for FY 2008

                             R-1 — Develop procedures to ensure UNIX administrators review exception reports and timely correct UNIX server settings deﬁciencies to comply
                             with hardening standards. TID: March 2009
DA-AR-08-006    6/4/2008     Flats Sequencing System: Production First Article Testing Readiness and Quality

                             R-1 — Ensure the preproduction system can process seven mail zones for a reasonable period to meet volume requirements in the Decision Analysis
                             Report before First Article Testing begins. TID: December 2008

                             R-4 — Develop a recovery schedule to ensure the Preliminary Production Baseline Technical Data Package will be available before the production
                             First Article Test begins. TID: Not provided

                             R-5 — Ensure that the initial Maintenance Diagnostic and Support System and the Program Control System functionalities are available for First
                             Article Testing and develop a schedule for future design releases. TID: Not provided

                             R-6 — Validate the supplier’s ability to provide qualiﬁed personnel to support Flats Sequencing Systems on all mail processing tours.
                             TID: Not provided

                             R-7 — Ensure that the supplier follows the quality control plan and the conﬁguration control process and validates that the ﬁrst ﬁve production
                             systems are built to the same drawing conﬁguration. TID: Not provided
SA-MA-08-002    6/17/2008    Location of Southeast Area Ofﬁce Space

                             R-2 — Conduct a detailed analysis to determine the optimal location for the Southeast Area ofﬁce. TID: June 2009
IS-AR-08-012    6/25/2008    Security Vulnerability Assessment of Electronic Travel Voucher System

                             R-5 — Work together to implement Triple Data Encryption Standard cryptography to encrypt credit card numbers stored within the Electronic Travel
                             Voucher System. TID: March 2009
IS-AR-08-013    7/9/2008     Protection of Sensitive Equipment at Selected Postal Service Information Technology Facilities

                             R-1 — Ensure Material Accountability Ofﬁcers and Assistants are aware of and follow all policies and procedures for inventory control of sensitive
                             equipment including report certiﬁcation by their functional managers. TID: March 2009




                                                                                                                                                  April 1 – September 30, 2008 | 59
APPENDIX E




                                           Report Title, Recommendation Summary

                                                        R = Recommendation number
 Report Number           Issue Date                     TID = Target Implementation Date
 EN-AR-08-004            7/16/2008         Miami Airport Mail Center Outsourcing

                                           R-1 — Perform a post-implementation review to determine the cost savings from the Miami Airport Mail Center outsourcing initiative.
                                           TID: June 2009
 CA-AR-08-008            7/17/2008         Renewal Process for Highway Transportation Contracts in the Southeast Area

                                           R-1 — Develop route survey plans and ensure that surveys are conducted and included in the contract ﬁle when contract renewal is under
                                           consideration. TID: Not provided

                                           R-2 — Provide training to promote the use of the eBuy Service Change Request System to submit renewal forms. TID: Not provided

                                           R-3 — Implement a checklist to ensure that requirements and contractors’ performance have been appropriately considered, and submit the
                                           checklists to the contracting ofﬁcer for retention in the contract ﬁle. TID: August 2008 (management has not provided a revised date)
 DA-AR-08-007            7/21/2008         Engineering Investment Portfolio Measurement

                                           R-1 — Seek greater participation from Operations when developing and reporting on operational performance metrics. TID: Not provided

                                           R-2 — Seek greater separation of responsibilities for reporting on program metrics. TID: Not provided
 FF-MA-08-001            7/21/2008         Fiscal Year 2008 — Use of No-Fee Money Orders

                                           R-2 — Seek greater separation of responsibilities for reporting on program metrics. TID: January 2009
 SA-AR-08-008            7/23/2008         Leased Facility Maintenance Responsibility in the Great Lakes Area

                                           R-1 — Strengthen its policies and procedures to ensure tracking and reimbursement of expenses incurred by the Postal Service for performing
                                           lessor responsible maintenance and repairs. TID: Not provided

                                           R-2 — Require the Great Lakes Facilities Service Ofﬁce to collect the $62,625 in recoverable supported questioned costs. TID: December 2008
 SA-AR-08-009            7/23/2008         Postal Service Continuity of Operations for the Great Lakes Area

                                           R-1 — Update contact information of key continuity of operations personnel at least semiannually, or more often as changes occur.
                                           TID: December 2008

                                           R-2 — Complete continuity of operations training, including Postal Alert and Notiﬁcation System training. TID: June 2009

                                           R-3 — Identify and prioritize essential functions. TID: December 2008

                                           R-4 — Establish a formal review process to ensure continuity of operations plans are completed, updated annually, and maintained in the Postal
                                           Alert and Notiﬁcation System, as required. TID: March 2009

                                           R-5 — Establish an area emergency management coordinating committee to provide oversight and assistance to district and facility Emergency
                                           Management Teams in establishing, implementing, and reviewing emergency management plans. TID: March 2009

                                           R-6 — Establish speciﬁc guidance for identifying and selecting alternate facilities to include, at a minimum, the number of alternate facilities that
                                           should be identiﬁed and criteria regarding location, mail volume, and mail capacity. TID: December 2008

                                           R-7 — Require personnel responsible for continuity of operations at primary and alternate facilities to conduct tests and exercises to ensure alternate
                                           facilities can effectively process the primary facilities’ mail. TID: June 2009
 SA-AR-08-010            7/24/2008         Postal Service Continuity of Operations for the Paciﬁc Area

                                           R-1 — Establish a formal review process to ensure continuity of operations plans are completed, updated annually, and maintained in the Postal
                                           Alert Notiﬁcation System, as required. TID: June 2009




60 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                      APPENDIX E




                             Report Title, Recommendation Summary

                                          R = Recommendation number
Report Number   Issue Date                TID = Target Implementation Date
DA-AR-08-008    7/28/2008    Mail Processing Equipment Spare Parts: Plant Stockrooms

                             R-1 — Update policy to preclude delegation of supervisory approval rights for orders above the inventory system’s recommended levels.
                             TID: Not provided

                             R-2 — Require each Area Vice President to submit an inventory reduction plan where excess spare parts on hand are greater than the
                             recommended inventory level. TID: Not provided

                             R-3 — Require material management specialists to provide maintenance managers needed assistance for redistributing, recycling, and disposing of
                             excess mail processing equipment spare parts TID: Not provided
DR-AR-08-005    7/30/2008    Management of Delivery Point Sequencing Percentage Increases for City Delivery — Southeast Area, Atlanta District

                             R-1 — Require unit ofﬁcials to prioritize the tasks associated with resolving speciﬁc Delivery Point Sequencing issues in their delivery units and
                             develop an action plan to mitigate the low city delivery Delivery Point Sequencing percentage. TID: October 2008
MS-AR-08-005    7/31/2008    Business Mail Entry Unit Sampling and Veriﬁcation Procedures

                             R-1 — Assess the placement and usage of Mailing Evaluation Readability and Lookup INstrument machines at all Business Mail Entry Units.
                             TID: March 2009

                             R-2 — Analyze stafﬁng and efﬁciency to determine stafﬁng requirements at direct mail units and develop a procedure for assigning backup
                             personnel as needed to perform the required veriﬁcations. TID: March 2009

                             R-3 — Request PostalOne! software modiﬁcations. TID: March 2009

                             R-4 — Direct District Managers to review PostalOne! reports to determine the validity of reasons for any mailing of more than 10,000 pieces not
                             receiving a required veriﬁcation. TID: March 2009
DA-AR-08-009    8/7/2008     Equipment Maintenance in the Fort Worth District

                             R-1 — Establish an action plan to increase equipment maintenance completion rates at the Lubbock, Wichita Falls, and Abilene mail processing
                             facilities. TID: Not provided

                             R-2 — Establish a shared maintenance and operational action plan for minimizing letter mail machine rejects at processing plants in the Fort Worth
                             District. TID: Not provided

                             R-3 — Develop procedures to ensure site compliance with letter mail operational standards for quality. TID: August 2008 (management has not
                             provided a revised date)
SA-AR-08-011    8/18/2008    Regatta Annex Lease

                             R-1 — Coordinate future leasing efforts to help ensure that investment decisions for leasing facilities are prudent. TID: Not provided

                             R-2 — Explore and identify leasing alternatives when notiﬁed of changes in facility requirements. TID: Not provided
SA-AR-08-012    8/21/2008    Postal Service’s Suitability Screening Process for Postal Service Employees in the Capital Metro Area

                             R-1 — Establish and implement policies and procedures to include speciﬁc guidelines for suitability screening and ensuring these reports are sent to
                             the appropriate district Human Resources ofﬁce timely. TID: September 2009
SA-AR-08-013    8/22/2008    Security Clearances for Postal Service Employees

                             R-1 — Establish and implement a policy to periodically assess the risks associated with the duties of all Postal Service positions to determine which
                             positions require a security clearance. TID: September 2009

                             R-2 — Revise the Administrative Support Manual, as appropriate, to reﬂect changes to the list of positions requiring a security clearance.
                             TID: September 2009




                                                                                                                                                    April 1 – September 30, 2008 | 61
APPENDIX E




                                           Report Title, Recommendation Summary

                                                        R = Recommendation number
 Report Number           Issue Date                     TID = Target Implementation Date
 CRR-AR-08-006           8/25/2008         Controls Over the International Reconciliation System

                                           R-1 — Update the requirements analysis to ensure all appropriate business rules and edits are incorporated. TID: August 2008 (management has
                                           not provided a revised date)

                                           R-2 — Ensure all signiﬁcant issues identiﬁed during Customer Acceptance Test are corrected before placing the software release into production.
                                           TID: September 2009

                                           R-3 — Build and run comprehensive test ﬁles for customer service tests that incorporate all system requirements when the updated requirements
                                           analysis is complete. TID: Not provided

                                           R-4 — Promptly incorporate edit requirements provided by the end-user into International Reconciliation System functionality. TID: September 2009

                                           R-5 — Revise the system logic to include comparison of weight values and receptacle counts in identifying duplicate dispatches. TID: December 2008

                                           R-7 — Develop management reports to provide all necessary information for timely reconciliation. TID: September 2009

                                           R-8 — Create a standard operating procedures guide for the key reconciliation processes. TID: December 2008
 DA-AR-08-010            8/25/2008         Upgraded Flats Sorting Machine 1000 Utilization in the New York Metro Area

                                           R-1 — Move Upgraded Flats Sorting Machine 1000 mail volume to the optical character reader or automatic mode to meet investment goals.
                                           TID: January 2009

                                           R-2 — Develop and implement a formal plan detailing how to most effectively utilize the Upgraded Flat Sorting Machine 1000. TID: January 2009
 NL-AR-08-005            8/27/2008         Vehicle Management — National Trailer Lease Renewal — Eastern Area

                                           R-1 — Develop a comprehensive process to identify trailer requirements and manage trailer inventory and use, including installing satellite tracking
                                           devices on trailers. TID: September 2008 (management has not provided a revised date)

                                           R-2 — Analyze the number of trailers needed to transport mail and equipment and return unneeded trailers to Postal Service Headquarters for
                                           reallocation or return to the leasing contractor. TID: Not provided

                                           R-3 — Analyze storage requirements and procure storage space in the most cost-effective manner. TID: Not provided
 IS-AR-08-016            8/29/2008         Identity Theft Potential in the Change of Address Process

                                           R-1 — Update the Internet and Telephone Change of Address applications. TID: March 2009

                                           R-2 — Develop and implement a plan of action, with milestones, to enhance controls for verifying that COA orders are legitimate and authorized by
                                           the owner of the address. TID: March 2009

                                           R-4 — Investigate and provide timely feedback to the National Customer Support Center and customers on all potentially fraudulent change of
                                           address complaints. TID: December 2008

                                           R-5 — Coordinate, develop, and implement policies and procedures for regularly monitoring and evaluating all potentially fraudulent COA complaints.
                                           TID: December 2008
 NO-AR-08-007            9/15/2008         Powered Industrial Vehicle Management System at the Raleigh Processing and Distribution Center

                                           R-1 — Use the Powered Industrial Vehicle Management System to the fullest extent possible to manage operations and continue to improve mail
                                           processing efﬁciency by reducing 9,000 workhours in tow and forklift operations by FY 2010. TID: October 2009




62 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                    APPENDIX E




                             Report Title, Recommendation Summary

                                         R = Recommendation number
Report Number   Issue Date               TID = Target Implementation Date
DR-AR-08-007    9/16/2008    Vehicle Maintenance Facilities — Scheduled Maintenance Service in the Southeast Area

                             R-5 — Modify the annual vehicle maintenance plan to provide for all scheduled vehicle maintenance to better manage and improve efﬁciency.
                             TID: October 2008
HM-MA-08-002    9/16/2008    Grievance Settlement and Arbitration Award Payments

                             R-1 — Formalize and obtain funding for the enhancement of the Grievance Arbitration Tracking System to centralize all grievance payment
                             information. TID: January 2009
EN-AR-08-006    9/17/2008    Mojave Post Ofﬁce Facility Consolidation

                             R-1 — Strengthen accounting controls over highway contract routes by providing training for input of data in the Web Service Change Request
                             database along with additional management oversight. TID: October 2008

                             R-2 — Ensure that transportation changes directed by the approved area mail processing consolidation proposal are accurately recorded in the post-
                             implementation review. TID: October 2008
EN-AR-08-007    9/23/2008    Assessment of the Remote Encoding Center Network Consolidation Process

                             R-1 — Clarify the methodology used to select remote encoding centers for closure in future business cases. TID: February 2010
NO-AR-08-010    9/23/2008    Powered Industrial Vehicle Management System at the Providence Processing and Distribution Center

                             R-1 — Use the Powered Industrial Vehicle Management System to the fullest extent possible to manage operations and continue to improve mail
                             processing efﬁciency by reducing 4,000 workhours in tow and forklift operations by ﬁscal year 2009. TID: September 2008 (management has not
                             provided a revised date)
NL-AR-08-006    9/25/2008    Postal Vehicle Service Transportation Routes — Northern Virginia Processing and Distribution Center

                             R-1 — Ensure that managers follow prescribed ﬂeet management procedures for making Postal Vehicle Service schedules effective, including the
                             use of vehicle utilization reviews. TID: November 2008

                             R-2 — Verify elimination of the 18,006 hours that management agreed to remove from trip schedules. TID: December 2008

                             R-3 — Reassess the 2,011 hours which Postal Service managers still feel are necessary and eliminate the hours as indicated by the reassessment
                             or document the reasons for retaining the hours. TID: December 2008

                             R-4 — Issue a memorandum to drivers enforcing load restraint polices for Postal Vehicle Service trips and provide oversight of load restraint
                             processes. TID: Not provided

                             R-5 — Analyze the use of the tractors that are nearing the end of their expected service lives, and develop an economical requirement-based plan
                             for their replacement, including possible replacement with surplus vehicles from other facilities. TID: Not provided
NL-AR-08-007    9/25/2008    Vehicle Management — National Trailer Lease Renewal — Southeast Area

                             R-1 — Develop a comprehensive plan to identify trailer requirements and manage trailer inventory and use, including making use of the installed
                             satellite tracking devices on trailers. TID: April 2009

                             R-2 — Analyze the number of trailers needed to transport mail and equipment and return unneeded trailers to Postal Service Headquarters for
                             reallocation or return to the leasing contractor. TID: April 2009
DR-AR-08-008    9/29/2008    Vehicle Maintenance Facilities — Scheduled Maintenance Service in the Western Area

                             R-2 — Maintain the most efﬁcient combination of vehicle maintenances facility and commercial resources based on geographical location and costs,
                             and; make optimal use of the Postal Service’s national vehicle shuttle agreement or other local commercial shuttle services, when cost effective, for
                             transporting vehicles to and from maintenance facilities. TID: Not provided




                                                                                                                                                  April 1 – September 30, 2008 | 63
APPENDIX E




                                           Report Title, Recommendation Summary

                                                        R = Recommendation number
 Report Number           Issue Date                     TID = Target Implementation Date
 DR-AR-08-009            9/29/2008         Vehicle Maintenance Facilities — Scheduled Maintenance Service in the Great Lakes Area

                                           R-5 — Maintain the most efﬁcient combination of vehicle maintenances facility and commercial resources based on geographical location and costs,
                                           and; make optimal use of the Postal Service’s national vehicle shuttle agreement or other local commercial shuttle services, when cost effective, for
                                           transporting vehicles to and from maintenance facilities. TID: May 2009
 NL-AR-08-008            9/29/2008         Air Networks — Federal Express Transportation Agreement — Western Area

                                           R-1 — Use surface transportation to the extent possible for mail that does not require air transportation. TID: Not provided

                                           R-2 — Transport mail to the maximum extent possible using the service-responsive capacity of passenger airlines under contract with the Postal
                                           Service. TID: Not provided

                                           R-3 — Sort mail into bypass containers as appropriate. TID: Not provided
 DR-AR-08-010            9/30/2008         Vehicle Maintenance Facilities — Scheduled Maintenance Services in the Paciﬁc Area

                                           R-4 — Maintain the most efﬁcient combination of vehicle maintenances facility and commercial resources based on geographical location and costs
                                           and; make optimal use of the Postal Service’s national vehicle shuttle agreement or other local commercial shuttle services, when cost effective, for
                                           transporting vehicles to and from maintenance facilities. TID: Not provided
 DR-AR-08-011            9/30/2008         Vehicle Maintenance Facilities — Scheduled Maintenance Services in the New York Area

                                           R-3 — Maintain the most efﬁcient combination of vehicle maintenances facility and commercial resources based on geographical location and costs,
                                           and; make optimal use of the Postal Service’s national vehicle shuttle agreement or other local commercial shuttle services, when cost effective, for
                                           transporting vehicles to and from maintenance facilities. TID: Not provided
 DR-AR-08-013            9/30/2008         City Letter Carrier Operations Ofﬁce Time Processes

                                           R-2 — Enforce supervisory oversight of the processes. TID: October 2008
 MS-AR-08-006            9/30/2008         Political Campaign Mailings

                                           R-1 — Consolidate the manual political mail log into the automated record keeping system in PostalOne! for all sites that have access to the
                                           PostalOne! system. Require sites that do not use the PostalOne! System, to maintain the manual political mail log and transmit the political campaign
                                           mailing information to their respective Business Mail Entry Units to be entered into PostalOne!. TID: December 2008

                                           R-2 — Program PostalOne! to require employees to identify political campaign mailings in the system. TID: Not provided

                                           R-3 — Reinforce to employees the importance of recording political campaign mail information. TID: December 2008

                                           R-4 — Include a ﬁeld in PostalOne! for employees to document the advice provided to mailers regarding late arriving political campaign mail, and
                                           revise the guidance to instruct employees to use PostalOne! to document this advice. TID: December 2008

                                           R-5 — Reinforce to employees the importance of advising mailers regarding late arriving political campaign mail. TID: December 2008

                                           R-6 — Develop standard operating procedures for accepting, processing, and documenting political mail inquiries and their resolution.
                                           TID: Not provided

                                           R-7 — Provide training for ofﬁcials responsible for political campaign mail complaints. TID: Not provided
 NL-AR-08-009            9/30/2008         Dallas Airport Mail Center Operations

                                           R-4 — Eliminate unnecessary workload by ensuring mail is assigned and tagged before arriving at the Airport Mail Center and by ensuring it arrives
                                           on time to meet its assigned transportation. TID: Not provided




64 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                  APPENDIX E




APPENDIX F
Signiﬁcant Management Decisions in Audit Resolution
For the period April 1 — September 30, 2008

As required by the IG Act, the following page discusses information concerning any signiﬁcant management decision with which the Inspector General disagrees
and is currently in audit resolution.

Status

The OIG has no signiﬁcant management decisions in audit resolution as of September 30, 2008.




                                                                                                                                 April 1 – September 30, 2008 | 65
APPENDIX G




APPENDIX G
Investigative Statistics (OIG and Postal Inspection Service Combined)1
For the period April 1 — September 30, 2008

                              Investigations       Arrests     Indictments/        Convictions/        Admin.               Cost     Fines, Restitution     Amt. to USPS       To Mgmt.
                                 Completed                     Informations             Pretrial       Action          Avoidance         & Recoveries     (from previous      for Admin.
                                                                                    Diversions2         Taken                                                   column)3     Action-2,765
    Mail Theft by                        1,347       1,275               487              1,406             66                  –          $13,033,728                  –               –
    Nonemployees
    Theft, Delay or                      1088          253               182                226            634                  –            $396,576           $104,430                –
    Destruction of Mail
    by Employees or
    Contractors
    Injury Compensation                    767          28                 17                17            184        $101,827,416        $145,574,075         $1,181,699               –
    Fraud
    Assaults and Threats                   398         152                 14               112            210                  –                    –                  –               –
    against postal
    employees on-duty
    Employee Misconduct                  1438          110                 66               103           1172            $167,959          $1,034,785        ($360,872)4               –
    Robbery                                 41          28                 13                35               –                 –            $302,998             $69,937               –
    Burglary                                95          48                 12                52               –                 –              $24,390            $49,774               –
    Financial Fraud and                    533         112                 91               116            278         $2,479,298           $3,195,652         $3,310,401               –
    Embezzlements
    Revenue Investigations                 164          36                 11                47              15                 –           $8,619,940                  –               –
    Contract Fraud                          99            7                 5                 5             33          $5,189,070        $512,630,174       $12,223,596                –
    Mail Fraud                             565         565                517               592               –                 –      $10,250,252,178           $32,200                –
    Identity Theft                         760         990               423                898               –                 –          $47,484,194                  –               –
    Hazardous Material                      23           12                 7                 6               –                 –              $63,728                  –               –
    Bombs, Threats,                         49          51                  5                51               –                 –               $4,028               $600               –
    Hoaxes, and Explosive
    Devices
    Dangerous Mail                          85          42                 26                48               –                 –              $72,814             $2,000               –
    Mailing of Controlled                  364         576                197               382               –                 –           $2,300,000        $2,300,000                –
    Substances
    Child Exploitation and                 101          82                 44                65               –                 –            $200,200                   –               –
    Obscenity
    Miscellaneous Crime                     38          25                  2                30               –                 –                    –                  –               –
    TOTAL                               7,955        4,392             2,119              4,191          2,592      $109,663,743      $10,985,189,460        $18,913,765           2,765


1
    Statistics include joint investigations with other law enforcement agencies.
2
    Convictions reported in this period may be related to arrests made in prior reporting periods.
3
    Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.
4
    Amount included Fines, restitutions, and recoveries. The FY 2008 Spring Semiannual Report to Congress was overstated by $360,872; amount this period has been adjusted appropriately.




66 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                             APPENDIX G




Investigative Statistics (OIG and Postal Inspection Service Combined)1 — FY 2008
For the period October 1, 2007 — September 30, 2008

                              Investigations      Arrests      Indictments/        Convictions/        Admin.                Cost    Fines, Restitution     Amt. to USPS         To Mgmt.
                                 Completed                     Informations             Pretrial       Action           Avoidance        & Recoveries     (from previous        for Admin
                                                                                    Diversions2         Taken                                                   column)3      Action-4656
    Mail Theft by                        2,797       2,860                960             2,829            128                  –          $26,711,481                   –                –
    Nonemployees
    Theft, Delay or                      2,033         419                333               341            964                  –            $684,345            $269,144
    Destruction of Mail
    by Employees or
    Contractors
    Injury Compensation                  1,491          51                 28                30            318       $197,323,293         $151,479,330         $3,906,065                 –
    Fraud
    Assaults and Threats                   808         326                 32               229            470                  –                    –                   –                –
    against postal
    employees on-duty
    Employee Misconduct                  3,032         235                153               195          1,900            $167,959          $2,678,600          $1,162,473                –
    Robbery                                 78          78                 35                56               –                 –             $317,802             $83,141                –
    Burglary                               202         114                 34               104               –                 –              $41,798           $138,704                 –
    Financial Fraud and                    955         211                189               191            459          $4,579,709          $5,264,081         $5,223,448                 –
    Embezzlements
    Revenue Investigations                 302          90                 44                96              23                 –          $16,906,307                   –                –
    Contract Fraud                         168          12                  8                12              58         $5,189,070       $516,096,892          $15,142,815                –
    Mail Fraud                           1,363       1,338              1,199              1,188              –                 –      $11,292,328,756          $1,138,917                –
    Identity Theft                       1,490       2,047                931             1,732               –                            $99,364,139                   –                –
    Hazardous Material                     119          16                 11                11               –                 –              $70,436                   –                –
    Bombs, Threats,                        222          84                 14                65               –                 –               $8,835               $600                 –
    Hoaxes, and Explosive
    Devices
    Dangerous Mail                         186         100                 54                75               –                 –            $350,768               $2,000                –
    Mailing of Controlled                  857       1,118                417               751               –                 –           $4,700,000         $4,700,000                 –
    Substances
    Child Exploitation and                 274         160                100               130               –                 –            $232,005                    –                –
    Obscenity
    Miscellaneous Crime                     80          60                  2                64               1                 –                    –                   –                –

    TOTAL                              16,457       9,319              4,554              8,099          4,321      $207,260,031      $12,117,235,575        $31,767,367             4,656


1
    Statistics include joint investigations with other law enforcement agencies.
2
    Convictions reported in this period may be related to arrests made in prior reporting periods.
3
    Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.
4
    Amount included in ﬁnes, restitutions, and recoveries. The fy 2008 Spring Semiannual Report to Congress was overstated by $360,872; amount this period has been adjusted appropriately.




                                                                                                                                                            April 1 – September 30, 2008 | 67
APPENDIX H




APPENDIX H
Summary of U.S. Postal Inspection Service Actions Under 39 USC 3005 and 3007
For the period April 1, 2007 — September 30, 2008

The Postal Reorganization Act requires the Postmaster General to furnish information, on a semiannual basis, on the investigative activities of the Postal
Service by the U.S. Postal Inspection Service. With passage of the Deceptive Mail Prevention and Enforcement Act in December 1999, the Postal Service’s
reporting obligations were changed. The Act requires the Postal Service to submit its semiannual report on investigative activities to the OIG rather than to the
Governors, expands the subject matter that must be reported, and revises the reporting schedule to coordinate with the OIG Semiannual Report to Congress.
The information in the report includes actions directed at combating crimes involving the mail; costs and expenditures devoted to Inspection Service investigative
activities; use of subpoena power; and any additional information the OIG may require.

The following information summarizes the administrative and judicial actions initiated and resolved during the reporting period. These actions include the
issuance of cease and desist orders directed to mailers, actions to intercept payments fraudulently induced, and orders seeking to intercept fraudulent mailings.

                                                                               Consent                             Cease &
 Type of Scheme                               Complaints Filed              Agreements             FROs       Desist Orders
 Advance fee                                                      2                        –             –               –
 Charity                                                          2                        2             –               2
 Contests/sweepstakes                                             2                        3             1               3
 Coupon fraud                                                     4                        1             –               1
 False billings                                                   3                        3             1               5    Financial Reporting On Investigative
 Internet auction                                                 1                        –             1               2    Activities April — September 2008
 Lotteries (foreign and domestic)                                 1                        1             –               1    Type
 Merchandise:                                                                                                                 Personnel                     151,449,684
   Failure to furnish                                             1                        1             –               1    Nonpersonnel                  36,224,426
   Failure to pay                                                 3                        2             –               2    TOTAL                       187,674,110
   Misrepresentation                                              1                        1             –               1    Capital obligations           32,982,058
 Miscellaneous                                                   11                        4             2               8
 Telemarketing                                                    1                        1             –               1
 Work at home                                                     7                        5             4               9
 TOTAL                                                           39                      24              9              36


 Other Administrative Actions
 Administrative action requests                                                                                         117
 Temporary restraining orders requested                                                                                  1
 Temporary restraining orders issued                                                                                     1
 Cases using direct purchase authority                                                                                   –
 Civil penalties (Section 3012) imposed                                                                             $12,264
 Test purchases                                                                                                          –
 Withholding mail orders issued                                                                                         48
 Voluntary discontinuances                                                                                              22




68 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                               APPENDIX H




Administrative Subpoenas Requested by the Inspection Service:
For the period April 1, 2007 — September 30, 2008

 Defendant:                                    Violation:                                                                        Date Issued:              Date Returned:
 08-027 Prize Paradise, Inc.                   39 USC 3005; 3016 Sweepstakes scheme                         Held pending settlement negotiations
 08-028 Cashorama, Inc.                        36 USC 3005; 3016 Sweepstakes scheme                         Held pending settlement negotiations
 08-029 Elwood & Stanley, Inc.                 36 USC 3005; 3016 Sweepstakes scheme                         Held pending settlement negotiations
 08-030 Prize World, Inc.                      36 USC 3005; 3016 Sweepstakes scheme                         Held pending settlement negotiations
 08-031 P.G Incorporated                       36 USC 3005; 3016 Sweepstakes scheme                         Held pending settlement negotiations
 08-032 Valmont, Vickery & Wardell             39 USC 3005; 3016 Sweepstakes; scheme                        Held pending settlement negotiations
 08-033 Royal Sweepstakes, Inc                 36 USC 3005; 3016 Sweepstakes scheme                         Held pending settlement negotiations
 08-034 Winners Research Center                36 USC 3005; 3016 Sweepstakes scheme                         Held pending settlement negotiations
 08-035 eBay/PayPal                            39 USC 3005; 3016 False Representations                                                 6/2/2008
                                               re: Internet auctions
 08-036 eBay/PayPal (Begley) (no. re-issued)   39 USC 3016 False representation; sweepstakes mailing   Subpoena request rejected; does not meet
                                                                                                                         statutory requirements
 08-036 REGUS                                  39 USC 3016 False representation; sweepstakes mailing         Returned to staff for additional data




                                                                                                                                               April 1 – September 30, 2008 | 69
APPENDIX I




APPENDIX I
Closed Congressional and Board of Governors’ Inquiries
For the Period April 1 — September 30, 2008

This appendix lists the Congressional and Board of Governors inquiries the OIG closed during this reporting period. The OIG reviewed these inquiries to
help identify systemic issues and to determine the need for future Postal Service-wide audits, and to address investigative issues. Inquiries are listed in the
chronological order of receipt.

Investigations
 Requestor                         Allegation/Concern                                                  OIG Findings                                                               Closure Date
 Representative, Maryland          Alleged theft of two U.S. Citizenship and Immigration Services      Because materials were mailed without tracking numbers, we could              4/30/2008
                                   Permanent Resident Cards.                                           not determine where they disappeared from the mailstream. We
                                                                                                       noted that this type of mail is not sorted manually, reducing the risk
                                                                                                       of internal theft. We found no evidence of a systemic problem in the
                                                                                                       delivery area.
 Representative, California        Alleged fraud at a Los Angeles post ofﬁce; whistleblower            We reviewed, concluding management did not base its adverse                   4/29/2008
                                   reprisal for reporting fraud to the OIG.                            action against the employee upon the protected disclosure he
                                                                                                       made; instead, adverse actions were based on legitimate business
                                                                                                       reasons. We did conﬁrm instances where employees falsely reported
                                                                                                       attempted delivery of Express Mail service and we reported our
                                                                                                       ﬁndings to management.
 Representative, Florida           Request for on-going or concluded audits or investigations          We conﬁrmed the allegations but could ﬁnd no evidence to determine            6/10/2008
                                   concerning facilities in Panama City and Bay County; lost           the cause of the loss. We noted that employees were conversant in
                                   mailing and payment by a non-proﬁt mailer.                          proper procedures for processing this kind of mailing. Management
                                                                                                       provided a refund.
 Representative, New York          Mail theft, possibly by a postal employee.                          We investigated, found no evidence of mail theft by                           6/10/2008
                                                                                                       postal employees.
 Senator, California               Improper delay in processing a Workers' Compensation claim,         We completed an investigation into the retaliation charges in 2007            4/29/2008
                                   and retaliation.                                                    without substantiating the complaint. Complainant later admitted
                                                                                                       management reimbursed her sick leave account upon approval of the
                                                                                                       Workers' Compensation claim.
 Senator, Ohio                     Mail tampering and theft, possibly by a postal employee.            We investigated, found no evidence of mail tampering or theft by               5/8/2008
                                                                                                       postal employees.
 Senator, Texas                    Whistleblower reprisal; theft and delay of mail.                    In June 2008, we reported on the reprisal complaint, concluding               7/25/2008
                                                                                                       management did not base its adverse action against the employee
                                                                                                       upon the protected disclosure he made in 2006. In July, we
                                                                                                       addressed the substance of the protected disclosure, relating to
                                                                                                       theft and delay of mail. Our 2006 investigation revealed serious
                                                                                                       violations of postal policy in the Houston District concerning reporting
                                                                                                       of delayed mail. In providing this latest response, we reviewed mail
                                                                                                       status and veriﬁed delays persisted, but we did not substantiate
                                                                                                       further incidents of intentional delay.
 Representative, Ohio              Theft of gift cards and money.                                      Our investigation revealed a postal employee was stealing gift cards           6/2/2008
                                                                                                       from envelopes. We are seeking federal prosecution.
 Senator, Texas                    Theft, destruction, and delay of mail.                              Our interviews revealed the complainant had no ﬁrsthand knowledge,            4/17/2008
                                                                                                       and we declined further work unless new investigative leads develop.
 Representative, Florida           A change-of-address request was submitted online through the        We investigated, determined the request was ﬁled by someone                    6/9/2008
                                   Postal Service's Website without resident's consent; identity       external to the Postal Service. We referred our ﬁndings to the Postal
                                   theft.                                                              Inspection Service for investigation. We also referred our ﬁndings to
                                                                                                       the Ofﬁce of Audit for possible consideration.
 Senator, New York                 Letter Carrier improperly delivered mail; OIG Hotline failed to     We reviewed new and prior allegations by this complainant;                    4/25/2008
                                   respond to similar complaint.                                       allegations were not substantiated.




70 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                            APPENDIX I




Requestor                    Allegation/Concern                                               OIG Findings                                                               Closure Date
Senator, Ohio                Mail tampering and theft, possibly by a postal employee.         We investigated, did not substantiate allegations.                              7/14/2008
Representative, Texas        Whistleblower reprisal; theft and delay of mail.                 In June 2008, we reported on the reprisal complaint, concluding                 7/25/2008
                                                                                              management did not base its adverse action against the employee
                                                                                              upon the protected disclosure he made in 2006. In July, we
                                                                                              addressed the substance of the protected disclosure, relating to
                                                                                              theft and delay of mail. Our 2006 investigation revealed serious
                                                                                              violations of postal policy in the Houston District concerning reporting
                                                                                              of delayed mail. In providing this latest response, we reviewed mail
                                                                                              status and veriﬁed delays persisted, but we did not substantiate
                                                                                              further incidents of intentional delay.
Senator, Texas               Intentional delay of mail, possibly by postal employees.         We did not substantiate further incidents of intentional delay,                 7/25/2008
                                                                                              and plan no further investigative work. However, we advised
                                                                                              management, in 2007, of serious violations of postal policy for
                                                                                              reporting delayed mail. We learned that management responded with
                                                                                              several personnel changes.
Representative, Georgia      Compensation request for loss of income and insurance            The camcorder is evidence in an investigation of mail theft by a                6/19/2008
                             reimbursement from the Postal Service because his stolen         postal employee and expected to be used by state prosecutors. The
                             video camera was held as evidence by the OIG.                    Postal Service worked with complainant to adjudicate insurance
                                                                                              claim.
Representative, Kentucky     Postal Inspectors harassed, intimated, and acted                 We investigated, found no misconduct on the part of the                          7/8/2008
                             unprofessionally towards complainants.                           Postal Inspectors.
Senator, Virginia            Theft and mishandling of mail by the Postal Service.             We investigated, did not substantiate allegations.                                7/1/2008
Representative, Florida      Tampering, theft, and delay of mail possibly by                  We investigated, found no evidence of misconduct or theft on the                 6/4/2008
                             postal employees.                                                part of the postal employees.
Representative, Illinois     OIG Special Agents conspired to falsify investigative            We investigated this allegation earlier in the ﬁscal year. We then              9/29/2008
                             reports, which led to administrative action by management;       conducted a further review in response to the new congressional
                             complainant's prior union activities, and interracial marriage   inquiry, ﬁnding the original report was direct, precise, factual, fee
                             were motives for the conspiracy.                                 of bias, and limited to the scope of the allegations of fraud. The
                                                                                              review fully supported the earlier determination that the allegations of
                                                                                              conspiracy and bias were unfounded.
Senator, California          Recipient of Standard Mail alleged mail tampering                We found no evidence to support the allegation.                                 5/22/2008
                             and intentional delay of advertising mail, possibly by
                             postal employees.
Senator, Florida             Theft of checks; fraudulently cashed.                            We investigated, determined theft occurred external to the Postal               6/19/2008
                                                                                              Service. We referred our ﬁndings to the Postal Inspection Service
                                                                                              for investigation.
Representative, New Jersey   Delay of mail (Permanent Resident Card) as evidenced by          We reviewed, found no evidence of a systemic problem in the area.               6/13/2008
                             postmark date.                                                   Complainant was satisﬁed with receipt of Permanent Resident Card
                                                                                              and did not want to pursue the matter.
Senator, Ohio                Mail theft and forgery of Social Security check, possibly by a   We investigated, did not substantiate allegations. To the contrary,             6/10/2008
                             postal employee.                                                 we found the complainant cashed the check alleged to have been
                                                                                              stolen.
Representative, Virginia     Discrimination and questionable bidding practices in             We investigated, did not substantiate allegations.                              8/22/2008
                             awarding transportation contracts by postal ofﬁcials in
                             Maryland and Virginia.
Senator, Texas               Requested compensation for all out of schedule pay; alleged      The complainant declined to provide speciﬁcs that would warrant                  7/9/2008
                             improprieties at a Texas post ofﬁce.                             our active involvement, so we did not conduct further investigative
                                                                                              work.
Senator, Ohio                Mail tampering and theft, possibly by a postal employee.         We revisited earlier allegations, reviewed mail ﬂow tests, and                  8/12/2008
                                                                                              conducted additional interviews, but found no evidence of mail
                                                                                              tampering. We will continue to monitor mail ﬂow through this station.
Representative, California   A postal employee signed for a Registered mailpiece; another     Our investigation revealed postal employees violated postal policies            7/24/2008
                             postal employee provided vacation hold mail to customer          and procedures. We provided our ﬁndings to management.
                             without asking for identiﬁcation.




                                                                                                                                                           April 1 – September 30, 2008 | 71
APPENDIX I




 Requestor                         Allegation/Concern                                                   OIG Findings                                                                Closure Date
 Representative, Virginia          Theft of cash, possibly by a postal employee.                        We investigated, did not substantiate allegations of mail theft by             8/25/2008
                                                                                                        postal employees, nor did we conﬁrm that the theft occurred.
 Senator, Minnesota                Requested investigation into treatment a constituent received        We reviewed, found no evidence of misconduct by the OIG. We                    7/24/2008
                                   by the OIG.                                                          noted similar charges were heard and dismissed as part of an Equal
                                                                                                        Employment Opportunity (EEO) case.
 Representative, Missouri          Mail tampering, possibly by postal employees.                        We investigated, did not substantiate allegations.                             7/28/2008
 Senator, Texas                    Postal supervisor submitted false or inaccurate claims for           We reiterated that our jurisdiction extended only to investigating             7/25/2008
                                   mileage reimbursement and postal management failed to                and providing our ﬁndings to management for review and
                                   respond properly to OIG ﬁndings.                                     appropriate action.
 Representative, North Dakota      Retaliation for contacting the OIG for alleged timecard fraud.       We reviewed allegations under the standards for Whistleblower                  9/15/2008
                                                                                                        reprisal, but concluded management did not base its adverse action
                                                                                                        against the employee upon the protected disclosure he made.
 Representative, Indiana           Mail tampering with a Registered Mail envelope sent                  We investigated. We could not determine if the envelope was opened             9/25/2008
                                   from France.                                                         by a postal employee or if it was opened in transit due to handling
                                                                                                        and processing; but we found no pattern of mail tampering in the
                                                                                                        area.




Audits
 Requestor                         Allegation/Concern                                               OIG Findings                                                                    Closure Date
 Ranking Member,                   Misuse of funds; excessive and wasteful travel; and related      We provided initial ﬁndings.                                                        9/3/2008
 Senate Committee                  complaints of Whistleblower Retaliation.




General Counsel
 Requestor                         Allegation/Concern                                               OIG Findings                                                                    Closure Date
 Senator, Maine                    Concerns about involvement in a workplace                        We contacted the complainant to explain the process we use and our                  4/17/2008
                                   environment evaluation conducted by the OIG into                 need for employee cooperation when we conduct inquiries into workplace
                                   allegations by                                                   environment allegations.
                                   a coworker.
 Senator, Maine                    Contesting OIG ﬁndings on previous complaints of a               We provided a detailed explanation of our earlier ﬁndings and rebutted             4/24/2008
                                   hostile environment and improper sharing of conﬁdential          several of complainant's criticisms.
                                   personal information.
 Senator, Missouri                 Harassment, intimidation, and inhumane treatment of              We reviewed, found employee had a pending grievance and EEO                         4/7/2008
                                   Letter Carriers.                                                 complaint; we declined further work.
 Senator, Texas                    Harassment and intimidation by management at a Texas             We conﬁrmed a need for management to assess the workplace climate.                  8/7/2008
                                   post ofﬁce.                                                      Management completed an assessment, report, and a plan of action
                                                                                                    which we will review.
 Representative, Michigan          Pattern of nepotism within in the Greater Michigan District.     We documented two temporary assignments that might appear                          8/18/2008
                                                                                                    to conﬂict with statutory and regulatory prohibitions, but that
                                                                                                    management addressed these cases in 2002. We found no similar
                                                                                                    recent, speciﬁc allegations.
 Requestor                         Allegation/Concern                                               OIG Findings                                                                    Closure Date
 Representative, New York          Management committed computer fraud, waste,                      We reviewed Ofﬁce of General Counsel determination that the allegations             7/9/2008
                                   and misconduct in the Long Island District;                      fall outside of the applicable 5-year statute of limitations. In addition, we
                                   whistleblower reprisal.                                          found the employee had a pending EEO complaint and declined further
                                                                                                    work on the reprisal issues.




72 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                                APPENDIX I




Representative,                Concerns regarding timecards and scheduling at a North         We reviewed, found employee had a pending grievance and EEO                          7/10/2008
North Carolina                 Carolina post ofﬁce.                                           complaint, and declined further work.
Chairman, Senate Committee     Requested unredacted copy of the General Services              Provided a copy of report.                                                            7/8/2008
                               Administration Report of Investigation.
Representative, New Mexico     FOIA request for an investigative report.                      Our FOIA Ofﬁce provided a redacted copy of the report.                               7/14/2008
Senator, Washington            Complaint that the OIG FOIA Ofﬁce did not properly locate      Requestor did not provide our FOIA Ofﬁce sufﬁcient scoping information               8/13/2008
                               a requested investigative report.                              to locate the documents. We provided the new information from the
                                                                                              Senator to the OIG FOIA Ofﬁce for processing.




Referrals
Requestor                      Allegation/Concern                                            Referred To                                                                      Closure Date
Representative, New Jersey     Problems obtaining a fair settlement with the                 Government Relations Ofﬁce                                                             5/7/2008
                               Postal Service.
Representative, Texas          Mail delivery issues resulting from substitute carriers not   Government Relations Ofﬁce                                                           5/22/2008
                               knowing the route.
Representative, Pennsylvania   Wasteful Postal Service policy of destroying rather           Mailer, not Postal Service, elects forwarding service. Therefore, referred to        6/23/2008
                               than forwarding tax forms sent as Standard Mail, when         Treasury Inspector General for Tax Administration
                               forwarding orders are in place.
Representative,                Request for a direct meeting with appropriate oversight       Government Relations Ofﬁce                                                           6/30/2008
North Carolina                 ofﬁcials to provide proper context and more clarity to her
                               employment situation.
Senator, Illinois              Request to switch from cluster boxes to curbside delivery     Government Relations Ofﬁce                                                            7/30/2008
                               at individual mailboxes.
Senator, Illinois              Postal ofﬁcials improperly or unfairly forced signature on    Government Relations Ofﬁce                                                            9/15/2008
                               a "last chance" agreement, possibly forcing termination
                               of employment.
Senator, Illinois              Employment related issues at an Illinois post ofﬁce.          Government Relations Ofﬁce                                                           9/29/2008




                                                                                                                                                               April 1 – September 30, 2008 | 73
FREEDOM OF INFORMATION ACT




SUPPLEMENTAL INFORMATION
Freedom of Information Act
Through FY 2008, the Freedom of Information Act (FOIA) Ofﬁces for the Postal Inspection Service and OIG operated independently of, but frequently
coordinated with, each other and their counterparts at the Postal Service. Although they will not merge operations until FY 2009, both agency FOIA statistics
are being presented jointly here for the ﬁrst time. The FOIA Ofﬁces receive requests for records from the public, the media, and Postal Service employees. The
FOIA, according to the Department of Justice, “generally provides that any person has a right, enforceable in court, to obtain access to federal agency records,
except to the extent that such records (or portions of them) are protected from public disclosure by one of nine exemptions.”

Activities

For the period April 1 — September 30, 2008


 Requests                                                                    Number of Requests
 Carryover from prior period                                                                         24
 Received during period                                                                             192
 Total on hand during period                                                                        316


 OIG Actions                                                                  Number of Requests
 Processed during the period                                                                        291
              Requests released in full                                                               17
              Requests partially granted                                                              89
              Requests not granted                                                                    40
              Requests referred to another agency                                                     74
              No Records                                                                              35
              Not proper FOIA requests                                                                11
              Refusal to comply                                                                       11
              Other                                                                                   14


 Balance                                                                      Number of Requests
 Balance at the end of the period (pending)                                                           21


 Processing Days                                                                   Number of Days
 Median processing days to respond to a FOIA request: OIG only                                         2




74 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                              WORKPLACE ENVIRONMENT




Workplace Environment
For the period April 1 — September 30, 2008

The OIG’s Workplace Environment team receives referrals involving workplace environment and operational issues from multiple sources, which include the
Hotline, Congress, Board of Governors (BOG), and management for the Postal Service and OIG. Complaints reviewed by the team include sexual harassment;
discrimination; harassment and intimidation; nepotism; mail delivery and processing; and workplace safety issues. Workplace Environment closely coordinates
efforts with Postal Service management to ensure Postal Service employees a stress and adversity-free work environment. The team also reviews complaints
received from OIG staff which provides them with another avenue to report their concerns, in addition to the Equal Employment Opportunity process. Once the
review is completed, the team may issue a Fact-Finding Report to OIG management. This process has been successful in assisting employees and the OIG in
resolving workplace issues that may have a negative impact on employee morale and productivity, or that may not have been addressed until an EEO is ﬁled or
other adverse consequences occur.


 Activities
 For the period April 1 – September 30, 2008


 Referrals                                                                                  Total
 Carryover from prior period                                                                   21
 Complaints received from OIG Hotline                                                         270
 Congressional/BOG/Postal Service management                                                   10
 Internal                                                                                       9
 Other                                                                                          0
 Total on hand during this period                                                             310


 Workplace environment actions                                                              Total
 Complaints closed during this period                                                         278
              Referred to Postal Service management                                            93
              Referred to OIG Ofﬁce of Investigations                                          12
              Referred to OIG Ofﬁce of Audit                                                    0
              Summary of ﬁndings reported to Congress/BOG/Postal Service management             6
              Conducted limited inquiry into allegations/issues                               108
              Referred to database for statistical analysis and possible systemic reviews      56
              Fact-ﬁnding reports issued to OIG management                                      3
 Referrals pending at the end of the period                                                   32




                                                                                                                                  April 1 – September 30, 2008 | 75
JURISDICTION AND LAWS




                                              Jurisdiction and Laws
                                              More than 200 federal laws are enforced by Postal                   Delay, Destruction or Obstruction of Mail
                                              Inspectors and OIG Special Agents through investigations            (18 USC 1700, 1701, 1702, 1703)
                                              of crimes that impact the Postal Service, use the mail              Both agencies uphold federal statutes aimed at securing
                                              as a mechanism to support the crime or involve postal               customers’ mail, including statutes related to the desertion,
                                              employees. A wide array of federal statutes are used to             obstruction, delay, or destruction of mail. Special Agents
                                              ferret out fraud, waste and misconduct in government                investigate incidents involving postal employees and
                                              agencies, including the Postal Service. Generally, crimes           contractors. Postal Inspectors investigate incidents involving
                                              related to the U.S. Mail are covered in Title 18, United            outsiders.
                                              States Code, Sections 1691-1737, while others affecting
                                              the Postal Service are codiﬁed under Title 39. Shown here           Electronic Crimes (18 USC 1029, 1030, 1037, 1343,
                                              are some of the most important areas of jurisdiction.               2701)
                                                                                                                  Both agencies investigate electronic or “cybercrimes.”
                                              Assaults (18 USC 111, 1114)                                         Postal Inspectors protect customers from fraud schemes
                                              The protection of Postal Service employees is one of the            and other crimes that may occur online and involve the
                                              Postal Inspection Service’s most important responsibilities.        misuse of the mail or of the Postal Service. Special Agents
                                              Postal Inspectors promptly investigate assaults and threats         investigate intrusions into the Postal Service computer
                                              that occur while postal employees are performing ofﬁcial            networks or misuse of those systems by postal employees.
                                              duties or as a result of their employment.
                                                                                                                  Embezzlement, Theft or Destruction of Public Money,
                                              Bombs (18 USC 1716)                                                 Property or Records (18 USC 641, 1711)
                                              Although a rare crime, Postal Inspectors give high                  Theft or embezzlement of postal funds by postal employees
                                              investigative priority to the mailing of bombs, due to the          is investigated by the OIG.
                                              severe impact it can have on postal customers, employees,
                                              and operations.                                                     Extortion (18 USC 873, 876, 877)
                                                                                                                  Postal Inspectors investigate extortion and blackmail when
                                              Burglary (18 USC 2115)                                              demands for ransoms or rewards are sent through the mail.
                                              The Postal Service experienced 176 burglaries in FY 2008.
                                              Postal Inspectors respond and investigate these incidents           False Statements (18 USC 1001)
                                                                                                                  Both agencies use this statute in their investigations.
                                              Child Exploitation (18 USC 1470, 2251- 2254, 2422-
                                              2425)                                                               Forfeiture (18 USC 981, 982)
                                              The Postal Inspection Service is recognized as one of               Agents from both agencies use criminal and civil forfeiture
                                              the leading federal law enforcement agencies combating              statutes, when appropriate, to seize assets associated with
                                              the production, distribution, receipt, and possession of            criminal acts.
                                              child pornography and other crimes related to the sexual
                                              exploitation of children through the mail and the Internet.         Identity Fraud (18 USC 1028)
                                                                                                                  Identity fraud victimizes millions of Americans each year.
                                              Contract Fraud (18 USC 201, 440, 441)                               Both agencies play a role in investigating this crime. The
                                              The OIG aids the Postal Service by aggressively                     Postal Inspection Service investigates identity theft and
                                              investigating allegations of fraud, waste, misconduct and           account takeovers when there is a nexus to the mail or the
                                              other contract improprieties in the thousands of postal             Postal Service. Special Agents investigate cases where a
                                              contracts.                                                          postal employee steals mail to obtain personal information.

                                              Credit Card Fraud (15 USC 1644; Access Device Fraud:                Injury Compensation Fraud (18 USC 287, 1919, 1920)
                                              18 USC 1029)                                                        Schemes by healthcare providers and postal employees
                                              Both agencies investigate credit card fraud, and often work         to defraud the workers’ compensation system cost the
                                              jointly on cases involving postal employees and outsiders.          Postal Service millions of dollars annually. Special Agents’
                                              Special Agents investigate postal employees who misuse              investigative work saves the Postal Service millions in long-
                                              government credit cards or steal cards from the mail                term costs and deters others from abusing the system.
                                              and use them or sell them to others. Postal Inspectors
                                              investigate cards stolen from the mail by outsiders.                Kickbacks, Bribes and Gratuities (41 USC 51-53; 18
                                                                                                                  USC 201)
                                                                                                                  Special Agents investigate contract irregularities and
                                                                                                                  frauds — including kickbacks, bribes, and gratuities to
                                                                                                                  postal employees.




76 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                JURISDICTION AND LAWS




Lotteries (18 USC 1301, 1302, 1303 and 39 USC 3005)             Robbery (18 USC 2114)
Postal Inspectors protect consumers by strictly enforcing       Postal Inspectors respond promptly to robberies of postal
all laws related to importing, transporting, and mailing        employees, facilities, vehicles and postal contractors.
lottery tickets. Under the false representations and lottery
statute (3005), Postal Inspectors are authorized to instruct    Theft of Mail (18 USC 1708, 1709)
Postmasters to withhold from delivery and return to sender      Theft of mail is a primary investigative responsibility of
any mail that violates the law.                                 both agencies. Special Agents investigate thefts by postal
                                                                employees and contractors. Postal Inspectors investigate
Mail Fraud (18 USC 1341, 1342, 1345 and 39 USC 3005,            incidents by all others, including Postal Service contractors
3007)                                                           who transport mail to postal facilities.
The Postal Inspection Service is committed to protecting
postal customers from being defrauded through the mail.         Theft of Postal Property (18 USC 1707)
Postal Inspectors place special emphasis on mail fraud          Misconduct by postal employees is investigated by Special
scams related to advance fees, boiler rooms, health care,       Agents and includes theft, destruction, or misuse of Postal
insurance, investments, deceptive mailings, and other           Service property or equipment.
consumer fraud — especially when it targets the elderly or
other vulnerable groups.                                        Whistleblower Protection (5 USC 1201-1206, 1212-
                                                                1213)
Mail or Mailbox Destruction (18 USC 1705)                       Postal employees who report misconduct that is a violation
The Postal Inspection Service is committed to ensuring the      of law or a direct threat to public interest are protected by
safety of the nation's mail by securing letter boxes or other   this act. Special Agents investigate violations.
receptacles for U.S. Mail. To this end, Postal Inspectors
aggressively pursue individuals who willfully or maliciously
injure or destroy such receptacles.

Money Laundering (18 USC 1956, 1957)
Postal Inspectors and Special Agents investigate criminals
who attempt to conceal the proceeds of illegal acts through
monetary transactions. They identify and seize criminals'
assets, denying violators the proceeds of their crimes.

Money Orders, Counterfeit Stamps, and Related
Crimes (18 USC 500, 501, 503, 1720)
Special Agents investigate sophisticated schemes to
manipulate postal money orders or funds by employees
while Postal Inspectors pursue criminals who forge, alter, or
counterfeit postage stamps, postal money orders, and other
stamp products.

Narcotics and Controlled Substances (21 USC 841,
843, 844; 18 USC 1716)
Postal Inspectors initiate investigations related to
transporting and distributing narcotics through the
mail when employees are not involved. Special Agents
investigate the sale or distribution of illegal narcotics by
postal employees in the postal workplace or while on duty.

Obscenity and Sexually Oriented Advertising (18 USC
1461, 1463, 1735 and 39 USC 3010)
Postal Inspectors follow court-established guidelines to
uphold obscenity standards, which prohibit "obscene,
lascivious, indecent, ﬁlthy, or vile" mailings. Customers who
wish to halt mailings of sexually oriented advertisements
or similar solicitations may complete and submit PS Form
1500, available at Post Ofﬁces or online.




                                                                                                                                April 1 – September 30, 2008 | 77
The following are among the many trademarks owned by the United States Postal Service: United States Postal Service®, U.S. Postal Service®, USPS®,
First-Class Mail®, usps.com®, Click-N-Ship®, Automated Postal Center®, APC®, Express Mail®, Priority Mail®, Standard Mail®, Parcel Post®, Media
Mail®, Customized MarketMail®, Intelligent Mail®, Parcel Select®, Express Mail International®, Quick, Easy, Convenient®, United States Postal Service
Ofﬁce of Inspector General™, Post Ofﬁce™, Postal Service™, Signature Conﬁrmation™, Certiﬁed Mail™, Delivery Conﬁrmation™, Registered Mail™, ZIP
Code™, Carrier Pickup™, Priority Mail International™, First-Class Mail International™, Premium Forwarding Service™, Forever Stamp™ and Postmaster
General™. The Sonic Eagle Logo, Round Top Collection Box design, Letter Carrier Uniform design, and the Mail Truck design are also trademarks belonging
to the United States Postal Service.




78 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
The United States Postal Service
has two law enforcement agencies
with distinct areas of investigative
responsibility to serve the needs
of stakeholders, postal employees,
and the American public.



Who do I call?
Postal Inspection Service                 Office of Inspector General
Q   Security of employees, facilities,    Q   Theft, delay, or destruction of mail by
    and equipment                             employees and contractors
Q   Revenue and postage fraud             Q   Injury compensation fraud
Q   International mail security           Q   Embezzlements and financial crimes
Q   Violent crimes:                       Q   Contract fraud
    - Threats and assaults of employees   Q   Kickbacks
    - Buglaries and robberies
                                          Q   Computer crimes
Q   Mail theft by nonemployees
                                          Q   Narcotics
Q   Dangerous mail and bombs
                                          Q   Employee misconduct
Q   Mail fraud
                                          Q   Internal affairs and executive
Q   Identity theft                            investigations
Q   Narcotics in the mail                 Q   Whistleblower reprisals
Q   Child pornography and obscenity

Contact: 877-876-2455                     Contact: 888-USPS OIG
http://postalinspectors.uspis.gov/        www.uspsoig.gov
http://postalinspectors.uspis.gov/
U.S. POSTAL SERVICE OFFICE OF INSPECTOR GENERAL
1735 N. Lynn Street, Arlington, VA 22209-2020
703.248.2100 Fax: 703.248.0796 www.uspsoig.gov

U.S. POSTAL INSPECTION SERVICE
475 L’Enfant Plaza SW, Washington, DC 20260-2112
1.877.876.2455 http://postalinspectors.uspis.gov/
